<html>
<title> - AIR TRAFFIC CONGESTION AND CAPACITY IN THE CHICAGO ILLINOIS REGION AND ITS EFFECTS ON THE NATIONAL AIR TRAFFIC SYSTEM</title>
<body><pre>[Senate Hearing 107-1083]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1083

                AIR TRAFFIC CONGESTION AND CAPACITY IN 
                 THE CHICAGO, ILLINOIS REGION AND ITS 
                  EFFECTS ON THE NATIONAL AIR TRAFFIC 
                                 SYSTEM

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
88-897                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, 
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 15, 2001....................................     1
Statement of Senator Durbin......................................     5
Statement of Senator Fitzgerald..................................     4
Senator McCain...................................................     1
    Prepared statement...........................................     2
Statement of Senator Rockefeller.................................     3

                               Witnesses

Bayh, Hon. Evan, U.S. Senator from Indiana, prepared statement...    26
Crown, Lester, Chairman, Material Service Corporation and Chair 
  of Civic Committee's Aviation Task Force.......................    94
    Prepared statement...........................................    96
Garvey, Hon. Jane F., Administrator, Federal Aviation 
  Administration.................................................    35
    Prepared statement...........................................    36
Gutierrez, Hon. Luis, U.S. Representative from Illinois..........    22
Hamos, Hon. Julie, Chair, House Aviation Committee, State of 
  Illinois.......................................................    28
    Prepared statement...........................................    29
Hyde, Hon. Henry, U.S. Representative from Illinois..............    11
    Prepared statement...........................................    12
Jackson, Hon. Jesse L., Jr., U.S. Representative from Illinois...    14
    Prepared Statement...........................................    16
Karaganis, Joe, General Counsel, Suburban O'Hare Commission......    65
    Prepared statement...........................................    69
Kernan, Hon. Joe, Lieutenant Governor, from the State of Indiana.    24
    Prepared statement...........................................    25
Lugar, Hon. Richard G., U.S. Senator from Indiana, prepared 
  statement......................................................    26
Manzullo, Hon. Donald A., U.S. Representative from Illinois......    20
    Prepared statement...........................................    21
Paesel, Edward W., Executive Director, South Suburban Mayors and 
  Managers Association, representing the Keep Chicago/Illinois 
  Flying Coalition...............................................   100
    Prepared statement...........................................   101
Schwiebert, Mark, Mayor, City of Rock Island.....................   102
    Prepared statement...........................................   104
Visclosky, Hon. Peter J., U.S. Representative from Indiana, 
  prepared statement.............................................    27
Walker, Thomas R., Commissioner of Aviation, Chicago, Illinois...    38
    Prepared statement...........................................    41
Weller, Hon. Jerry, U.S. Representative from Illinois............    17
    Prepared statement...........................................    19
Wheeler, Linda M., Director, Office of Planning and Programming, 
  Illinois Department of Transportation..........................    43
    Prepared statement...........................................    45

                                Appendix

Wietecha, Ronald W., Mayor, City of Park Ridge, Illinois, 
  prepared statement.............................................   115

 
AIR TRAFFIC CONGESTION AND CAPACITY IN THE CHICAGO ILLINOIS REGION AND 
             ITS EFFECTS ON THE NATIONAL AIR TRAFFIC SYSTEM

                              ----------                              


                         FRIDAY, JUNE 15, 2001

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                       Chicago, IL.
    The Committee met, pursuant to notice, at 9:10 a.m. in room 
2525, Dirksen U.S. Courthouse Building, Hon. John McCain, 
presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Good morning. I want to welcome everyone 
here to this very important hearing this morning. And I'm 
joined here by my colleagues, Senator Rockefeller of West 
Virginia, who's the Chairman of the Aviation Subcommittee and 
plays a very critical and vital role in the deliberations and 
actions of the Commerce Committee. My colleague and friend, 
Senator Dick Durbin as well as Senator Peter Fitzgerald.
    We'd like to welcome all the witnesses today and those of 
us who have a brief opening statement. And then we would like 
to welcome our first panel of witnesses and we would urge our 
colleagues from the first panel to try to keep their opening 
remarks to 3 minutes since we have two additional panels to 
hear from this morning. And we appreciate the courtesy and we 
are very grateful that you would take the time from your busy 
schedules to join us this morning.
    As everyone who flies is well aware, air travel is reaching 
a crisis point. In critical areas around the nation, such as 
Chicago, the demand for air services is pushing existing 
capacity to its limits. Deregulation of the airline industry 
unleashed a great revolution in travel, one that greatly 
benefited the flying public. As a consequence, the demand for 
flying is reaching new heights. But the lack of critical 
infrastructure is threatening to take us backwards. Given the 
importance of aviation to our future, I don't think that this 
is an acceptable option.
    The Chicago area will, without a doubt, play a key role in 
the future of the national air transportation system, not 
including the work of the latest corporate giant to call the 
Windy City home. Because O'Hare is a major hub for the two 
largest airlines in the world, it plays a critical role in the 
efficiency of the whole air transportation system. While the 
airport can reasonably handle current demand on a good weather 
day, it is the reality of seasonal severe weather and the 
prospect of continued growth in air traffic that threaten 
Chicago and the nation with aviation gridlock in the not too 
distant future.
    The bottom line is that we now face a serious national 
problem. And I emphasize a national problem that requires 
numerous regional solutions. Right now, the Federal Government 
does not build airports or runways, it merely assists local 
officials in doing so. But conflicts and indecision at the 
local level are threatening the economic well-being of this 
nation.
    I fully recognize the difficulties associated with building 
new airports and expanding those in urban and suburban 
communities. Not-in-my-backyard attitudes are all too common, 
even among those who otherwise complain about airline delays.
    Progress in transportation is rarely easy, but any negative 
impacts are virtually always far outweighed by the benefits. 
Undoubtedly, some communities were harmed by the construction 
of the interstate highway system, but I think we all can agree 
that it produced a tremendous national gain. We must think of 
airport infrastructure in the same way.
    I'm no stranger to the controversies and politics 
surrounding airport development in this area, I do not come 
here to advocate a particular solution. I do not know whether 
it would be best to expand O'Hare, to build a new airport in 
Peotone, to expand existing facilities in outlying areas, or to 
directly undertake all of these actions.
    The only thing that is not an option is inaction on the 
part of state and local officials. While I am reluctant, 
extremely reluctant to interfere with local and regional 
decisionmaking in this area, failure to act could force the 
Federal Government to become involved in the situation. I think 
we've already seen the beginnings of that with the introduction 
of bills in Congress to take away certain elements of state 
control of the expansion of O'Hare.
    I'm anxious to hear from today's witnesses. There are a 
wide variety of viewpoints represented here, and it should make 
for a spirited discussion. The one message I have at the outset 
is that something must be done soon. I strongly encourage 
everyone to work quickly and cooperatively toward a solution. 
If it is not to be done at the local level, the pressure to 
impose a result from above will grow rapidly.
    I want to thank all of you for being here today. There are 
people who asked to testify today and we simply could not 
because of capacity. But their written statements will be 
included in the record of this hearing.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona

    As everyone who flies is well aware, air travel is reaching a 
crisis point. In critical areas around the nation, such as Chicago, the 
demand for air services is pushing existing capacity to its limits. 
Deregulation of the airline industry unleashed a great revolution in 
travel, one that greatly benefitted the flying public. As a 
consequence, the demand for flying is reaching new heights. But the 
lack of critical infrastructure is threatening to take us backward. 
Given the importance of aviation to our future, I do not think that 
this is an acceptable option.
    The Chicago area will, without a doubt, play a key role in the 
future of the national air transportation system--not including the 
work of the latest corporate giant to call the Windy City home. Because 
O'Hare is a major hub for the two largest airlines in the world, it 
plays a critical role in the efficiency of the whole air transportation 
system. While the airport can reasonably handle current demand on a 
good weather day, it is the reality of seasonal severe weather and the 
prospect of continued growth in air traffic that threaten Chicago and 
the nation with aviation gridlock in the not too distant future.
    The bottom line is that we now face a serious national problem that 
requires numerous regional solutions. Right now, the Federal Government 
does not build airports or runways--it merely assists local officials 
in doing so. But conflicts and indecision at the local level are 
threatening the economic well being of the nation. I fully recognize 
the difficulties associated with building new airports and expanding 
those in urban and suburban communities. Not-in-my-backyard attitudes 
are all too common, even among those who otherwise complain about 
airline delays. Progress in transportation is rarely easy, but any 
negative impacts are virtually always far outweighed by the benefits. 
Undoubtedly, some communities were harmed by the construction of the 
interstate highway system, but I think we all can agree that it 
produced a tremendous national gain. We must think of airport 
infrastructure in the same way.
    Although I am no stranger to the controversies and politics 
surrounding airport development in this area, I do not come here to 
advocate a particular solution. I do not know whether it would be best 
to expand O'Hare, to build a new airport in Peotone, to expand existing 
facilities in outlying areas, or to directly undertake all of these 
actions. The only thing that is not an option is inaction on the part 
of state and local officials. While I am reluctant to interfere with 
local and regional decision making in this area, failure to act could 
force the Federal Government to become involved in the situation. I 
think we have already seen the beginnings of that with the introduction 
of bills in Congress to take away certain elements of state control of 
expansion of O'Hare.
    I am anxious to hear from today's witnesses. There are a wide 
variety of viewpoints represented here, and it should make for a 
spirited discussion. The one message I have at the outset is that 
something must be done soon. I strongly encourage everyone to work 
quickly and cooperatively toward a solution. If it is not to be done at 
the local level, the pressure to impose a result from above will grow 
rapidly.

    Senator McCain. Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you. Thank you, Chairman McCain. 
I agree. Air transportation and airport capacity is a national 
issue. It may take form in a local situation but it is a 
national issue. Delays in Chicago or New York affect people 
throughout the country. They affect people where I come from. 
You get used to not being affected because you're in a big 
place. Some of us live in little places, live and die off of 
what happens according to your airport capacity.
    You had a lot of delays last year. In the summer, a lot of 
bad weather. And other conditions, disputes, et cetera. And the 
nation paid a terrible price for that. And a lot of it was 
because you didn't have the capacity. So last year as part of 
Air 21, we fought hard to make sure the small communities had 
access to O'Hare by phasing out the high density rule, which 
they had put out.
    We did this because we want people to come here to visit 
because people want to be here to visit and to go from here to 
other places in the country and around the world. We need 
Chicago to thrive. We need Chicago to grow.
    Now, I understand that the mayor and the Governor are going 
to make a decision by July 1st. I pray that that is the case. 
If nothing is done, the leaders in Illinois, as Senator McCain 
has indicated, need to know that delay is not an option. 
Congress is not going to stand for that. Either solve the issue 
or it will be solved for you.
    You clearly need to expand and modernize O'Hare. That's 
clear to me anyway. All of our constituents want access to the 
world. And O'Hare is the way that we get there, whether the 
world is the world or the world of America.
    The state continues to study Peotone. That's good. Funding 
acquisition of the land, studying the environmental issues. 
I've been through some similar fights in the state of West 
Virginia with so-called regional airports. I've been through 
those in my political career.
    Right now, as far as I can tell, there's not a whole lot of 
support for Peotone. But that could change and I have to 
recognize that. And that could change. And----
    Senator McCain. If I may interrupt just for a second, 
Senator Rockefeller. This is a congressional hearing. And we 
cannot conduct it if it's going to be interrupted by members of 
the audience. We hope you will give the same respect to Members 
of this Committee and witnesses, that they deserve. And I will 
urge you at this time to refrain from any comments that you 
would wish to make, understanding the emotions surrounding this 
issue. So, I would ask for your courtesy. Thank you. Please.
    Senator Rockefeller. Thank you, Mr. Chairman. And as I say, 
that could change because we went through the same situation in 
Washington with Dulles. That was evidently not possible. Now, 
they're building on billions and billions of dollars. So, it's 
an evolving situation. Let's see what's going to happen.
    But when the decision is made to expand O'Hare and/or build 
Peotone, I have a bill pending, along with Senator McCain and 
Senator Hutchison, that if enacted, will facilitate, and make 
more easy the building of runways across the country that get 
on the right kind of lists, we're likely to take this up in 
July.
    I end by saying this, the issue is simple. We can either 
spend another 10 years arguing over what to do or we can act 
today and soon for the future. Airport development means jobs 
and opportunities for you. It means jobs and opportunities for 
your airport for my state. There is a direct and total 
connection with all states and O'Hare. It's one of the great 
airports of the world, as is transportation in the midwest.
    And I end by saying claims of secret studies and the like, 
which we'll probably hear about, are past actions or inactions 
or charges or counter charges are simply not relevant, at least 
to me, here today. The issue is only what and when will a 
decision be made and who will make it? You or the Congress?
    Thank you, Mr. Chair.
    Senator McCain. Thanks, Senator Rockefeller.
    Senator Fitzgerald.

            STATEMENT OF HON. PETER G. FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. Thank you very much, Mr. Chairman. And 
I want to thank you for coming to Chicago. And I want to thank 
Senator Rockefeller as well. I appreciate the interest of my 
colleagues in solving the problems we have in aviation in 
Chicago.
    We really do have a crisis in the skies over the Chicago 
region. And in my judgment, the reason for that crisis are 
because we don't have enough capacity. We haven't built enough 
capacity.
    It's kind of like the reason why they have a problem with 
energy in California. They have a crisis in California because 
they haven't built any new power plants in the last 10 years. 
And yet their demand for electricity has gone way up. Well, in 
the last 20 years in this country, demand for aviation travel 
has gone up by 400 percent. But nowhere in this country have we 
built any new airports except in Denver, Colorado, where we 
replaced Stapleton Airport with Denver International Airport.
    In my judgment, all of us recognize the need or most of us 
probably in this room recognize the need for more capacity. And 
the question becomes, where is it most feasible, cost effective 
and where would it be quickest to add that aviation capacity 
for the Chicago region? This debate has been going on for 30 
years. Back when O'Hare first reached capacity in 1969, Mayor 
Daley, the old Mayor Daley, attempted to build a third Chicago 
airport out in Lake Michigan. Some of us here are old enough to 
remember that.
    And then it went on throughout the 1980's. We had a number 
of studies. A study in 1988, in which the city of Chicago and 
the FAA participated. Both concluded that it was not feasible 
to expand Midway or O'Hare and that the area needed a third 
airport by the year 2000. So, I look forward to hearing from 
the witnesses. I thank my colleagues for being here and 
together, perhaps, some good can come out of this Commerce 
Committee hearing.
    Thank you, Senator McCain.
    Senator McCain. Thank you, Senator. You're welcome.

             STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you very much. Chairman McCain and 
Chairman Rockefeller, this is an oddity to have two chairmen at 
the same hearing. It reflects, I think, two things. A Senate in 
transition as well as a bipartisan approach to a very important 
issue which really doesn't know a partisan boundary. And I'm 
glad that you are here today and I hope that your presence and 
the experience that you have will indicate how serious this 
issue is.
    It's an issue, unfortunately, that we have been circling 
for a long time. It's time to bring it to a landing. It's time 
for us to come to a conclusion. We may say that O'Hare is 
Chicago's airport and it certainly is. But this hearing today 
makes it clear that O'Hare's problems are America's problems.
    O'Hare means so much to us that I think our first priority 
must be to modernize O'Hare. To take what was adequate 40 years 
ago and to really build it for the 21st Century so that we have 
safe runways, so that we have efficient air operations at 
O'Hare. The jobs that are at stake, the economic opportunities 
that's at stake; we'll hear about it a lot during the course of 
this hearing.
    This is our chance. Chicago can't be a world class city 
with a second class airport. And we have to dedicate ourselves 
to making certain that O'Hare is a world class airport for the 
21st Century.
    You're going to hear testimony from a number of people 
today. One, I invited. Mayor Mark Schwiebert, came up from Rock 
Island, Illinois, to speak for the downstate communities. The 
six downstate Illinois airports that understand the importance 
of O'Hare. As Senator Rockefeller spoke for West Virginia, 
there are so many cities that are not in the city of Chicago 
but nearby that count on this airport for their own economic 
future.
    We have a number of letters which I'll make part of the 
record from mayors downstate who wish they could be here today 
and testify about the importance of this hearing.
    Let me say a word too about Peotone. I don't believe that 
this should be an either/or situation. I honestly believe that 
we should make our first dedicated priority to modernizing 
O'Hare but continue our efforts to explore the possibility of a 
third airport. I have signed on for the environmental analysis 
for Peotone. I know that there are people here from Rockford 
and Gary and other airports that want to be heard. But I 
believe that we should not preclude the third airport option.
    As far as I can see it at this point, no greenfield 
development anywhere in the state of Illinois can replicate the 
infrastructure investment at O'Hare. No engineer can redesign 
the 7,000 acre airport at O'Hare beyond its capacity limits. I 
think those two things are very obvious to us.
    I also think it's important to note that John Carr, 
President of the National Air Traffic Controllers Association, 
has written in support of modernizing O'Hare. The men and women 
who are responsible for landing us safely are begging us to do 
something to make O'Hare a safer airport. How can we, in good 
conscience, ignore their plea? I would ask that the letter from 
Mr. Carr be part of the record later in the course of the 
hearing.
    Let me just conclude, too, Mr. Chairman, we will not 
discuss it today but most of the people who live around O'Hare, 
when asked about the major problem at O'Hare, don't identify 
airplanes. They identify traffic. The congestion around O'Hare 
has reached an intolerable level. Governor George Ryan should 
be commended for taking on the Hillside Strangler. Our next 
responsibility is the O'Hare Strangler.
    We have to make certain that modernization of O'Hare 
includes modernization of the traffic around O'Hare so that 
people who have invested their life savings in a home don't 
find themselves hopelessly mired in traffic congestion. That 
should be part of this overall solution.
    Mr. Chairman, thank you. Both Mr. Chairmen, thank you for 
joining us today.
    [The information referred to follows:]

  Prepared Statement from National Air Traffic Controllers Association

    The National Air Traffic Controllers Association appreciates the 
opportunity to submit the following statement on Chicago airport 
capacity to the Senate Commerce Committee.
    NATCA is the exclusive representative of over 15,000 air traffic 
controllers serving the FAA, Department of Defense and private sector. 
In addition, NATCA represents approximately 1,200 FAA engineers, over 
600 traffic management coordinators, automation specialists, regional 
personnel from FAA's logistics, budget, finance and computer specialist 
divisions, and agency occupational health specialists, nurses and 
medical program specialists.
    NATCA supports additional runways at Chicago O'Hare International 
Airport to handle the current levels of traffic as well as anticipated 
future growth. Because of its location, and the fact that two of the 
largest airlines operate hubs there in addition to 50 other airlines, 
Chicago O'Hare is extremely important to the National Airspace System. 
The ripple effect on the rest of the system is tremendous; congestion 
at Chicago O'Hare leads to delays at airports across the country.
    There is no question that increased airport capacity will have a 
significant impact on reducing airline delays, and capacity can be 
increased through construction. Fifty miles of concrete poured at our 
nation's 25 busiest airports will solve most of our aviation delays. A 
new runway can allow 30 to 40 more operations per hour. NATCA commends 
the Committee for taking a proactive role in the debate over aviation 
delays and airport construction.

      RUNWAY CONFIGURATION AT CHICAGO O'HARE INTERNATIONAL AIRPORT

    An airport's capacity to handle air traffic is a function of its 
size, the layout of its runways, the air traffic patterns, both 
arriving and departing, and the timeframe in which a surge of traffic 
must be dealt with due to airline scheduling. Chicago O'Hare has seven 
runways. One of these runways, however, is short and restricted to 
general aviation aircraft leaving six main runways for commercial 
aircraft. These six runways consist of three sets of parallel runways, 
each set intersects with another set of parallel runways. The longest 
runway is 13,000 feet.
    Normally, the six main runways can handle 40 operations (arrivals 
or departures) each, per hour. Most of the time all six runways are 
used simultaneously. Air traffic controllers at O'Hare try to use three 
of the runways strictly for arrivals, and the other three runways 
strictly for departures. Theoretically, this would give Chicago O'Hare 
an arrival rate of 120 per hour, along with a departure rate of 120 per 
hour. However, this is not the case.
    The actual arrival/departure rate at Chicago O'Hare is 100 an hour, 
about 40 less than expected. The main reason is that all the runways at 
O'Hare intersect at some point. Separation rules for intersecting and 
converging runways are stricter than for parallel runways. Applying 
these rules slows down the operation and therefore reduces the arrival 
and departure rates. In addition, under certain wind conditions there 
are times when only five of the six major runways can be used.
    The actual arrival/departure rate will decline to less than 80 an 
hour during inclement weather. At all times, Chicago O'Hare uses at 
least two runways for arrivals. During peak time periods (every hour 
and a half), three or occasionally four runways will be used for 
arrivals. When. controllers are using three runways for arrivals, a set 
of parallel runways is used along with either a converging or an 
intersecting runway as the third. However, certain weather conditions/
minimums must exist to use converging or intersecting runways.
    These minimums are referred to as Visual Flight Rule (VFR) 
conditions. VFR minimums are a 1000 feet above ground level cloud 
ceiling and visibility of at least three miles. When the weather 
conditions drop below VFR, converging and intersecting runways cannot 
be used. Therefore, the airport is restricted to two parallel arrival 
runways. The reason is that in poor weather aircraft can not see each 
other as well and enter the clouds quicker. An aircraft exercising a go 
around would be pointed at other aircraft, and aircraft pointed at each 
other while entering clouds at the same time is not safe. Limiting 
arrivals to parallel runways eliminates this concern.
    Airlines that use Chicago O'Hare are aware that when weather 
conditions fall below VFR only two runways are available for arrivals, 
and that the arrival rate will be reduced to 80 or less per hour. This 
is when capacity management becomes even more critical. Responsible 
scheduling of flights within airport capacity limits will go a long way 
toward alleviating delays.

                 LAND AND HOLD SHORT OPERATIONS (LASHO)

    NATCA supports the use of land and hold short operations to 
increase airport capacity and help alleviate delays. LAHSO is a 
procedure in which the air traffic controller clears an aircraft to 
land on one runway with additional instructions to hold short of an 
intersecting runway where simultaneous operations are taking place. 
This procedure allows controllers to use intersecting runways as if 
they do not intersect at all, thus allowing for the maximum arrival and 
departure rates.
    LAHSO has been used safely and effectively at Chicago O'Hare and 
other airports for over 30 years to reduce airport delays and 
congestion. In fact, the runway configuration at O'Hare is conducive to 
the use of LAHSO. NATCA will continue to work with the FAA, the pilots, 
and other stakeholders to maximize the use of this capacity enhancing 
tool.

          SOLUTIONS TO THE CAPACITY PROBLEM AT CHICAGO O'HARE

    The key to increasing capacity at O'Hare is to reduce the number of 
converging and crossing runways and to increase the number of parallel 
runways. Adding one more parallel runway would increase the arrival and 
departure rates to 120 an hour during all weather conditions. This 
would basically eliminate all the delays we have today.
    In addition, the remaining runways should be positioned so that 
they do not intersect with other runways or at least intersect: at 
preferred points. This would allow aircraft to takeoff without being 
affected by arrivals. Just look at Hartsfield International Airport in 
Atlanta. With only four runways (they are building a fifth), this 
airport is often cited as the busiest in the world. This is because the 
four runways are parallel and do not intersect or converge at any 
point. Parallel runways would eliminate the above-mentioned issues 
associated with weather and LAHSO.

      CONTROLLER INVOLVEMENT WITH ADDING RUNWAYS OR RECONFIGURING 
                             CHICAGO O'HARE

    A number of proposals have been submitted for new runways at 
Chicago O'Hare. It is the FAA and the air traffic controllers that 
establish and implement the traffic patterns. Therefore, NATCA 
respectfully requests to be actively involved in any decisions 
regarding the building and location of new runways or reconfiguration 
of current runways. The FAA and NATCA can provide significant input as 
to which runway configurations will provide the most benefit and 
capacity to the airport operation, while maintaining safety.
    The location of runways, even parallel runways, can create 
situations that force air traffic controllers to route taxing aircraft 
across active runways. This situation is common at airports where 
runways are all parallel to each other. Any time an aircraft is forced 
to taxi across a runway, the chance of error exists. Runways can be 
configured to eliminate any such risks.

                               CONCLUSION

    Without expanding domestic airspace and airport capacity, and 
addressing the issue of capacity management, delays will not only 
continue to increase but they will reach the point of gridlock in. the 
foreseeable future. NATCA looks forward to working with the Committee, 
the FAA, the pilots, airlines, airports, and other interested groups to 
develop and implement concrete solutions. We want to be part of the 
solution.
                                 ______
                                 
              National Air Traffic Controllers Association,
                                                     June 12, 2001.
Hon. Richard Durbin,
U.S. Senate,
Dirksen Senate Office Building,
Washington, DC.
    Dear Senator Durbin: I am writing to express my strong support for 
additional runways at Chicago O'Hare International Airport to handle 
the current levels of traffic as well as anticipated future growth. I 
spent 10 years working as a controller at Chicago Terminal Radar 
Approach Control, so I am all too familiar with the challenges we face 
regarding capacity at O'Hare. The ripple effect on the rest of the 
system is tremendous, leading to delays at airports across the country.
    Airline delays and cancellations, capacity and access constraints, 
and traffic congestion continue to plaque our National Airspace System. 
Passenger frustration is over the top and customers are unhappy. Part 
of the reason the country is faced with this capacity crisis is that 
airport construction--terminals, taxiways, runaways, gates--has not 
kept pace with passenger growth. Only nine new runways were opened at 
the country's 100 largest airports between 1995 and 1999. And, only 
three of these nine runways were built at the nation's 28 largest 
airports.
    There is no question that increased airport capacity will have a 
significant impact on reducing airline delays. Capacity can be 
increased through construction, and AIR-21 provides the necessary 
financial resources. Fifty miles of concrete poured at our nation's 25 
busiest airports will solve most of our aviation delays. A new runway 
can allow 30 to 40 more operations per hour.
    Because of its location, the fact that two of the largest airlinea 
operate hubs there, and that 50 other airlines operate there, Chicago 
O'Hare is extremely important to the National Airspace System. New 
runways at O'Hare will also help efforts to improve air service to 
small and mid-sized communities.
    Thank you for your consideration and we look forward to working 
with you on this important matter.
            Sincerely,
                                              John S. Carr,
                                                         President.
                                 ______
                                 
                                           Capital Airport,
                                                     June 11, 2001.
Hon. Richard J. Durbin,
332 Dirksen Senate Office Building,
Washington, DC.
    Dear Senator Durbin: I am writing to express our support for 
expansion and the modernization of O'Hare International Airport in 
efforts to reduce airline congestion and delays.
    Not only is O'Hare an extremely strong and important destination 
airport for Springfield and other downstate passengers, Illinois too 
benefits from the preeminent role Chicago's O'Hare plays as a passenger 
hub from a connectivity point of view to the world. There are only a 
very limited number of other airports throughout the world that are as 
vital to air transportation as O'Hare, and we in Illinois, are the 
fortunate beneficiaries of this dynamic economic force.
    Recently, much discussion about O'Hare expansion versus reliever 
airports such as Rockford and Peotone has occurred at the local, 
regional, State and Federal levels, again indicating O'Hare's 
importance to air transportation. While we have no intention to take 
one posit on over another, it is clear that O'Hare is one of the most 
successful hub airports in the industry. It is because of this success 
that O'Hare operates, according to the FAA, at/or over capacity during 
parts of every day, causing flight delays and cancellations, which 
negatively impact Springfield and other downstate passengers.
    It only makes sense to continue to expand and modernize O'Hare 
since it is a successfully proven airport facility that we know has 
served Springfield's passengers for decades. State and Federal 
officials should not overlook expansion and modernization opportunities 
at O'Hare, nor should they abandon consideration of other alternatives. 
I respectfully request that you support and help accelerate O'Hare 
expansion and modernization. The O'Hare airport operation is simply too 
important to Springfield and the whole of Illinois to let the delay in 
growth and modernization continue.
            Sincerely,
                            Robert W. O'Brien, Jr., A.A.E.,
                                    Executive Director of Aviation.
                                 ______
                                 
                                       Office of the Mayor,
                                      City of Quincy, June 7, 2001.
Hon. Richard J. Durbin,
332 Dirksen Senate Office Building,
Washington, DC.
    Dear Senator Durbin: I am writing to express my support for 
expansion of O'Hare International Airport.
    As you know, O'Hare is the No. 1 destination for Downstate Illinois 
passenger air service. Thanks to O'Hare, many communities, like Quincy, 
enjoy one stop service to anywhere in the U.S. and the world.
    O'Hare also provides economic development and tourism potential for 
this community that is unmatched by any other source.
    A great deal has been written lately about O'Hare expansion versus 
Peotone construction. I'm not taking sides in that fight. I simply 
believe it is shortsighted not to do everything possible to modernize 
O'Hare. After all, the airport was designed in the 1950's, complete 
with intersecting runways. It needs to be brought into the 21st Century 
in order to accommodate larger aircraft, improve efficiency, and ensure 
maximum safety for the traveling public.
    According to the FAA, O'Hare operates at or over capacity for 
portions of everyday. And the Federal forecasts call for increased 
delays and cancellations. All this negatively impacts smaller 
communities. We're the first to see reduced service or terminations. If 
Downstate Illinois is to grow passenger air service and expand economic 
development, we need an expanded, modern O'Hare.
    State and Federal officials should not turn their backs on O'Hare 
and third airport supporters shouldn't attempt to tear down O'Hare in 
order to build Peotone. I respectfully ask you to help expedite O'Hare 
expansion. It is simply too important to Downstate Illinois to delay.
            Very truly yours,
                                         Charles W. Scholz,
                                                             Mayor.
                                 ______
                                 
                                       Chamber of Commerce,
                             Decatur & Macon County, June 11, 2001.
Hon. Richard Durbin,
332 Dirken Senate Office Building,
Washington, DC.
    Dear Senator Durbin: I am writing to express my strong support for 
improvements and expansion at O'Hare Company International Airport.
    As you are well aware, downstate communities such as Decatur have 
been fighting a losing battle over air service. In the last 4 years we 
have twice lost service to Chicago O'Hare, and are currently without 
it. O'Hare International is the No. 1 destination for both business and 
leisure travelers from Central Illinois, as it offers air service to 
the rest of the world.
    We had hoped that when slot restrictions were lifted our community 
would have a better chance at once again offering passenger air service 
to O'Hare. However, the FAA reports O'Hare operates at or over capacity 
every day. Crowded conditions there make the possibility of restoring 
our air service to O'Hare extremely unlikely.
    Just because we are a smaller community in Downstate Illinois, we 
should not be forgotten! We are home to big business, and for the 
competitive, global business climate of this century our travelers need 
access to safe, efficient travel. This will not happen unless major 
changes are made to the Chicago O'Hare facility.
    If we have any chance at all of attracting a commuter airline to 
serve our passengers through O'Hare, major improvements must be made. I 
am writing to express my support for expansion and modernization of 
O'Hare International.
    The Chamber of Commerce for Decatur and Macon County is not at this 
time taking sides in the controversy over construction of a third 
airport in Peotone. However, modernizing O'Hare is imperative to the 
future economic development of our community and the State of Illinois.
            Sincerely,
                                               Julie Moore,
                                                         President.
                                 ______
                                 
                            Metropolitan Airport Authority,
                       Rock Island County, Illinois, June 11, 2001.
Hon. Ernest F. Hollings, Chairman,
Committee on Commerce, Science and Transportation,
U.S. Senate,
Washington, DC.
    Dear Senator Hollings: I would request this document be entered 
into the record for the hearing that is going to take place on June 15, 
2001, at the Dirksen US Courthouse in Chicago, Illinois, before the 
Senate Committee on Commerce, Science, and Transportation on Air 
Traffic Congestion and Capacity in the Chicago, Illinois Region and its 
Effect on the National Air Traffic System.
    The Quad City International Airport is critical to the economy of 
Western Illinois and Eastern Iowa. It serves a 60-mile catchment area, 
including Rock Island, Moline, East Moline, Davenport and Bettendorf 
and includes approximately 1.2 million people. The airport will enplane 
over 400,000 passengers in 2001, which is a 56 percent increase over 
the past 6 years. The Quad City International Airport is expected to be 
the fifth fastest growing airport in the next 5 years. In order to 
accommodate this growth, the Airport Authority of the Quad Cities has 
constructed a new $18 million terminal concourse expansion that has 12 
new gates, two new baggage carousels, a frequent flyer lounge, a new 
restaurant and snack bar, and a new gift shop. The airport serves six 
different hubs: St. Louis, Chicago O'Hare, Minneapolis, Detroit, 
Denver, Milwaukee, and Atlanta. For a region of our size, this is very 
good service.
    Today, we don't have reliable and frequent air service to O'Hare. 
This is very devastating to the businesses in our region. Back on July 
31, 1999, American Airlines terminated service from the Quad Cities to 
O'Hare because of slot needs of American for service to another 
community. That left the airport with five daily flights by United 
Express to Chicago from the Quad Cities. This does not satisfy our 
demand for service to O'Hare and beyond and leaves no margin for error 
if a flight is delayed or canceled. Every day, people drive to Chicago 
to make their international connections. The reason for this is because 
of air traffic or weather delays.
    Greater capacity at O'Hare is critical for our businesses as well 
as our other passengers that want to fly on United Airlines through 
Chicago. We in the Quad Cities would like to see additional runways at 
O'Hare to provide more capacity. Midwestern communities depend on 
service to O'Hare. The need for these new runways is now, not 10 to 15 
years that it often takes to complete a runway project. We also need a 
more efficient environmental review process, so that these critical 
construction projects can be quickly completed to meet current and 
future demand. The proposed funding for the expansion at Chicago O'Hare 
can be through Passenger Facility Charges (PFC's) and will not be a 
burden on the taxpayers of Illinois.
    I would urge your support for new runways at O'Hare. This will help 
many communities retain and gain access to one of the busiest airports 
in the world.
            Sincerely,
                                   Bruce E. Carter, A.A.E.,
                                              Director of Aviation.

    Senator McCain. Thank you very much. Our first panel 
witness is the Honorable Jerry Weller, U.S. House of 
Representatives and the Honorable Donald Manzullo and the 
Honorable Henry Hyde and the Honorable Jesse Jackson, Jr., the 
Honorable Joseph Kernan, who is the Lieutenant Governor of 
Indiana and the Honorable Julie Hamos, the Illinois State 
Representative.
    We usually begin by both age and seniority and Congressman 
Hyde fits both of those categories, so we'll begin with you 
Congressman, Chairman Hyde. Thank you and welcome.

               STATEMENT OF HON. HENRY J. HYDE, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Congressman Hyde. Thank you, Senator. I note that my hair 
is no whiter than yours.
    In any event, because you've asked us to confine our 
remarks to 3 minutes, I will try to cut to the chase. My good 
friend, Senator Rockefeller, assumes that O'Hare is to be 
enlarged. And we hope that's an issue here. The quality of life 
for the thousands of people who live around O'Hare and who 
assert that 900,000 plus operations in and out is a saturation 
point. And there are questions of pollution, noise, safety that 
ought to be considered when the critical decision is made as to 
whether to enlarge O'Hare or build an airport or do both.
    Constructing more runways at O'Hare, I assert, would be 
harmful to public health, the economy and the environment. I 
believe we must build a new regional airport now. The question 
is, where do we put the capacity? Do we build a third gateway 
to the world?
    Let's take a look at the alternatives, which are 
straightforward. We can build new runways at a new airport, at 
O'Hare, at Midway, or a combination of all of the above. It's 
been suggested adding Gary or Rockford to the mix.
    Given these options, the following facts are clear. The new 
runways can be built faster at a new airport as opposed to 
O'Hare or Midway. Simply from the standpoint of physical 
construction, as well as paper and regulatory planning, the new 
runways can be built faster at a greenfield site.
    More new runway capacity can be built at a new site than at 
O'Hare or Midway. It's obvious that more new runways can be 
built at a new, larger greenfield site. Additional space can be 
acquired at Midway or O'Hare by destroying densely populated 
surrounding residential communities, but only at tremendous 
economic and environmental cost.
    The new runways can be built at far less cost at a new 
airport than at O'Hare or Midway. New runways can be built 
cheaper at a greenfield site. Given the enormous public 
taxpayer resources that must be used for any of the 
alternatives, the Bush Administration must compare the overall 
costs of building runway capacity at a new airport versus 
building the same capacity at O'Hare or Midway.
    Construction of a new airport will have far less impact on 
the environment and public health than would expansion of 
either Midway or O'Hare. Midway, and later O'Hare, were sited 
and built at a time when concerns over environment and public 
health were far less than they are today. As a result, both 
existing airports have virtually no environmental buffer. In 
contrast, the site of the new South Suburban Airport has, by 
design, a large environmental buffer which will ameliorate 
most, if not all, of the environmental harm and public health 
risk from the site. We can create the same or similar 
environmental buffer around O'Hare, but at a cost of tens of 
billions of dollars, and enormous social and economic 
disruption.
    Construction of the new capacity at a new airport offers 
the best opportunity for bringing major new competition into 
the region. When comparing costs and benefits of alternatives, 
the Senate must address the existing problem of monopoly or 
duopoly fares at ``Fortress O'Hare'' and the penalty such high 
fares are inflicting the air traveling public. Bringing in one 
or more significant competitors to the region would benefit all 
airline passengers through increased competition and reduced 
fares. The only alternative that has the room to bring in 
significant new competition is the new airport.
    May I add one final perspective? Adding another runway at 
O'Hare and allowing a ``point-to-point'' small airport to be 
built in the South Suburban Site is an unacceptable 
alternative. Why? There's no room for real competition, and as 
I previously stated, this increase in traffic at O'Hare will 
have serious environmental and public health impacts on 
surrounding communities. I can't over-emphasize this point. 
Also, assuming the new airport is built as a compromise, this 
alternative guarantees the new airport will be a ``white 
elephant'', much as the Mid-America airport is near St. Louis 
today.
    Concluding, I'm convinced we must build a new regional 
airport now. In this serious match of tug of war over airport 
capacities, the arguments presented in favor of a new airport, 
the Third Gateway to the World, are factual, compelling and I 
hope very persuasive to you.
    Thank you, Mr. Senator.
    [The prepared statement of Mr. Hyde follows:]

               Prepared Statement of Hon. Henry J. Hyde, 
                   U.S. Representative from Illinois

    Mr. Chairman, and Members of the Senate Committee on Commerce, 
Science, and Transportation. Thank you for the opportunity to present 
my views on the vital question of what to do about the Chicago region's 
aviation capacity problem. My congressional district encompasses O'Hare 
Airport and many of the residential communities surrounding O'Hare.
    As we all know, the decisions as to where to put new airport 
capacity will have a dramatic effect on our national aviation system as 
well as our environment, and the health, and quality of life of 
hundreds of thousands of O'Hare area residents. A tug of war has begun 
over where to create this new capacity. On the one side we have 
advocates of building a new facility that will be able to meet capacity 
problems now and accommodate future growth. On the other side, we have 
advocates of expanding O'Hare. It is no secret which team I am on.
    Here are the key points I wish to bring to your attention:
    For the reasons I discuss below, constructing more runways at 
O'Hare would be harmful to the public health, economy and environment. 
I am convinced that we must build a new regional airport NOW. The 
question is where do we place this new capacity. Do we build a Third 
Gateway to the World? YES.
    However, for the pundits, let us take a look at the alternatives 
which are straightforward: we can build new runways at (1) a new 
airport, (2) at O'Hare, (3) at Midway, or (4) a combination of all of 
the above. It has also been suggested adding Gary or Rockford to the 
mix of alternatives. Given these options the following facts are clear:
    1. The new runways can be built faster at a new airport as opposed 
to O'Hare or Midway. Simply from the standpoint of physical 
construction (as well as paper and regulatory planning) the new runways 
can be built faster at a ``greenfield'' site.
    2. More new runway capacity can be built at a new site than at 
O'Hare or Midway. It is obvious that more new runways can be built at a 
new, larger greenfield site. Additional space can be acquired at Midway 
or O'Hare by destroying densely populated surrounding residential 
communities--but only at tremendous economic and environmental cost.
    3. The new runways can be built at far less cost at a new airport 
than O'Hare or Midway. New runways can be built cheaper at a 
``greenfield'' site. Given the enormous public taxpayer resources that 
must be used for any of the alternatives, the Bush Administration must 
compare the overall costs of building runway capacity at a new airport 
versus building the same capacity at O'Hare or Midway.
    4. Construction of a new airport will have far less impact on the 
environment and public health than would expansion of either Midway or 
O'Hare. Midway, and later O'Hare, were sited and built at a time when 
concerns over environment and public health were far less than they are 
today. As a result, both existing airports have virtually no 
``environmental buffer.'' In contrast, the site of the new South 
Suburban Airport has, by design, a large environmental buffer which 
will ameliorate most, if not all, of the environmental harm and public 
health risk from the site. We can create the same or similar 
environmental buffer around O'Hare or Midway--but at a cost of tens of 
billions of dollars, and enormous social and economic disruption.
    5. Construction of the new capacity at a new airport offers the 
best opportunity for bringing major new competition into the region. 
When comparing costs and benefits of alternatives, the Senate must 
address the existing problem of monopoly (or duopoly) fares at 
``Fortress O'Hare'' and the penalty such high fares are inflicting the 
air traveling public. Bringing in one or more significant competitors 
to the region would benefit all airline passengers through increased 
competition and reduced fares. And the only alternative that has the 
room to bring in significant new competition is the new airport.
    Let me add one final perspective--adding another runway at O'Hare 
AND allowing a ``point-to-point'' small airport to be built at the 
South Suburban Site is an unacceptable alternative. Why? There is no 
room for real competition, and as I previously stated, this increase in 
traffic at O'Hare will have serious environmental and public health 
impacts on surrounding communities. I cannot over emphasize this point! 
Also, assuming the new airport is built as a compromise, this 
alternative guarantees the new airport will be a ``white elephant''--
much as the Mid-America airport near St. Louis is today.

                               CONCLUSION

    In conclusion, I am convinced that we must build a new regional 
airport now. In this serious match of tug of war over airport capacity, 
the arguments presented in favor of building a new airport--the Third 
Gateway to the World--are factual, compelling, and very strong. On 
behalf of my team members who share my side of the rope in this tug of 
war, I say to our opponents--We are NOT the weakest link. Thank you and 
good bye.

    Senator McCain. Thank you, Chairman Hyde.
    Congressman Jackson, welcome.

           STATEMENT OF HON. JESSE L. JACKSON, JR., 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Congressman Jackson. I want to commend and thank Members of 
the Senate Aviation Subcommittee for holding this hearing. And 
I share your concerns about Chicago's aviation crisis. In fact, 
I ran on this issue in 1995 and I've been working virtually 
non-stop to resolve it ever since.
    I also want to welcome the straight talk expressed to the 
Chicago aviation crisis. We've been waiting for straight talk 
for a number of years. And while I'm a not a relative newcomer 
to this nearly 20-year struggle, I have heard all the arguments 
for and against all of the options that would be presented 
today. And I firmly believe that the best solution by far, 
short-term and long-term, is a new third airport in the south 
suburbs near Peotone, Illinois.
    First, a little background. In 1984, the federal Aviation 
Administration determined that Chicago was running out of 
capacity. Indeed, it accurately predicted that Chicago would 
hit gridlock by 2000. As a result, the FAA directed Illinois, 
Indiana, and Wisconsin to conduct a feasibility study for a 
third regional airport.
    The states responded. They conducted an extensive study of 
numerous potential sites, including Chicago's south side, 
Joliet, Kankakee, Milwaukee, and Gary, Indiana. The study 
concluded almost 10 years ago that gridlock could best be 
avoided by building a new south suburban airport.
    So, this crisis is no surprise. Moreover, it was avoidable. 
During my 6 years in Congress, I have written countless letters 
and articles, and held numerous meetings with top officials to 
advocate my position. I've met and attempted to persuade 
President Clinton, President Bush, Vice President Gore; 
Transportation Secretaries, Slater and Mineta; FAA 
Administrator Garvey; fellow Members of Congress; Illinois 
Governors Edgar and Ryan; the bipartisan leaders and members of 
the Illinois General Assembly; Mayor Daley and members of the 
City Council; and the CEO's of the major airlines. And many 
have agreed with me.
    Despite those efforts, I watched in amazement as this 
crisis deepened, and those in positions to fix it failed or 
refused to act. We're here today because of a lack of 
leadership and a good dose of obstruction. Sadly, the 
opposition is not based on substantive issues: capacity, 
safety, consumer protection or efficiency. Instead, it is 
rooted in patronage, greed and parochial politics.
    Chicago City Hall opposes the Peotone Airport because it 
lies----
    Senator McCain. One second.
    Congressman Jackson. I'm sorry, Mr. Chairman.
    Senator McCain. I would ask again our spectators to 
restrain their remarks during this hearing. Again, I would 
appreciate the courtesy. Thank you.
    Congressman Jackson. And I would join you in that, Senator. 
We are trying to have a hearing here and I would appreciate it 
if supporters of our point of view would just allow the hearing 
to continue.
    Chicago City Hall opposes the Peotone Airport because it 
lies outside the City's political jurisdiction. O'Hare is the 
City's greatest asset and economic engine. A new airport 
threatens the status quo.
    Meanwhile, O'Hare's dominant carriers, United and American, 
have engaged in aggressive, sometimes misleading lobbying 
effort to block a new airport and new competition from entering 
their already constrained market.
    And finally, the Clinton FAA stalled the Peotone proposal 
despite its own dire warnings of approaching gridlock to 
placate City Hall. Specifically, the FAA, one, mandated, which 
is not in federal law at all, regional consensus, which 
requires Chicago's approval for any new regional airport. It 
doesn't require any approval of any of the new, of the mayors 
and elected officials that you'll hear here today about what's 
taking place at O'Hare Airport. Only to build a new airport 
requires Chicago's stamp of approval.
    The FAA removed Peotone from the NPIAS list in 1997, after 
Mayor Daley requested that it be removed after it emerged as 
the front runner. Peotone had been on NPIAS for 12 years. They 
held up Peotone's environmental review from 1997 to 2000 and 
allowed the city to use Passenger Facility Charges, which 
Congress created to finance construction of a third airport to 
gold plate O'Hare.
    Ironically, those same parties who created this aviation 
mess are now saying, trust us to clean it up. But their hands 
are too dirty. Fortunately, there is a better alternative. 
There is a solution that puts public safety before patronage; 
consumer interest before corporate greed; transportation 
efficiency before politics. And that option is Peotone.
    Some witnesses today will say expand O'Hare and build 
Peotone, knowing full well that expanding O'Hare will doom 
Peotone for years, perhaps forever. Others will say expand Gary 
or Rockford, knowing full well that preliminary studies 
concluded that major expansions at those locations are 
impractical and cost prohibitive.
    Others will argue that Peotone will turn out to be like the 
downstate Mid-America Airport, unused. They will contend that 
no airline has committed to using Peotone. But that's a 
circular argument. First, I've never advocated building Peotone 
without such an airline commitment. And, more important, no 
airline will ever commit to using Peotone without a government 
commitment to building Peotone. Nevertheless, four airlines 
have expressed an interest in operating there. They are Virgin, 
Spirit, Air Trans and American, most recently in a Chicago 
newspaper article.
    The Peotone proposal, Mr. Senator, is the best solution by 
far for many reasons. Compared to O'Hare expansion, building 
Peotone is, quite simply, quicker, cheaper, safer, cleaner and 
more permanent.
    For those of us who support government efficiency, it is 
quicker. Peotone can be built in 3 to 5 years. Conversely, 
adding runways at existing airports commonly takes 15 to 20 
years, not including the lawsuits associated with this 
controversy.
    The new Atlanta runway will be 20 years from conception to 
completion. Detroit's new runway, which faced no opposition, 
took 13 years. In this case, quicker is better.
    For those of us who are fiscal conservatives, cheaper. 
Peotone's inaugural airport would cost $600 million. A two-
runway Peotone, $2.5 billion, a four-runway Peotone, $5 
billion. By comparison, retro-fitting O'Hare would cost $8 to 
$15 billion and offer less growth potential. By the time we 
build a new runway at O'Hare, Mr. Senator, it is already time 
to build another runway at O'Hare because it can't possibly 
keep up with growth.
    Let me conclude on this note, Mr.----
    Senator McCain. You've used your 3 minutes twice, now.
    Congressman Jackson. Let me just conclude on this note, if 
I might. It's time for a bold new straight talk approach. We 
can do better. We must do better. We must build a third airport 
immediately for the sake of taxpayers, consumers, public safety 
and the environment.
    Once again, thanks for your attention and interest. And I'm 
confident that you will do the right thing for Chicago and the 
nation. I'll be glad to answer any questions at the appropriate 
time.
    [The prepared statement of Mr. Jackson follows:]

           Prepared Statement of Hon. Jesse L. Jackson, Jr., 
                   U.S. Representative from Illinois

    I want to commend and thank Members of the Senate Aviation 
Subcommittee for holding this hearing. I share your concerns about 
Chicago's aviation crisis. In fact, I ran on this issue in 1995. And I 
have been working virtually non-stop to resolve it ever since.
    While I'm a relative newcomer to this nearly 20-year struggle, I 
have heard all the arguments for, and against, all of the options that 
will be presented today. And, I firmly believe that the best solution, 
by far--short-term and long-term--is a new Third Airport in the South 
Suburbs near Peotone, Illinois.
    First, a little background. In 1984, the Federal Aviation 
Administration determined that Chicago was quickly running out of 
capacity. Indeed, it accurately predicted that Chicago would hit 
gridlock by 2000. As a result, the FAA directed Illinois, Indiana and 
Wisconsin to conduct a feasibility study for a Third Regional Airport.
    The States responded. They conducted an extensive study of numerous 
potential sites--including Chicago's South Side, Joliet, Kankakee, 
Milwaukee (WS) and Gary (IN). That study concluded almost 10 years ago 
that gridlock could be best avoided by building a south suburban 
airport.
    So, this crisis is no surprise. Moreover, it was avoidable. During 
my 6 years in Congress, I have written countless letters and articles, 
and held numerous meetings with top officials to advocate my position. 
I've met and attempted to persuade President Clinton and President 
Bush; Vice President Gore; Transportation Secretaries Slater and 
Mineta; FAA Administrator Garvey; fellow Members of Congress; Illinois 
Governors Edgar and Ryan; the bipartisan leaders and members of the 
Illinois General Assembly; Mayor Daley and members of the Chicago City 
Council; and the CEOs of the major airlines. And many agreed with me.
    Despite those efforts, I watched in amazement as this crisis 
deepened, and those in positions to fix it, failed, or refused, to act. 
We're here today because of a lack of leadership and a good dose of 
obstruction. Sadly, the opposition is not based on substantive issues--
capacity; safety; consumer protection; or efficiency. Instead, it is 
rooted in patronage, greed and parochial politics.
    Chicago City Hall opposes the Peotone Airport because it lies 
outside the City's jurisdiction. O'Hare is the City's greatest asset 
and economic engine. A new airport threatens the status quo.
    Meanwhile, O'Hare's dominant carriers--United and American--have 
engaged in an aggressive, sometimes misleading, lobbying effort to 
block a new airport--and new competition--from entering their already 
constrained market.
    And finally, the Clinton FAA stalled the Peotone proposal--despite 
its own dire warnings of approaching gridlock--to placate City Hall.
    Specifically, the FAA: (1) Mandated ``regional consensus,'' which 
requires Chicago approval for any new regional airport; (2) Removed 
Peotone from the NPIAS list in 1997, after it emerged as the 
frontrunner. Peotone had been on the NPIAS for 12 years; (3) Held up 
the Peotone environmental review from 1997 to 2000; and, (4) Allowed 
the City to use Passenger Facility Charges (PFCs)--which Congress 
created to finance construction of a Third Airport--to goldplate 
O'Hare.
    Ironically, those same parties who created this aviation mess are 
now saying ``trust us to clean it up.'' But their hands are too dirty.
    Fortunately, there is a better alternative. There is a solution 
that puts public safety before patronage; consumer interest before 
corporate greed; transportation efficiency before politics.
    That option is Peotone.
    Some witnesses today will say expand O'Hare and build Peotone, 
knowing full-well that expanding O'Hare will doom Peotone for years, 
perhaps forever. Others will say expand Gary or Rockford, knowing full-
well that preliminary studies concluded that major expansions at those 
locations are impractical and cost-prohibitive.
    Others will argue that Peotone will turn out like the Downstate 
Mid-America Airport--unused. They will contend that no airline has 
committed to using Peotone. But that's a circular argument. First, I 
have never advocated building Peotone without such an airline 
commitment. And, more important, no airline will ever commit to using 
Peotone without a government commitment to building Peotone. 
Nevertheless, four airlines have expressed an interest in operating 
there. They are Virgin Atlantic, Spirit Airlines, Air Trans and 
American Airlines.
    The Peotone proposal is the best solution, by far, for many 
reasons. Compared to O'Hare expansion, building Peotone is, quite 
simply--quicker, cheaper, safer, cleaner and more permanent.
    Quicker. Peotone can be built in 3 to 5 years. Conversely, adding 
runways at existing airports con unonly takes 15 to 20 years. The new 
Atlanta runway will be 20 years from conception to completion. 
Detroit's new runway, which faced no opposition, took 13 years. In this 
case, quicker is better.
    Cheaper. Peotone's inaugural airport would cost $600 million. A 
two-runway Peotone, $2.5 billion. A four-runway Peotone, about $5 
billion. By comparison, retro-fitting O'Hare could cost $8 to $15 
Billion, and offer less growth potential.
    Safer. Peotone features long, parallel runways, compared to 
O'Hare's short, crisscrossing layout.
    Cleaner. The most environmentally friendly airport ever designed, 
Peotone is surrounded by a mile-wide buffer zone to contain noise and 
pollution. That same-sized ring around O'Hare is home to 250,000 
people.
    More Permanent. Peotone provides plenty of room to build future 
runways--each cheaper, quicker, safer and cleaner than at O'Hare.
    The bottom line is obvious. Cramming more planes into the nation's 
most overcrowded, over-priced and worst-performing airport defies 
logic. The City and the Airlines had 10 years to fix the problem. 
Instead, they ignored and, worse, compounded it.
    If not for their opposition, Peotone would be under construction, 
or even operational today. And we wouldn't need to be here.
    It's time for a bold new approach. We can do better. We must do 
better. We must build a Third Airport, immediately. For the sake of 
taxpayers, consumers, public safety and the environment.
    Once again, thanks for your attention and interest. I am confident 
you will do the right thing, for Chicago and for the nation.
    I would be glad to answer any questions.
    Thank you.

    Senator McCain. Thank you, sir, and we're very impressed by 
your passion and commitment on this issue. Thank you.
    Congressman Weller, welcome.

                STATEMENT OF HON. JERRY WELLER, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Congressman Weller. Thank you, Mr. Chairman and Members of 
the Committee. And I'll commend my friends in the Senate for 
your interest in an issue which is so important not only in the 
Chicago region but to our nation.
    Today I come before you as a supporter of O'Hare, a 
supporter of Midway as well as a supporter of building a third 
airport at Peotone. And I appreciate the opportunity to 
testify.
    One thing all of us in this room know is that we have a 
capacity problem here in the Chicago region, a capacity problem 
that affects our nation's aviation infrastructure. Forecasts as 
early as 1980's consistently showed that aviation growth in 
this region would outpace capacity to a critical level by the 
turn of the century. Forecasts have now come true and we've 
failed to lay one square foot of concrete to relieve this 
situation. Consequently, this region as well as our nation, are 
now facing aviation gridlock. And air travel is expected to 
double in the next 10 to 15 years.
    We're here today to present solutions to this aviation 
capacity problem, not determine who gets tax revenue, not to 
determine who gets contracts and patronage, or whose airlines 
gain a better market share. The failure to address the capacity 
crisis is the direct result of political decisions to block the 
addition of aviation capacity in the Chicago region.
    My testimony today conveys one message: it is time to stop 
playing politics and start building infrastructure. Build the 
south suburban airport at Peotone and add a runway to Chicago 
O'Hare now. We must do both now as the Chicago region and the 
nation can no longer afford to continue to allow politics to 
block the way of solving our capacity crisis in the Chicago 
region.
    The best long term solution to address the capacity problem 
is to build the south suburban airport at Peotone. The Peotone 
Airport would be built faster and far less costly than a new 
runway at O'Hare. The airport could be operational in 4 to 5 
years with the initial cost of $560 million. This airport will 
serve 2\1/2\ million people living within 45 minutes of the 
proposed site, many of whom are now 2 hours or more from the 
site of O'Hare. The airport as planned will also have room to 
grow to meet capacity needs for up to six total runways.
    Chicago O'Hare will continue and always will be the leading 
airport in the Chicago region. We must continue to make sure 
that O'Hare has the capacity to accommodate continued growth in 
the Chicago region.
    Now, we talked about building a runway but I think it's 
important to note that if we add a runway to O'Hare, it would 
decrease capacity at O'Hare during that runway's construction. 
New runways will likely require the movement of existing 
runways for safety in air traffic patterns, causing extensive 
closures and delays and increasing the need for an additional 
airport.
    Further, new runways will add limited capacity but will not 
meet the projected doubling of aviation growth over the next 10 
to 15 years. I'd also note that a new runway at O'Hare would 
cost one billion dollars. And if existing infrastructure must 
be moved, the cost will be much higher. And it's expected to 
take 8 to 15 years for the development of one runway at O'Hare.
    Clearly, time is a concern. Capacity is a problem. We need 
to address it. Even with the development of a third airport, 
O'Hare and Midway will continue to prosper. But I would note 
that time and time again, politics have prevented the south 
suburban third airport at Peotone from moving forward.
    A south suburban third airport at Peotone has been 
extensively planned and designed. And the Illinois Legislature 
has taken a bold step forward by appropriating funds requested 
by our Governor, Governor George Ryan for land acquisition. 
We're ready to move forward in building an airport to meet the 
needs of the 21st Century if political roadblocks are removed.
    I would note, as you're aware, that Members of the Senate 
and Senators Grassley and Harkin have urged the Federal 
Government to step in and remove our Governor from the airport 
planning process. My colleague, Representative Lipinski, has 
also introduced legislation to remove our Governor from this 
planning process.
    I would respectfully ask that the Committee deny these 
political and legislative tactics and preserve the role of 
Illinois' Governor in airport siting and planning. And further 
I would ask the Committee's support to urge the FAA to continue 
moving forward on completing the Environmental Impact Study 
which should be done at the end of this year and to replace and 
put back onto the NPIAS List the south suburban third airport 
at Peotone.
    We should do both. We need to add a runway at O'Hare. We 
need to build a south suburban third airport at Peotone. Thank 
you.
    The prepared statement of Mr. Weller follows:]

   Prepared Statement of Hon. Jerry Weller, U.S. Representative from 
                                Illinois

    I want to express my gratitude to the Senate Committee on Commerce, 
Science and Transportation for traveling to Chicago to explore 
solutions to the Chicago aviation capacity crisis. I come to you today 
as a supporter of O'Hare, Midway and the proposed South Suburban 
Airport at Peotone and am pleased to testify in front of this Committee 
today.
    Mr. Chairman, every one of us in this room knows we have a serious 
aviation capacity problem. Forecasts as early as the 1980s consistently 
showed that aviation growth in our region would outpace capacity to a 
critical level by the turn of the century. The forecasts came true, but 
we have failed to lay one square foot of concrete to relieve the 
situation. Consequently, the region and the nation are facing aviation 
gridlock. And air travel is expected to double in the next 10 to 15 
years.
    We are here today to solve the aviation capacity crisis, not who 
gains tax revenue, gets contracts and patronage, or whose airlines gain 
market share. The failure to address the capacity crisis is the direct 
result of political decisions to block the addition of aviation 
capacity in the region. My testimony today conveys one message: it is 
time to stop playing politics and start building infrastructure. Build 
the South Suburban Airport at Peotone and add a runway to Chicago 
O'Hare now. We must do both as the Chicago region and the nation cannot 
afford to continue to allow politics to block the way of progress.
    The best long term solution to address the capacity is to build the 
South Suburban Airport at Peotone. The Peotone Airport could be build 
faster and far less expensively than a new runway at O'Hare. The 
airport could be operational in four to five years with an initial cost 
of only $560 million. This airport will serve 2.5 million people living 
within 45 minutes of its proposed site--many of whom are now two hours 
or more from O'Hare. The airport as planned will also have room to grow 
to meet capacity needs for up to 6 total runways.
    Chicago O'Hare Airport is still and will always be an important 
component of the regional and national air system. We must continue to 
make sure that O'Hare grows while serving passenger and cargo needs 
effectively and safely. An important component of O'Hare's growth may 
be the addition of one or two new runways. However, it must be clearly 
noted that building additional runways at O'Hare may actually decrease 
capacity for the time that they are under construction.
    New runways will likely require the movement of existing runways 
for safety and air traffic patterns, causing extensive closures and 
delays and increasing the need for an additional airport. Further, new 
runways will add limited capacity, but will not meet the projected 
aviation growth over the next 20 years. The new runways will also cost 
at least $1 billion each, and if existing infrastructure must be moved, 
the costs will be much higher. Building and constructing a new runway 
at O'Hare will also take 8 to 15 years, as there is still much of the 
initial planning and development still yet to do. Clearly, the time and 
capacity constraints of new runways at O'Hare reinforce the need to 
build the South Suburban Airport.
    Even with the development of a third airport, projections show 
O'Hare can plan on a 40% increase in passengers and Midway can plan on 
a doubling of demand. Unfortunately, time and time again, politics has 
prevented the South Suburban Airport from moving forward. The South 
Suburban Airport has been extensively planned and designed and the 
Illinois Legislature has taken a bold step forward by appropriating 
funds requested by Governor Ryan for land acquisition. We are ready to 
build an airport for the needs of 21st century if political roadblocks 
are removed.
    As you are aware, Senators Grassley and Harkin have urged the 
Federal Government to step in and remove Governor Ryan from the airport 
planning process. Representative Lipinski has introduced legislation to 
this effect also. I would respectfully ask the Committee to deny these 
legislative tactics and to preserve the role of Illinois' Governor in 
airport siting and planning. Further, I would ask that the Committee 
urge the Federal Aviation Administration to place the proposed South 
Suburban Airport back on the National Plan for Integrated Airport 
Systems (NPIAS List) and to expedite the processing of the 
environmental impact statement. These two steps are vital to the 
development of the expedited solutions of Chicago and our Nation's 
Aviation Capacity Crisis.
    Thank you again for the opportunity to testify today.

    Senator McCain. Thank you, Congressman Weller.
    Congressman Manzullo.

             STATEMENT OF HON. DONALD A. MANZULLO, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Congressman Manzullo. Thank you very much. I appreciate the 
opportunity to be here. I've come here as a United States 
Congressman, as a lifelong resident of the Rockford area. Our 
Congressional district runs from within one county of Lake 
Michigan all the way to the Mississippi River, a frequent 
participant in air flights out of O'Hare. And I'm also a 
private pilot, though not current on my license.
    I have the answer to all of your concerns. I have the 
answer to Senator McCain's concern that something must be done 
soon. To Senator Rockefeller's concern that delay is not an 
option. To Senator Fitzgerald's concern that we need the 
quickest and least expensive option. To Senator Durbin's 
concern that O'Hare traffic congestion. To Congressman Hyde's 
concern on the impact of quality of life. And that's in 
Rockford, Illinois.
    We have an airport that has had over 150 million dollars of 
infrastructure improvements, that has a 10,000 foot runway, 
Category III Instrument Landing System, a Glycol Retention and 
Treatment facility, a taxiway system to accommodate wide-body 
aircraft. It is the midwest hub for UPS. It could handle up to 
a million enplanements in 1 year without any major cost.
    It can handle up to 15 million enplanements a year. O'Hare 
handles 34 million. We can go to 15 million enplanements per 
year by adding one runway. And we can go to a million 
enplanements a year without spending one dime and we can do it 
tomorrow.
    Now, Rockford Airport is 1 hour away from O'Hare Airport. 
Each year, 400,000 people from the Rockford area ride the bus 
to O'Hare Airport. Another 800,000 people drive to O'Hare from 
our area. More than 2.2 million people live and work within a 
45-mile radius of Rockford, Illinois.
    And we're not, you know, we're not landing airplanes in 
corn fields. And we're not talking about spending billions of 
dollars here and there. These are real live brand new Boeing 
aircraft, 757's that landed in Rockford a couple of weeks ago 
because of the fog and the inability to use the landing systems 
at O'Hare because of congestion.
    Now, if you want something done soon, just start with these 
airplanes as a point of origin. It just does not make sense to 
talk about spending billions and billions and billions of 
dollars of taxpayer's money waiting 3 years, 7 years, 10 years. 
This airport is built. It's bought and paid for.
    It can handle 747's and we've spent over 140 million 
dollars worth of improvements. Now, this may be too easy for 
Congress. This is the Dirksen Building. And this is where 
Senator Dirksen said, ``a million here, a million there. After 
awhile it begins to add up.''
    But this congressman has a solution that doesn't cost one 
dime and the solution could be implemented tomorrow. And I'm 
done with 8 seconds over.
    [The prepared statement of Mr. Manzullo follows:]

            Prepared Statement of Hon. Donald A. Manzullo, 
                   U.S. Representative from Illinois

    Mr. Chairman, I want to thank you for the opportunity to testify 
before you today on the growing problem of airline delays at O'Hare 
International Airport in Chicago. O'Hare suffered the worst flight 
delays in the Nation last year. This is a chronic problem that impairs 
the entire air transportation system in the United States because our 
nation's two largest airlines have hub operations at O'Hare. The 
continuous delays slow U.S. commerce and shipping, as well as the 
traveling public.
    While some proposed solutions to this problem could cost hundreds 
of millions of dollars and take up to 10 years to implement, I am here 
today to offer a suggestion that would immediately begin to alleviate 
O'Hare's problem without the need for any more Federal spending.
    The congressional district I represent in northern Illinois 
includes our state's second largest city--Rockford. Rockford is home to 
the Greater Rockford Airport, which is about an hour's drive northwest 
of O'Hare Airport. Over the past 6 years, the Greater Rockford Airport 
has undergone more than $150 million of infrastructure improvements. 
These improvements include a new 10,000 foot runway that can land any 
jet aircraft flying today, a Category III Instrument Landing System, a 
Glycol Detention and Treatment facility, and upgrades to the taxiway 
system to accommodate wide-body aircraft. The airport's other runway is 
8,200 feet long.
    The Greater Rockford Airport is primarily a cargo airport and home 
to United. Parcel Service's second largest hub. The airport also houses 
a modern passenger terminal that can immediately handle up to 1 million 
enplaned passengers annually. There is sufficient room for expansion.
    While the debate over how to deal with the growing capacity problem 
at O'Hare continues, and may go on for years, Rockford stands ready 
today to help relieve the tremendous congestion at O'Hare. The Greater 
Rockford Airport has unconstrained airspace and with modest investments 
can accommodate up to 3 million enplaned passengers annually.
    Some have said that the Greater Rockford Airport is too far from 
Chicago to offer serious relief to O'Hare. However, more than 400,000 
people ride the bus each year from Rockford to O'Hare. Another 800,000 
people drive out of Rockford's market service area each year to fly 
from O'Hare and other airports. More than 2.2 million people live and 
work within a 45-mile radius of Rockford.
    Many do not realize that more than half of the 34 million people 
who fly into O'Hare each year are connecting passengers. About 16 
million passengers originate their flights out of the Chicago region. 
When you consider transferring 3 million of those originating 
passengers to an airport such as Rockford, you are talking about 
relieving up to 20 percent of the congestion at O'Hare. Again, that is 
an immediate 20 percent reduction in congestion at O'Hare.
    This can be done without spending hordes of money or waiting for a 
study to be completed. The Greater Rockford Airport is ready today to 
take on additional air passenger service.
    In fact, the Rockford Airport is already used as a back up for the 
Chicago airports during bad weather. Just last week, five large jets 
were diverted to Rockford when heavy fog blanketed Chicago. The 757s 
and DC-9s landed at Rockford and de-planed their 600 passengers into 
the Rockford terminal building for several hours before the fog lifted 
and they could head back to Chicago. As you can see from the front-page 
story in the Rockford Register Star, the Greater Rockford Airport 
handled the situation with ease and could do so and more every day.
    I call on this committee, the Department of Transportation and the 
airlines to do the right thing for the traveling and shipping public 
and fully utilize existing airports that are capable of immediately 
reducing congestion and delays at our nation's major airports. In the 
Chicago region, that airport is the Greater Rockford Airport.
    Thank you once again for this opportunity to testify, and I look 
forward to working with you in the future on this matter.

    Senator McCain. Thank you, sir. I believe you said sooner 
or later you'd talk about real money. I think we're talking 
about real money. I thank you, Congressman Manzullo.
    Congressman Gutierrez, welcome.

               STATEMENT OF HON. LUIS GUTIERREZ, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Congressman Gutierrez. Thank you very much.
    Senator McCain. I think we need to get a microphone down to 
you.
    Congressman Gutierrez. I want to thank you, Senator McCain 
and Members of the Committee, for taking the time to come to 
Chicago and hear our views. I also want to thank my colleague, 
Congressman Bill Lipinski. His leadership and determination on 
this issue is exemplary of the way Bill Lipinski conducts 
himself every day as a Member of Congress.
    All of my colleagues here today agree we must find a way to 
meet the growing demand for air service and to provide better, 
more efficient service to consumers. We must act now to limit 
unacceptable delays and to assure passenger safety. And we must 
confront this challenge with a solution that is practical, cost 
effective and can be implemented quickly.
    For these reasons, I strongly believe we should expand the 
capacity of O'Hare International Airport by building additional 
runways. We know that the status quo of long delays and 
inefficient service at O'Hare Airport and many of America's 
critical airports is simply unacceptable.
    I believe that immediate, and let me emphasize that word, 
immediate action is needed. The facts are clear. In the year 
2000, O'Hare was the third most delayed airport in America. 
Demand at O'Hare is expected to grow by 18 percent during the 
next decade alone. As we examine the challenges before us, I 
believe it is vital that we not lose sight of this fundamental 
fact.
    The increase in demand for air travel is at O'Hare Airport. 
O'Hare International Airport is the domestic and international 
hub that serves more than 30 airlines. O'Hare is the hub that 
serves more cities than any other airport. O'Hare is where the 
airlines and most travelers want to fly. O'Hare is where our 
air travel is established and it is O'Hare where the demand is 
and will continue to be in the future.
    I think it would be a mistake to make substantial risky 
unneeded investments in massive non-O'Hare solutions to what is 
fundamentally an O'Hare challenge. If more Cub fans were 
clamoring to watch a game at Wrigley Field, it wouldn't make 
much sense to send them to Milwaukee to catch a game at Miller 
Park or to build a new stadium miles away.
    Nor does it make sense to devote our time, resources and 
efforts to untested solutions that don't respond specifically 
to consumer or airline demand. In 1991, the Chicago Delay Task 
Force recommended that new runways be added to O'Hare to reduce 
delay and improve efficiency. It said, ``new runways represent 
the greatest opportunity to reduce delays in Chicago, 
particularly during bad weather conditions''.
    Quite simply, additional capacity at O'Hare is by far the 
most workable, cost affective, and timely way to meet air 
travel demand of the next decade.
    I want to emphasize the need for a quick solution to this 
problem. Each day delays mount and the need for action 
increases. Reconfiguring O'Hare Airport and adding a runway is 
the most direct route to averting an impending crisis.
    But this crisis can only be averted if we move beyond 
politics to a practical solution. That's why I support H.R. 
2107, the End Gridlock at our nation's Critical Airports Act of 
2001. This legislation preempts state statutes that act as 
obstacles to the development of our nation's critical airports.
    In Illinois, the Governor has virtual veto power over 
airport development. In only one other state, the state of 
Maryland, is the Governor's power so broad. H.R. 2107 would end 
the political stalemate that holds air travelers in Illinois 
and across America hostage by allowing local airport authority, 
in this case, the city of Chicago, Department of Aviation, to 
apply for and receive federal funds directly from the federal 
Aviation Commission.
    I think this is a sensible solution. While this solution 
streamlines the process, it in no way prevents extensive local 
input. The concerns of the Governor and all interested parties 
will be heard. The city of Chicago, Department of Aviation will 
be required to hold public hearings, solicit public comment and 
work to build a consensus for a solution.
    In addition, H.R. 2107 in no way, and I reiterate, in no 
way weakens or changes any environmental laws or regulations. A 
new runway at O'Hare will still have to meet all state and 
federal environmental standards. But H.R. 2107 doesn't weaken 
something; does weaken something. The grip of politics on a 
vital issue. It will weaken the frustration that all consumers 
increasingly feel about the future of air travel in Chicago and 
across our country.
    While I have tremendous respect for the motives and the 
reasons of those who are promoting other alternatives, I simply 
do not believe that the facts and logic regarding air travel in 
our area and across America merit the vast investment, 
uncertainty and long wait for action that those proposals could 
entail.
    What makes sense for every Chicagoan and every American who 
deserve safe, efficient, reliable air service is to take the 
necessary steps as soon as possible to make O'Hare Airport the 
safest, most reliable, most efficient airport in the world.
    Expanding O'Hare is the way to achieve that goal. And I 
urge this Committee to give that sensible option their very 
serious and favorable consideration. And I thank the Members of 
the Committee for hearing my testimony.
    Senator McCain. Thank you very much, Congressman Gutierrez.
    Lieutenant Governor Kernan, welcome.

              STATEMENT OF HON. JOSEPH E. KERNAN, 
         LIEUTENANT GOVERNOR FROM THE STATE OF INDIANA

    Lt. Governor Kernan. Thank you very much, Mr. Chairman and 
Members of the Committee. I'm the Lieutenant Governor from the 
state of Indiana. I appreciate the opportunity to be here. I, 
like Congressman Manzullo, am a pilot and have flown in these 
crowded skies. And this is a problem that gets worse every day. 
And I, like the Congressman, have an immediate solution as 
well. A solution to the delays, the diverted flights and 
disgusted passengers. And that solution is just minutes away at 
the Gary/Chicago Airport.
    The Gary/Chicago Airport provides a logical congestion 
relief solution to Chicago's air traffic problems. Currently 
our airport has over 80 based aircraft and more than 60,000 
annual aircraft operations. It has two runways, the longest 
being 7,000 feet, longer than any runway at Midway. And it also 
has a precision instrument landing system.
    The Gary/Chicago Airport is closer to downtown Chicago than 
other airports. An estimated 2\1/2\ million Chicago area 
residents live within a closer drive to Gary/Chicago Airport 
than to O'Hare. And 1.1 million residents are closer to Gary/
Chicago than to Midway. Gary/Chicago offers ease and 
convenience for Chicago area travelers.
    Just this past week, Governor Frank O'Bannon, Senator 
Richard Lugar and Senator Evan Bayh, along with Congressman 
Peter Visclosky and Gary Mayor Scott King met with 
Transportation Secretary Norman Mineta in Washington. In 
Indiana, there is strong bipartisan support for the Gary 
Airport solution.
    There are financial advantages to proceeding with the Gary 
Airport reliever plan as well. Estimates have shown that the 
total environmental and construction costs for a runway 
expansion at Gary/Chicago Airport would amount to only $65 
million compared to many times that cost for other solutions.
    With Gary/Chicago, air passengers, and most importantly 
taxpayers, get the best deal. The timing advantages of the 
Gary/Chicago are clear. We're working with the FAA to approve a 
master plan, an airport layout plan which will provide the 
foundation for continued airport development. That plan is 
scheduled to be completed in November of this year.
    The Gary/Chicago Airport has planes taking off and landing 
today, and has the capacity for more. We in northwest Indiana 
and north central Indiana have long viewed O'Hare and Midway as 
a part of our transportation solution, irrespective of the fact 
that these airports are located in Illinois.
    We believe that fairness dictates that Gary/Chicago Airport 
should be a part of this solution. It is logical. It is cost 
effective and can be implemented immediately.
    Mr. Chairman, I would ask that my testimony as well as 
written testimony that I have from Senator Lugar, Senator Bayh 
and Congressman Visclosky also be made a part of the record.
    [The prepared statement of Governor Kernan follows:]

   Prepared Statement of Hon. Joseph E. Kernan, Lieutenant Governor 
                       from the State of Indiana

    Senator McCain, Members of the Committee, I am Indiana Lt. Governor 
Joseph Kernan, and I am here to speak on the merit of the Gary/Chicago 
Airport as a reliever to the nation's and the Chicago area's air 
congestion problems. These problems arise from insufficient airport 
runway capacity. There is an immediate solution to the delays, diverted 
flights and disgusted passengers. . . . that solution is just minutes 
away at the Gary/Chicago Airport.
    Let me begin by saying that I understand this troubling situation. 
I have been a pilot since 1969, and I have flown in these crowded 
skies. The problem is a serious one--the number of air travelers has 
more than doubled since 1980, and is expected to additionally increase 
by more than 50% in the next ten years. Corresponding with the 
increased number of passengers, the number of airline delays is 
increasing as well. According to the Federal Aviation Administration, 
delays are up by 20% just from 1999 to 2000. And, as we know, O'Hare 
ranks third in the nation's airports for congestion. The Chicago 
Airport system provides 84 million travelers access to more than 200 
destinations around the world. This number will increase significantly 
in the coming years, placing strains on the two largest airports in 
Chicago's current system. Real, comprehensive solutions must be 
implemented, and now. The safety of our flying citizens is at stake.
    Let me explain why the Gary/Chicago Airport provides a logical 
congestion relief solution to Chicago's air traffic problems. There are 
four main advantages to using Gary/Chicago Airport as a reliever: 
logistical advantages, community advantages, financial advantages, and 
timing advantages.
    Let me begin with the logistical advantages. Currently, the Gary/
Chicago Airport has over 80 based aircraft and more than 60,000 annual 
aircraft operations. It has two runways, the longest being 7000 feet--
which is longer than any runway at Midway Airport. The Airport has a 
precision instrument landing system for use during inclement 
conditions. Gary/Chicago Airport is closer to downtown Chicago than 
other airports. Gary /Chicago has easy access to both highway and 
commuter rail transportation. An estimated 2.5 million Chicago area 
residents live within a closer drive to Gary/Chicago Airport than to 
O'Hare, and 1.1 million residents are closer to Gary/Chicago Airport 
than to Midway. Gary/Chicago offers ease and convenience for Chicago 
area travelers, without the nuisances of flying out of O'Hare.
    Second, Gary/Chicago Airport provides significant community 
advantages. More than 9,000 Indiana and Illinois residents have signed 
petitions in favor of the Gary/Chicago Airport. Such tremendous 
community support is lacking for other potential options for congestion 
relief. Just this week, these petitions were presented to U.S. 
Department of Transportation Secretary Norman Mineta, in a meeting with 
Indiana Governor Frank O'Bannon, Senators Richard Lugar and Evan Bayh, 
Congressman Peterr Visclosky, and Gary Mayor Scott King. This bi-
partisan group of elected leaders emphasized the importance of the 
Gary/Chicago Airport, and reiterated the strong local, state and 
federal support behind the use and expansion of the Gary/Chicago 
Airport. This support is critical as local opposition will continue to 
delay other potential airport proposals. Gary/Chicago has the broad 
based community support needed to solve this problem.
    There are financial advantages to proceeding with the Gary/Chicago 
Airport reliever plan as well. Building new runways and airports are 
costly projects. Environmental review costs alone have totaled up to 
$250 million for individual new runway projects. However, estimates 
have shown that the total environmental and construction costs for a 
runway expansion at Gary/Chicago Airport would amount to only $65 
million. Costs for a similarly constructed start-up airport would cost 
about $500-600 million. With Gary/Chicago, air passengers, and most 
importantly taxpayers, get the best bang for their buck.
    The timing advantages of the Gary/Chicago Airport are clear. Gary/
Chicago is working with the Federal Aviation Administration to receive 
approval of their Master Plan and Airport Layout Plan, which will 
provide the foundation for the airport development. This reasonable 
development plan will provide additional runway and terminal facilities 
so that the airport can handle significant amounts of increased air 
passengers. The expanded runways will accept much larger planes than 
even Midway can accommodate. The approved plan is expected in November 
of this year. Other options will take 15-20 years before a plane lands 
or takes off while Gary/Chicago Airport has planes taking off and 
landing today and has the capacity for more.
    Fairness dictates that Gary/Chicago Airport receive due and 
appropriate consideration in solving these tremendous air traffic 
problems. This fair and equal treatment is not only the right thing to 
do, but is in the best interests of the air travelers who so badly need 
a workable solution. To pre-empt Gary/Chicago's contributions to 
helping solve this problem ultimately works against those whom we 
serve. Gary/Chicago must, and I dare say will, stand on its merits as a 
viable, logical solution to the congestion concerns of the nation and 
the Chicago area.
    Gary/Chicago Airport passenger traffic has increased over 400% 
since 1997. The Airport is meeting the demands of the Chicago 
metropolitan area, and still has more than enough room to accommodate 
additional traffic in the Chicago area. When looking for an immediate, 
cost effective solution to air congestion concerns, you must look no 
further than Gary/Chicago Airport. This Airport has the ability to meet 
the needs of today's air travelers today . . . not in 10 years . . . or 
15 years . . . or 20 years . . . but right now . . . today.
    I thank you for your time, and for the opportunity to speak.

    [The prepared statements of Hon. Richard G. Lugar, Hon. 
Evan Bayh, and Hon. Peter J. Visclosky follow:]

 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator from Indiana

    I appreciate the Committee holding today's hearing on this issue of 
great interest and importance to our nation's aviation system, the 
Chicagoland area, and to Indiana. I welcome this opportunity to share 
with the Commuttee my thoughts about the valuable role the city of Gary 
and Northwest Indiana will play in helping relieve air traffic 
congestion in the region.
    The Chicago region needs additional airport capacity and some of 
this capacity can be accommodated at the Gary/Chicago Regional Airport. 
Throughout my service in the Senate, I have been a strong supporter of 
the Gary/Chicago Regional Airport as a viable part of the solution that 
will help meet the current pressing air traffic needs of the region.
    Earlier this year, the Gary Airport submitted to the FAA a draft of 
its Phase II 20-year Master Plan/Airport Layout Plan. This effort 
proposes an expansion of existing airport facilities, including 
navigational improvements, runway extensions and construction of a 
parallel runway. I strongly support the Airport's plan for future 
growth and believe this Master Plan is an essential part of the 
solution to helping relieve air traffic congestion now and in the long 
term. It is especially important to keep in mind that the Gary/Chicago 
Regional Airport today is an active, fully operational aviation 
facility with a 7,000 foot main runway and a crosswind runway that can 
help provide immediate relief to the problem of aviation congestion in 
the Chicago region.
    On June 12, I hosted a meeting in Washington with Transportation 
Secretary Mineta and was joined by my colleagues Senator Bayh and 
Congressman Visclosky, along with Indiana Governor O'Bannon and Gary 
Mayor King. During this productive and positive meeting, we emphasized 
to Transportation Secretary Mineta our strong and unified support for 
the Master Plan/ALP submitted by the Gary/Chicago Regional Airport that 
is currently being evaluated by the FAA. We specifically requested 
Secretary Mineta's assistance in ensuring that Gary's Master Plan/ALP 
receive full and fair consideration, and that the FAA work to expedite 
their consideration of Gary's plan. We hope Gary's Master Plan/ALP will 
be approved by the FAA this year.
    The problem of air congestion in the Chicago region and the urgent 
need for relief should be national priorities. I believe that existing, 
operating, regional airport facilities such as the Gary/Chicago Airport 
should be included as part of both short-term and long-term solutions 
to this aviation safety and public transportation challenge.
    I appreciate the Committee conducting this important hearing today, 
and I also appreciate this opportunity to share my thoughts about this 
issue of great importance to the Chicago region and to Northwest 
Indiana.
                                 ______
                                 
    Prepared Statement of Hon. Evan Bayh, U.S. Senator from Indiana

    Mr. Chairman, Members of the Committee, thank you for allowing me 
to express my views on the challenges of addressing air traffic 
congestion and insufficient capacity in the Chicago area, and the 
effects these problems have on our nation's air transportation system. 
I also want to thank the Committee for addressing an issue which is of 
great importance to many of my constituents in Northwest Indiana, and 
throughout the State. (Today,) I am pleased to (again) offer my support 
for the Gary/Chicago Airport (GCA) as a regional partner in the effort 
to alleviate air traffic congestion and increase capacity in the 
Chicago area.
    The problems of air traffic congestion and lack of capacity are 
especially acute in the Chicago metropolitan area where long delays are 
now routine at Midway and O'Hare International Airports. Without 
prudent investment in our existing infrastructure, there is no reason 
to believe that these problems will correct themselves. In fact, the 
Federal Aviation Administration estimates that the number of flights 
nationally will increase 33 percent in the next 10 years. Also, the 
number of people utilizing air travel is also expected to continue its 
rapid ascent.
    Mr. Chairman, 30 minutes from downtown Chicago lies what I believe 
is a viable solution to this growing problem. The GCA views itself as a 
regional partner in this effort, and currently operates under a bi-
state compact to provide reliever service to both Midway and O'Hare 
Airports. Not only is GCA strategically positioned to meet the needs of 
residents in Northwest Indiana, but it is also ideally situated for 
those air travelers wanting to access Chicago's central business 
district. Furthermore, GCA offers passenger service and is equipped to 
handle over 150,000 flights per year. Mr. Chairman, I am convinced now, 
and have been since my days as Governor, that GCA can serve to 
immediately relieve the region's air traffic congestion and increase 
capacity in the Chicago area.
    GCA is functionally sound and poised for dramatic growth. In 
January of 2001, GCA submitted its Master Plan/Airport Layout Plan for 
review and consideration by the FAA. After meeting this past week with 
Secretary of Transportation Mineta on this very issue, he assured me 
that an expedited review of GCA's Master Plan/Airport Layout Plan would 
be completed by November of this year.
    Mr. Chairman, GCA should be a pail of any regional solution to the 
air traffic congestion and undercapacity problems in the Chicago 
metropolitan area. GCA is an existing and functioning facility with a 
bright future that can immediately serve as a reliever to Chicago's 
O'Hare and Midway Airports. I ask that you and the Committee give the 
GCA full consideration when reviewing options and strategies aimed at 
addressing the problems facing our nation's air transportation system.
    Thank you for your consideration of this matter.
                                 ______
                                 
            Prepared Statement of Hon. Peter J. Visclosky, 
                    U.S. Representative from Indiana

    Thank you for allowing me the opportunity to submit testimony 
regarding the important issue of air traffic congestion in the Chicago 
Metropolitan Area, and to discuss the increasing role of the Gary/
Chicago Airport (GCA) as a regional partner in resolving this capacity 
problem.
    The growing demand that has been placed on Chicago's O'Hare 
International and Midway Airports has stretched the resources at those 
facilities to their limits. O'Hare has only been able to grow by 1 
percent or less for the past 3 years, and Midway, absorbing the excess, 
is estimated to have an additional one million passengers per year for 
the next 2 years.
    I am a supporter of increased airport capacity in the Chicago 
Metropolitan Area, and I commend the Federal Aviation Administration 
for seeking solutions that will increase our regions capacity. However, 
we must not think of this issue as a Chicago problem, or an Illinois 
problem. Air congestion is a regional problem, demanding a regional 
answer. As a resident of Northwest Indiana, and the Representative of 
Indiana's First Congressional District, I feel that my constituents and 
I have a vested interest in the air traffic congestion challenges 
facing the Chicago metropolitan region.
    Many of my colleagues have suggested that the only solution to this 
problem is to build another airport. I believe that building another 
airport at this time would mean unnecessarily spending millions of 
taxpayer dollars and destroying irreplaceable acres of green space. 
Additionally, this crisis cannot wait the length of time that it 
necessitates to build another airport. It is irresponsible to believe 
that the region's current over capacity can wait 20 years for a 
solution.
    GCA, located only thirty minutes from downtown Chicago, is well 
positioned to provide immediate relief to many of the congestion issues 
currently facing O'Hare and Midway Airports. In fact, it already 
operates under a bi-state compact to provide reliever service to both 
Chicago airports. GCA currently offers daily passenger service, and has 
the ability to triple its number of flights without additional capital 
expenditures. The airport is severely underutilized, and without 
further construction, or additional funding, GCA could accommodate as 
many as 150,000 flights per year.
    On May 2, 2001, GCA submitted the second draft of a 20-year Master 
Plan to the Federal Aviation Administration. The Master Plan outlines 
the airport's existing facilities, ability to handle air traffic, 
growth and economic forecasts, and identifies the short and long-term 
infrastructure needs that will facilitate continued growth and 
expansion. Additionally, GCA is designated as a foreign trade zone. It 
has over 13 acres available for developing air cargo operations, and 
8,200 acres of an Airport Development Zone offering tax and investment 
benefits for businesses. As capacity has become maximized at the 
Chicago airports, GCA has played an increasingly valuable role in 
delivering passenger and cargo service to the area.
    In a recent meeting with the Secretary of Transportation Norman 
Mineta, I expressed the importance of the role GCA already plays in 
reducing congestion in the Chicago Metropolitan Area, and requested 
that the Secretary expedite the review of the Master Plan, in 
recognition of that increasing role. As you continue your efforts to 
address Chicago's capacity issues, we urge you not to ignore GCA as a 
critical element in resolving many of these challenges.
    I thank you for your time and your consideration in this very 
important matter. I look forward to continuing to work with you to find 
a practical solution to this very serious problem.

    Senator McCain. Thank you very much, Lieutenant Governor 
Kernan. And I do question your pilot skills, but I appreciate 
very much your input here today. Thank you very much.
    Lt. Governor Kernan. Thanks, Senator.
    Senator McCain. Representative Hamos. Have I pronounced it 
right?
    Representative Hamos. Yes, you have. Thank you.
    Senator McCain. Thank you and welcome.

STATEMENT OF HON. JULIE HAMOS, CHAIR, HOUSE AVIATION COMMITTEE, 
                       STATE OF ILLINOIS

    Representative Hamos. Thank you. Thank you distinguished 
Senators and my distinguished panel at this table. I am the 
Chair of the Illinois House Aviation Committee, which was set 
up just this year to study the airports in Illinois.
    Now, aviation policy is not really a matter of state 
concern so much so. But this year, the Governor made it a state 
issue when he put funding for a land acquisition for a new 
Peotone Airport square and center in his budget address. And so 
we were created, in fact, to respond to that. And we studied 
six hearings and many witnesses later. We learned that there 
was consensus only on one issue. And that is that the air 
transportation demand will increase continuously and steadily 
in this region. And that airport capacity must also increase 
substantially.
    I would like to announce that after studying Peotone 
Airport and the funding for land acquisition in a regional 
context, we, the Illinois Legislature, did respond to the 
Governor's request and we did agree to authorize 75 million 
dollars of funding for land acquisition at Peotone Airport.
    I would hope that the Congressmen and the other advocates 
for Peotone recognize that our legislative action is, indeed, 
their victory. Now, this was not a blank check. We also said 
that no airport construction should begin until there are 
airline attendants and an airport operator identified and until 
there is an airport financing plan in place that includes 
federal, local and airline funding, as with any other airport.
    But by responding to the Governor's request, we believe 
that we did set the stage for a political deal, if that is what 
is now needed to move this important issue forward. And at the 
same time, the House Aviation Committee studied the capacity 
needs of the entire region; both short term and well into the 
future.
    We rejected the either/or dichotomy that has dominated this 
airport debate. Peotone or O'Hare, Peotone or Gary. In fact, we 
consider the five existing airports and potentially a new one 
at Peotone with the potential to serve this region as air 
travel demand increases. All of these six airports must 
function at top efficiency.
    And to that end, we urge the city of Chicago to immediately 
begin an engineering and environmental analysis, a thorough 
one, for the reconfiguration or construction of one or two new 
runways. We recommend developing new strategies for marketing 
the smaller existing airports at Rockford, Gary, and in 
Milwaukee, as reliever airports for O'Hare and Midway. And we 
made some recommendations on what these new strategies could 
be.
    We recommended streamlining the regulatory approval 
process, much like you're doing at the federal level, but we 
can get the state level as well. And then finally, we did 
recommend funding for land acquisition for Peotone Airport.
    In the report that was released by the Vice Chair, George 
Scully and myself, which I would like to place into the record, 
we articulate----
    Senator McCain. We have that.
    Representative Hamos. Thank you. We articulated this as a 
regional airport network. And it includes and incorporates all 
six airports in this region. This puts us in the same league as 
New York, Los Angeles, London and Boston, each of which of have 
five or six regional airports.
    Let me conclude by pointing out that recently we were proud 
to learn that Boeing selected Chicago as the new home for its 
international headquarters. This was accomplished because the 
Governor, the Mayor, the civic and business community came 
together to work on this mutual goal. It is now the same level 
of regional cooperation that is needed among our political and 
business and civic leadership to move us forward on aviation 
policy for the benefit of the entire region.
    Thank you.
    [The prepared statement of Ms. Hamos follows:]

     Prepared Statement of Hon. Julie Hamos, Chair, House Aviation 
Committee, State of Illinois and Hon. George Scully, Vice-Chairperson, 
                House Aviation Committee, State of Illinois
       Blueprint for Action: Creating a Regional Airport Network 
                          (Executive Summary)

                          GENERAL OBSERVATIONS

    Air travel demand will increase continuously and steadily in the 
metropolitan Chicago region, although the specific impacts for each 
airport will be determined by market forces.
    Airport capacity throughout the region must increase substantially 
to meet the projected travel demand.
    Future projected demand can be accommodated only if all five 
existing airports in the Chicago metropolitan region and a new Peotone 
Airport have a role.
    Strategies also are needed to relieve air traffic congestion in the 
short-term, coupled with long-term solutions looking fifty years ahead.

                            RECOMMENDATIONS

Recommendation #1. Creating A Regional Airport Network
    The Chicago metropolitan region's airport network should include: 
O'Hare International Airport, Midway Airport, Gary/Chicago Airport 
(Gary, IN), Greater Rockford Airport (Rockford, IL), General Mitchell 
International Airport (Milwaukee, WI) and a new Peotone Airport.
    The debate over ``Chicago's 3rd Airport'' is actually about the 
``Region's 6th Airport''--putting Chicago in the same league as New 
York, Los Angeles, Boston and London, all with five or six regional 
airports.
    All political leaders must cooperate to promote this network on 
behalf of the entire region.
Recommendation #2. Expanding Capacity at O'Hare International Airport
    The city of Chicago and the airlines should immediately begin an 
engineering and environmental analysis for the reconfiguration and/or 
construction of one or two rtulways.
    The State of Illinois should provide $15 million to undertake an 
engineering plan for key roadway improvements at O'Hare.
Recommendation #3. New Strategies for Smaller Existing Airports
    The State of Illinois and Federal Government should promote 
commercial service at the three regional airports with existing 
capacity: Greater Rockford Airport, General Mitchell International 
Airport (Milwaukee, WI), Gary/Chicago Airport (Gary, IN).
    A bi-state Illinois-Indiana process should explore tax and economic 
benefits for Illinois residents from Gary/Chicago Airport as well as 
other transportation improvements for the south suburbs.
    The RTA should review the commuter rail linkages between the 
smaller existing airports and major population and job centers.
Recommendation #4. Land Acquisition for Peotone Airport
    The State should take a proactive approach to future airport 
capacity by acquiring land for Peotone Airport--within a $75 million 
limit and with full disclosure of all persons selling land to the 
State.
    No airport construction should begin until there is a favorable 
environmental impact statement, until airport operator(s) and airline 
tenant(s) are identified, and until there is a financial plan with 
Federal, local and airline funding.
    If no airport is built, the State should commit to use or sell the 
land only for farming or open space purposes.
Recommendation #5. Expedited Regulatory Processes
    The State should organize a task force--including key State 
agencies, airport operators and municipal governments--to organize 
expedited regulatory review and approval for runway and other airport-
related development.
                                 ______
                                 
                          General Observations

    1. There appears to be consensus that air travel demand will 
increase continuously and steadily in the metropolitan Chicago region, 
although the specific impacts for each airport will be determined by 
market forces: the combination of regional population, job patterns, 
personal income and airline business decisions.
    2. There appears to be consensus that airport capacity throughout 
the region must increase substantially over time to meet the projected 
travel demand if this is to remain a vibrant metropolitan region 
capable of competing in a global economy.
    3. Future projected demand for the next fifty years can be 
accommodated only if all airports in the Chicago metropolitan region 
have a role: O'Hare International Airport, Midway Airport, Greater 
Rockford Airport (Rockford, IL), Gary/Chicago Airport (Gary, IN), 
General Mitchell International Airport (Milwaukee, WI) and the new 
Peotone Airport (Peotone, IL). These airports have plans to expand 
capacity as well as to market their facilities to airlines to enhance 
service to their own airports.
    4. Strategies also are needed to relieve air traffic congestion in 
the short-terra, coupled with longterm solutions to capture anticipated 
growth in air travel demand.

                     OVERVIEW OF REGIONAL AIRPORTS

I. Passengers Projected to Be Served
    During the 2001 spring legislative session, the House Aviation 
Committee heard testimony regarding six regional airports currently 
serving or with plans to serve the Chicago metropolitan region: O'Hare 
International Airport, Midway Airport, Greater Rockford Airport, Gary/
Chicago Airport, General Mitchell International Airport and a proposed 
Peotone Airport. The following is a summary of factors reviewed by the 
Committee and summarized here:


------------------------------------------------------------------------

------------------------------------------------------------------------
O'Hare International Airport..............  Currently 34 million
                                             enplanements.
                                            Projected to increase to 45
                                             million by 2012.
                                            FAA projects 55.7 million
                                             enplanements by 2015; new
                                             study projects demand to
                                             grow by 18 percent over
                                             next 10 years.
Midway Airport............................  Currently 7.4 million
                                             enplanements.
                                            Projected to increase to 8.5
                                             million enplanements by
                                             2012.
                                            FAA projects 10.2 million
                                             enplanements by 2015.
Greater Rockford Airport..................  Only cargo operations
                                             currently.
                                            400,000 persons take a bus
                                             and 800,000 drive from
                                             Rockford to O'Hare
                                             annually.
                                            Can handle over 3 million
                                             enplanements per year with
                                             terminal changes;15 million
                                             enplanements with
                                             additional runway.
                                            FAA projects 33,212
                                             enplanements by 2015
                                             without major increases in
                                             commercial service.
Gary/Chicago Airport......................  Currently 24,978 en
                                             planements per year (note:
                                             corrected on 6/5/01).
                                            Can handle 15 million
                                             enplanements per year with
                                             3-phase master plan.
                                            FAA projects 67,082
                                             enplanements by 2015
                                             without major increases in
                                             commercial service.
General Mitchell International Airport....  Currently 3 million
                                             enplanements per year.
                                            Projected to increase to 4.5
                                             million enplanements by
                                             2010.
                                            FAA projects 5.3 million
                                             enplanements by 2015.
Proposed Peotone Airport..................  Projected at 1 million
                                             enplanements upon
                                             construction; potentionally
                                             30 million enplanements
                                             with all proposed runways.
------------------------------------------------------------------------
Note: An ``enplanement'' is one measure of airport activity; it equals
  one passenger boarding one plane.

      
II. Airport Plans to Meet Projected Passenger Demand


------------------------------------------------------------------------

------------------------------------------------------------------------
O'Hare International Airport..............  World Gateway Project, being
                                             reviewed by FAA, to
                                             accommodate larger
                                             aircraft, new customs/
                                             immigration sites for
                                             international passengers,
                                             new terminal.
                                            FAA, city of Chicago and
                                             airlines planning to
                                             reconvene Delay Reduction
                                             Task Force to update
                                             airspace, operations,
                                             airfield, terminal
                                             improvements and demand
                                             management, including
                                             reconfigured and/or new
                                             runways.
Midway Airport............................  Completing terminal
                                             development program and new
                                             concourses.
                                            Completing surrounding
                                             roadway improvement and new
                                             parking structure.
Greater Rockford Airport..................  27th most active cargo
                                             airport in the Nation
                                             currently.
                                            Expanded passenger service
                                             to result in expansion of
                                             terminal building with 20
                                             departure/arrival gates.
                                            Plans to construct 3rd
                                             runway of 8,000 feet, if
                                             new commercial service.
                                            Plans for another passenger
                                             terminal building, if
                                             necessary after 3rd runway
                                             is built.
                                            Sufficient room to expand
                                             parking if needed.
Gary/Chicago Airport......................  Has runway that is longer
                                             than Midway's longest
                                             runway.
                                            Has master plan in three
                                             phases, depending on level
                                             of commercial service; long-
                                             term goal to expand airport
                                             to 1,700 acres from 700
                                             acres, build second major
                                             runway, new passenger
                                             terminal and parking
                                             garage.
General Mitchell International Airport....  3rd parallel air carrier
                                             runway by 2015; 6 new gates
                                             by mid-2003 to add to the
                                             existing 42 gates, all
                                             currently leased to
                                             airlines.
                                            3,000-space addition to
                                             current 6,000-space parking
                                             structure in late 2002,
                                             with 2,000 additional
                                             planned after.
                                            Renovations for terminal
                                             facilities, baggage claim
                                             and central concession
                                             mall.
Proposed Peotone Airport..................  Inaugural Phase: One runway;
                                             one terminal; 12 gates.
                                            Phase II: Additional runways
                                             and additional terminal.
                                            Phase III: Total of 6
                                             parallel runways;
                                             additional terminal and
                                             gates.
------------------------------------------------------------------------

      
III. Ability to Finance the Airport Development Plans; Need for 
        Additional Resources From the State of Illinois.


------------------------------------------------------------------------

------------------------------------------------------------------------
O'Hare International Airport..............  World Gateway Program
                                             planned to be funded
                                             entirely with airline-
                                             supported debt, Passenger
                                             Facility Charges, Federal
                                             grants.
                                            No IL general revenue funds
                                             are needed for operations
                                             or improvements.
Midway Airport............................  Terminal expansion funded
                                             entirely with airline-
                                             supported debt, Passenger
                                             Facility Charges, Federal
                                             grants.
                                            No IL general revenue funds
                                             are needed for operations
                                             or improvements.
Greater Rockford Airport..................  Expanded terminal to be
                                             funded with revenue bonds
                                             leveraged by Passenger
                                             Facility Charges.
                                            No IL general revenue funds
                                             are needed for operations
                                             or improvements.
Gary/Chicago Airport......................  Currently receive PFC
                                             proceeds under an agreement
                                             with O'Hare and Midway (to
                                             date: over $11 million).
                                            No PFC charges currently
                                             imposed on Gary flights.
                                            No IL general revenue funds
                                             are needed for operations
                                             or improvements.
General Mitchell International Airport....  15-year capital improvement
                                             plan uses Federal grants,
                                             user fees paid by
                                             passengers and airlines.
                                            No IL fiends are needed for
                                             operations or improvements.
Proposed Peotone Airport..................  Only funding is from State
                                             Illinois FIRST bonds for
                                             land acquisition.
                                            No Federal, local, private
                                             or airline funds have been
                                             identified yet for
                                             construction or operations.
------------------------------------------------------------------------

                            RECOMMENDATIONS

Recommendation #1. Promoting the Regional Airport Network
    While it is impossible to predict the precise scope of future air 
travel demand, it is clear that an effective regional airport network 
is critical to the economic vitality of the northeastern Illinois 
region. Based on a consensus that regional airport capacity must 
increase over time to meet air travel demand, this network should 
incorporate: O'Hare International Airport, Midway Airport, Gary/Chicago 
Airport (Gary, IN), Greater Rockford Airport (Rockford, IL), General 
Mitchell International Airport (Milwaukee, WI) and a new Peotone 
Airport (Peotone, IL).\1\
---------------------------------------------------------------------------
    \1\ The general aviation airports and smaller ``reliever'' airports 
(designated to reduce the general aviation traffic at O'Hare and 
Midway) are valuable assets of the region. The role of airports such as 
Meigs, Palwaukee, Lansing, Schaumburg, Aurora and Waukegan will be the 
subject of further study by the House Aviation Committee.
---------------------------------------------------------------------------
    This current airport network already is fortunate to house major 
operations for United, American, Southwest, American Trans Air and 
Midwest Express airlines, with O'Hare poised to secure its position as 
the nation's premier international hub. Accordingly, the current debate 
over ``Chicago's 3rd Airport'' is actually about the ``Region's 6th 
Airport''--putting the Chicago metropolitan area in the same league as 
New York with its 6 regional airports, Los Angeles with 5 regional 
airports, Boston with 6 regional airports, and London with 5 regional 
airports.
    This Blueprint for Action is presented against a backdrop of a 20-
year history of airport decisions in the Chicago metropolitan region 
that have been clouded by parochial interests and political 
motivations. This no longer can be an ``either-or'' proposition: O'Hare 
or Peotone; Gary or Peotone.
    Today must start a new day for aviation policy in Illinois--
requiring political leaders in Illinois to work cooperatively for the 
benefit of all airports throughout the region.
Recommendation #2. Expanding Capacity at O'Hare International Airport
    In order to expand the future capacity of O'Hare International 
Airport, the city of Chicago and the airlines should immediately begin 
an engineering and environmental analysis for the reconfiguration and/
or construction of one or two runways.
    The concept plan to be provided by the city of Chicago by July 1 
and the Delay Reduction Task Force to be reconvened by FAA are 
important first steps. However, the next step of a thorough engineering 
and environmental analysis will be necessary for the Governor to 
consider a certificate of approval, for the Federal Aviation 
Administration to consider approval of an environmental impact 
statement, and for O'Hare neighbors to have an opportunity to review 
and comment on the airport's plans.
    Under current law (Illinois Aeronautics Act, Section 48), the 
following analysis is required before a Governor can grant a 
certificate of approval: (1) the proposed location, size and layout of 
a new or reconfigured runway; (2) its relationship to the national 
airport plan, the Federal airways system, the State airport plan and 
the State airways system; (3) whether there are safe areas available 
for expansion purposes; (4) whether the adjoining area is free from 
obstructions; (5) the nature of the terrain; (6) the nature of the uses 
to which the runway will be put; and (7) the possibilities for future 
development. Illinois policymakers as well as O'Hare critics are 
requesting Section 48 information and more: Where would runways be 
built? How would runways function? Would any displacement of homes or 
businesses be necessary? Would there be noise and/or air quality 
impacts?
    The current debate in Congress to preempt states with respect to 
gubernatorial review of runway development underscores the critical 
role of O'Hare International Airport within the national air 
transportation system. It would be preferable to identify and address 
our own transportation priorities. Whether or not gubernatorial action 
ultimately will be necessary, the city of Chicago and the State of 
Illinois must have plans in place for expansion of O'Hare and regional 
airport capacity.
    In addition, planning should proceed on key roadway improvements 
that would make O'Hare function more efficiently. The State of Illinois 
should provide $15 million to undertake an engineering plan for the 
expansion of Interstate 190 and the construction of a Lee Street 
Interchange at I-90.
Recommendation #3. New Strategies for Smaller Existing Airports
    The State of Illinois and Federal Government should encourage 
commercial service at the region's smaller existing airports (Greater 
Rockford, Gary/Chicago, General Mitchell) that have existing capacity 
to ease congestion in the short-term, long before additional runways 
are built at any other airport. With Midway Airport as the model--
standing empty just 25 years ago--it is hoped that future market 
demands will require service expansions at these airports.
    Of the three airports, Gary/Chicago Airport has the potential to 
serve both downtown Chicago and the underserved south suburban and 
collar county communities. The role of Gary/Chicago Airport as part of 
the regional airport network should be analyzed through a bi-state 
process that examines potential tax and economic advantages for 
Illinois south suburban communities. The planning process might also 
consider the creation of an efficient bi-state transportation district 
with key improvements in airport, port, rail freight, high speed 
passenger rail, roadway and intermodal facilities located throughout 
that region.
    To encourage access to airports by transit, the Regional 
Transportation Authority (RTA) should review the commuter rail linkages 
between the smaller existing airports and major population and job 
centers, possibly across State lines. The Midwest process that 
initiated high speed rail is an example of this type of innovative 
multi-state transportation planning.
Recommendation #4. Land Acquisition for Peotone Airport
    With regional air travel demand exceeding airport capacity well 
into the future, the State should take a proactive approach by 
acquiring land for the future Peotone airport. As with any other 
economic development project, the State of Illinois should promote 
Peotone Airport while protecting the State's own economic investment 
within reasonable guidelines, as follows:
    <bullet> A limit of $75 million of Illinois FIRST bonding should be 
placed on land acquisition costs;
    <bullet> Full disclosure of all individuals and entities, including 
beneficiaries of land trusts, should be required in any agreement for 
the use or acquisition of land;
    <bullet> No airport construction should be commenced until there is 
a favorable FAA approval of the pending environmental impact statement;
    <bullet> No airport construction should be commenced unless airport 
operator(s) and airline tenant(s) are identified, capable of assuming 
significant responsibility for airport operations;
    <bullet> Any financing plan for airport construction should include 
Federal, airline and local finding, and should not use revenues from 
any other existing airport; and
    <bullet> If no airport is built, the State should commit to use or 
sell the land only for farming or open space purposes.
Recommendation #5. Expedited Regulatory Processes
    Based on future demand for air travel, airports throughout Illinois 
may plan runway or other airport development within the next 5-10 
years. In order to expedite the regulatory process for airport-related 
construction, a task force should be created now--including the 
Illinois Departments of Transportation, Environmental Protection and 
Natural Resources, key airport operators and municipal governments--to 
review all regulatory approvals and to plan for a coordinated process 
of agency reviews. To accelerate any airport development, the task 
force should place high priority on completing agency approvals and 
other project coordination activities in an expedited manner.
    This task force would complement similar efforts being proposed at 
the Federal level, expediting Federal agency regulatory approvals.

    Senator McCain. Thank you. I just have one brief question. 
What has been the reception to your committee's recommendation?
    Representative Hamos. Well, we did release it right at the 
end of the session. And, of course, it became part of the 
process for the appropriation which followed immediately right 
after it.
    Senator McCain. And then generally, the reception to----
    Representative Hamos. I'm not sure yet. Seemingly positive. 
But I don't know yet.
    Senator McCain. Do we have a question? If not, I want to 
thank all of you for taking the time from your busy schedules 
and joining us here this morning, which is indicative of your 
involvement and commitment to this issue. And we look forward 
to working with you because we all have to work together----
    Representative Manzullo. Senator McCain, I'd like to have 
my statement made part of the record.
    Senator McCain. Without objection, all statements shall be 
made part of the record. Thank you, thank you very much.
    The next panel will be the Honorable Jane Garvey, who's the 
administrator of the Federal Aviation Administration, Mr. Tom 
Walker, Aviation Committee for the city of Chicago and Linda 
Wheeler, who's the Director of the Illinois Department of 
Transportation. I'd like to welcome you.
    I'd like to get order from everyone, please. Would you 
constrain conversation on my left, please? Thank you. Thank you 
very much. Thank you. Welcome. We'll begin with you, Ms. 
Garvey. Welcome back before the Committee. And we thank you for 
taking the time to be here with us today. And we are very 
appreciative. We know you've had other commitments that you had 
to cancel. And we thank you for being here.

   STATEMENT OF HON. JANE F. GARVEY, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Ms. Garvey. Thank you very much, Senator, Chairman McCain 
and Chairman Rockefeller and Members of the Committee. It's 
really my pleasure to be here today to discuss airport capacity 
issues of the Chicago region. I am also particularly pleased to 
represent Secretary Mineta. He has made finding solutions to 
some of our capacity limitations in all modes of transportation 
one of his top priorities.
    However, from the vantage point of the Federal Government, 
and for those of us at the FAA, our challenge really is to 
address these issues from a systems perspective. What we see at 
a number of our top airports is an imbalance between capacity 
and demand growth. And that brings into sharp focus the need 
for communities to make informed decisions today in order to 
accommodate future demand.
    Our recent airport capacity benchmark report, which was 
just issued last month, documents that there are a handful of 
airports, including Chicago O'Hare, where demand exceeds 
capacity and where, particularly in adverse weather conditions, 
the resulting delays have impacts throughout the National Air-
Space system.
    Last year, as you all know, O'Hare was ranked the second 
busiest and the third most delayed airport in the country. It's 
one of the eight airports with which we worked to develop 
specific action plans to address delays. In the case of O'Hare, 
one of the recommendations included in the action plan calls 
for the City, the airlines and the FAA to return to an approach 
that was successfully used in 1991 to reduce delays.
    And we certainly want to applaud the City for stepping up 
to the plate once again in forming a second O'Hare delay task 
force to look at a number of delay reduction alternatives, both 
for the short and the long term. We expect that work to be 
completed in about 6 to 9 months. And we're looking forward to 
working with the participants on that delay task force.
    Certainly, addressing the delays at O'Hare is a critical 
element in meeting the aviation needs of this region. But 
O'Hare, as many of the previous panelists have pointed out, is 
only part of Chicago's regional airport system. There are five 
major commercial service airports that serve this part of the 
country.
    They include not only the two air carrier airports operated 
by the City, but also the Greater Rockford, Milwaukee and Gary, 
Indiana airports. In our view, discussions about increased use 
and improvements to any or all of those facilities is welcome 
and necessary. And I want to reiterate what Senator Durbin said 
earlier this year in Chicago, and elsewhere. It doesn't have to 
be an either/or proposition.
    I want to also mention that over the last several years, 
the FAA has worked actively with the Illinois Department of 
Transportation to reach an agreement on how best to proceed 
relative to IDOT's proposal for a south suburban airport. We 
reached agreement last year to focus on a tiered approach for 
the Environmental Impact statement, the EIS. The tiered 
approach recognizes that the state is approaching a new airport 
site in stages, site approval and land banking first and 
infrastructure considerations later as market demand develops.
    Work on the tiered EIS is well underway. We certainly would 
hope to have it completed by next March. In fact, we're looking 
at moving that up even sooner. A number of you have focused, 
and I think rightly so, on the appropriate role that the 
Federal Government plays. In a deregulated domestic aviation 
industry, the Federal Government no longer controls where, how 
or when airlines provide their services. Nor are we the driving 
force in airport capacity development.
    What drives those considerations today is the market, the 
local and regional decisionmaking and partnership with the 
aviation industry in response to that market demand. But I want 
to underscore, and I really want to say this as clearly as I 
can, that we at the federal level, particularly at the FAA will 
provide any support, and any technical assistance that we can. 
And we will continue to do our part in modernizing the air 
traffic control system and implementing the operational 
efficiencies wherever possible.
    We are very, very pleased to be here today and really 
applaud the leadership that this Committee has taken not only 
here in Chicago but nationally for our aviation system. And I 
look forward to and welcome any questions that you may have. 
Thank you.
    [The prepared statement of Ms. Garvey follows:]

         Prepared Statement of Jane F. Garvey, Administrator, 
                    Federal Aviation Administration

    Senator McCain and Members of the Committee: It is a pleasure to 
appear before you today to discuss increased airport capacity in the 
Chicago region, particularly the efforts to reduce delays at O'Hare and 
to landbank a site for a possible South Suburban airport. I am 
particularly pleased to be here in Chicago because it is recognized as 
such an important part of the National Airspace System (NAS).
    Today's hearing is very timely because it focuses our attention on 
congestion not only in this region but also in our aviation system as a 
whole. Secretary Mineta has made the effort to deal with the capacity 
limitations in our aviation sector--one of the underlying causes of 
airline delays--one of his top priorities. As we enter the summer 
travel season, we will have daily reminders of the need to employ both 
short and long-term measures to meet the challenge of delays--a 
challenge that will grow increasingly difficult as forecasted growth 
continues.
    I think it is important to understand our many ongoing efforts to 
address the challenges posed by congestion. The Airport Capacity 
Benchmark Report 2001, which the Secretary released last month, 
documents that we are faced with very challenging capacity issues. Our 
hope is that this report will provide valuable data that will be used 
to assist the Federal Aviation Administration (FAA), airports, 
airlines, and other system users in making informed decisions and 
investments that can ultimately help better manage the ever increasing 
demand for capacity, while at the same time reducing the causes of 
delays. Much of the information in the report documents what you, as 
frequent users of the system, probably know intuitively. But this 
information now provides all of us, Congress, the FAA, the airports, 
the airlines, and local communities, with a common set of metrics to 
measure the capacity of an airport.
    Our report documents that there are a handful of airports--
including Chicago's O'Hare International airport--at which demand 
exceeds capacity and where, in adverse conditions, the resulting delays 
have impacts throughout the National Airspace System (NAS). In 2000, 
O'Hare was ranked the second busiest and the third most delayed airport 
in the country. Overall, slightly more than 6% of all flights were 
delayed significantly (i.e. more than 15 minutes). On good weather 
days, scheduled traffic is at or above the capacity benchmark (200-202 
flights per hour) for 3\1/2\ hours of the day and about 2% of the 
flights are delayed significantly. In adverse weather, which may 
include poor visibility, unfavorable winds, or heavy precipitation, 
capacity is lower (157-160 or fewer flights per hour) and scheduled 
traffic exceeds capacity for 8 hours of the day. The number of 
significantly delayed flights jumps to 12%.
    Planned airport construction at O'Hare, known as the World Gateway 
Program, includes terminal construction, taxiway extension, and 
modifications that will reduce gate congestion delays and delays on the 
airport surface, but will not materially add to airside capacity. 
Improved avionics and air traffic procedures are expected to increase 
O'Hare's capacity in good weather (by 6%) and in bad weather (by 12%) 
over the next 10 years compared to today. However, demand at O'Hare is 
projected to grow by 18% over the next decade. This imbalance between 
capacity and demand growth can be expected to significantly increase 
delays at O'Hare.
    Of course, O'Hare is not alone. Other airports across the country 
are experiencing similar delays. From our vantage point at the Federal 
level, we try to address transportation from a systems perspective. We 
believe that is key to moving people and goods safely, reliably and 
efficiently. The FAA has developed action plans for eight of our most 
congested airports, including O'Hare. These eight airports represent 
the biggest challenges in the NAS. When they suffer delays, there's a 
domino effect on the entire system. Each of the eight airports is 
unique, and new runways are not an option for all of them. It is our 
hope that, working with our partners in the aviation community, 
implementing these action plans will maximize the growth of capacity 
and increase efficiencies in the system. I know you are also aware of 
our most recent initiative to address aviation capacity challenges--a 
Federal Register notice seeking the broadest possible input on steps to 
take at LaGuardia Airport to address congestion and delays.
    In the case of O'Hare, the action plan calls for the city of 
Chicago, the airlines and the FAA to revisit the 1991 Chicago Delay 
Task Force Study. That successful collaboration resulted in a report 
that included specific recommendations for reducing delays at O'Hare. 
The majority of the recommendations were implemented--relating for the 
most part to air traffic procedures and physical development--and the 
City of Chicago estimates that they resulted in a 40% reduction in 
delays at the airport. The 1991 study also recommended additional 
runways and related infrastructure improvements, but as you know, those 
were not adopted.
    I applaud the City for now stepping up to the plate once again. The 
City has formed a second O'Hare Delay Task Force to identify both short 
and long-term solutions to the delay situation at the airport. It is 
being chaired by both City and FAA officials with broad representation 
from the stakeholders, including: the Illinois Department of 
Transportation (IDOT); the Indiana Department of Transportation; 
airlines; and aviation interest groups. The FAA will provide technical 
assistance through our headquarters, regional, and field staff. The 
task force will examine a broad band of alternatives to increase 
capacity and reduce delays. Those alternatives will include airfield 
and technology improvements, air traffic procedures, and collaborative 
decision making. The first meeting of the O'Hare Delay Task Force was 
held on June 5. While we expect the work to take approximately nine 
months (the first Task Force took 2 years), we are hopeful that action 
will be taken on delay reducing initiatives as they are identified and 
not deferred for a formal report at the end of the study. As before, 
while the Task Force will make recommendations, it will be up to the 
airlines, the FAA and/or the City to accept and implement the 
recommendations.
    But O'Hare airport is only part of Chicago's regional airport 
system. There are five major commercial service airports that serve 
this part of the country. They include not only the two air carrier 
airports operated by the City of Chicago--O'Hare and Midway--but also 
the Greater Rockford, General Mitchell International (Milwaukee), and 
Gary/Chicago airports. In our view, discussion about increased use and/
or improvements to any or all of these facilities, including increasing 
the capacity of these airports through runway construction, is welcome 
and necessary. Whatever the upshot of these activities may be, it is 
also the case that they can proceed along with the ongoing 
consideration of a possible new supplemental airport for the region. 
Meaningful discussion must include both short and long-term plans for 
improvements to the system. Here in Chicago as elsewhere, it doesn't 
have to be an ``either/or'' proposition.
    At the same time, we recognize that there is a great deal of 
controversy about aviation needs in the Chicago area. I don't have to 
reiterate to those gathered here today a detailed history of the 
challenges the region has faced over the past 15 years or so. Suffice 
it to say that efforts have been underway for some years to locate a 
site for a supplemental commercial service airport in the Chicago 
region. These efforts have been attended by a lack of consensus on a 
suitable site for the airport, the size of airport infrastructure, the 
role of existing airports, and the degree to which air carriers may 
institute service at a new site.
    Over the past several years the FAA has worked actively with IDOT 
to reach an agreement on how best to proceed relative to IDOT's 
proposal for a south suburban airport near Peotone, Illinois, which is 
approximately 35 miles south of Chicago. Initially we disagreed with 
IDOT over the scope and timing of the proposal. The disagreement 
between the agencies was entirely technical and based on the fact that 
we believed that the State, in its earlier proposals, had overestimated 
the potential demand at a new airport and that the scale of the 
proposed new airport exceeded that demand.
    Early last year, however, we reached agreement on going forward 
using a tiered Environmental Impact Statement (EIS) approach. We agreed 
to complete a Tier 1 EIS for the first part of the State's proposal. 
The Tier 1 EIS considers site approval of a location for a possible 
future airport and landbanking, at State expense, for such a site to 
protect it from encroaching development. IDOT's proposal is to develop 
airport infrastructure at the site as aviation demand develops. At this 
stage, IDOT and FAA are not considering any future airport development; 
rather that will be done at a later time. This tiered approach 
recognizes that the State is approaching a new airport site in stages--
site approval and landbanking first, and infrastructure considerations 
later.
    Work on the tiered EIS is well underway. The FAA has devoted 
significant resources to the EIS to complete it as fast as possible. It 
is one of four airport proposals nationwide where FAA has established a 
dedicated EIS team to guide and expedite the work. The first step in 
the process, known as ``scoping''--where the scope of the issues to be 
addressed are identified--has been completed. The scoping process 
included public meetings where Federal, State and local agencies, and 
the interested public provided input to the project. The FAA and its 
consultants are now nearing the end of the second step, completion of 
technical analyses and issuance of a Draft EIS by late summer. The 
Draft EIS will then be available for public and agency review, 
whereupon the EIS team will assess whether its March 2002 schedule for 
completing the EIS can be accelerated any further.
    It is important to note the Federal Government's role in this 
endeavor. In a deregulated domestic aviation industry, the Federal 
Government no longer controls where, how and when airlines provide 
their services. Nor are we the driving force in airport capacity 
development. What drives those considerations now is the market, and 
local and regional decision making, in partnership with the aviation 
industry, in response to that market demand. Certainly, we at the 
Federal level will provide any support and assistance that we can, and 
will do our part in continuing to modernize the air traffic control 
system and implementing ATC efficiencies wherever possible. However, 
the Federal Government cannot and should not solve State and local 
planning challenges. In Chicago, past efforts to deal with airport 
capacity limitations in the region failed because of lack of consensus. 
That appears to be changing. It is a very positive development that the 
City and State appear to be coming together to reach consensus for both 
short and long-term measures to deal with the predicted growth in 
operations at the region's airports. We stand ready to assist in any 
way that we can.
    Mr. Chairman, I know that this Committee is as committed as 
Secretary Mineta and I are to finding the solutions to the capacity 
challenges we are facing. I also know that our counterparts in local 
and state government as well as in the aviation industry share our 
commitment. It is my hope that as we continue to work together on these 
challenges, and that the effort here in Chicago will be a model for the 
rest of the country in how best to achieve solutions--even with a past 
history of controversy--that will benefit not only the local community, 
but the Nation as a whole.
    This concludes my prepared statement. I will be happy to answer any 
questions at this time.

    Senator McCain. Thank you very much, Ms. Garvey.
    Mr. Walker, welcome.

                STATEMENT OF THOMAS R. WALKER, 
          COMMISSIONER OF AVIATION, CHICAGO, ILLINOIS

    Mr. Walker. Thank you, Chairman McCain and Chairman 
Rockefeller, Senator Durbin and Senator Fitzgerald. I'm truly 
pleased to appear before you here today and to welcome you to 
the great city of Chicago.
    Senator McCain. Mr. Walker, your complete statement will be 
made part of the record as well as the other witnesses.
    Mr. Walker. Thank you very much. I'm privileged to be the 
head of the Chicago Airport System and it's difficult to 
overestimate the national and international importance of 
Chicago's two major airports. In the year 2000, more than 87 
million passengers passed through the doors of Chicago 
airports; 72.1 million at O'Hare and a record breaking 15.6 
million at Midway.
    Between O'Hare and Midway, we have approximately 3,300 
commercial passenger flights per day to 255 separate markets, 
including 191 nonstop destinations provided by 60 different 
passenger airlines.
    O'Hare itself serves 138 non-stop domestic destinations, 
with an average of 2,500 commercial flights per day. In many 
ways, O'Hare is the hub of the national aviation system. When 
O'Hare sneezes, the country gets the flu. It is a hub for the 
two largest airlines in the world. It is at the crossroads of 
our great nation.
    Twenty-four essential air service airports are being served 
from O'Hare, vital service that I know is important to Members 
of this Committee. That includes 16 daily flights to Phoenix as 
well as three to Tucson. O'Hare delays have a crippling effect 
on the national system and must be addressed to ensure that 
communities across the country have access to O'Hare today and 
into the future.
    O'Hare supports more than 500,000 jobs and generates over 
$35 billion in annual economic impact. O'Hare truly is a magnet 
for business, as evidenced most recently by Boeing's decision 
to relocate their headquarters here to Chicago.
    All of this service by so many different airlines 
translates into an extraordinarily competitive environment for 
Chicago area travelers. The most recent DOT airfare surveys 
indicate that the average fare in Chicago, which is the third 
largest city in the country, is $183, which places Chicago 
fares lower than 19 other major cities.
    This is a tribute to our carriers and to our stewardship, 
but we cannot and will not rest there. We know that Chicago 
status as the preeminent transportation hub is not just 
geographic happenstance, but the result of careful planning, 
strategic vision, and capital investment.
    It is also the result of sensitivity to those adversely 
affected by noise. The Chicago Airport System has the most 
aggressive noise mitigation program in the country. It is also 
the result, it will have spent $394 million in communities 
around O'Hare and Midway by the end of 2001 to provide sound 
insulation for over 4,500 homes and 99 schools.
    So that there can be no doubt, we fully understand and 
appreciate congressional frustration with the impasse over 
O'Hare delay. We understand the frustration of passengers, 
including the many Members of Congress who connect through 
O'Hare for their flights from their districts when they cannot 
get to where they're going on time. Congress is right to be 
interested in solving this problem and we appreciate your being 
here today.
    For its part, the City has tried hard to do everything 
possible to maximize the efficiency of O'Hare. Our written 
statement contains many of these efforts. With our carriers 
active support and at no expense to local taxpayers, we have 
invested billions of dollars in capacity development at our 
airports.
    As a result of these efforts, the City saw a 40 percent 
reduction in delays from 1988 to 1998. Unfortunately, the 
delays were up in 1999. And then, as everyone here knows, the 
year of 2000 brought a summer of horrendous delays across the 
country, including here at O'Hare.
    We know that delays cost money. Delays mean misconnections, 
late meetings, missed events, less family time and more 
headaches, which none of us need. Obviously the City does not 
run the FAA's air traffic control system. It cannot control 
thunderstorms or tell the airlines when to fly and what 
aircraft to use.
    Nor can we, given the current political climate, 
unilaterally construct runways to reduce the delays at O'Hare 
without time consuming, costly challenges. Yet, we've heard 
loud and clear the clarion call for delay reduction at O'Hare 
from the FAA, from our two hub carriers, from the Chicago 
region's business community, from travelers everywhere, and 
most certainly from Members of this Committee and other 
congressional leaders. Without question, we need to be sure 
that O'Hare operates efficiently in good and bad weather.
    Mayor Daley has asked us to take a hard look at all 
available options for increasing the efficiency of O'Hare and 
meeting our long-term capacity needs. We supported the FAA's 
call to form a new Chicago Delay Task Force. And this Delay 
Task Force in 1991 was a productive, professional effort to 
focus the best technical minds at root causes and corrective 
fixes.
    It contributed greatly to the 40 percent reduction in 
delay. Unfortunately, the 1991 Task Force recommendations for 
two new runways went unheeded. And runway development has not 
enjoyed the support of Illinois' last three Governors.
    While we are encouraged that the current Governor, Governor 
Ryan, for the first time asked to at least see an O'Hare runway 
plan, he continues to say he does not support runways at 
O'Hare. The Mayor has asked us by July 1 to forward conceptual 
runway plans to Governor Ryan to help meet the region's 
aviation needs and we will do so.
    Here's the bottom line. O'Hare's delay problems can only be 
addressed at O'Hare. 70 percent of O'Hare passengers are 
connecting or international passengers. And their needs cannot 
and will not be met at any other airport. And certainly not by 
one 45 miles from the Loop.
    Let's invest in existing airports. Support existing relief 
of airports and expedite critical delay reduction projects. The 
fastest, most economical way to improve efficiency in our 
nation's aviation system is to improve what we already have. 
And any plan must protect local taxpayers.
    So, what can Congress do? From our perspective, it ought 
not to take 10 years, as estimated by the FAA, to plan and 
build a runway. A number of proposals, such as the EASE 
proposal to streamline environmental processing, hold great 
promise. And we've talked about these suggestions in our 
written statement.
    We appreciate, respect and welcome congressional attention 
to O'Hare's problems. We recognize that some projects are so 
essential to our nation's infrastructure that they deserve your 
attention.
    It is not just national need that dictates solutions to our 
capacity efficiency problems at O'Hare. Failure to address 
delays in Chicago now has the potential to cripple the entire 
economic engine that O'Hare is and leave passengers stranded 
throughout the country. And that is not an option.
    Now, that concludes my remarks. And I'll take any questions 
at the appropriate time.
    [The prepared statement of Mr. Walker follows:]

   Prepared Statement of Thomas R. Walker, Commissioner of Aviation, 
                           Chicago, Illinois

    Senator McCain, Senator Rockefeller, Senator Durbin, and Senator 
Fitzgerald, I am Thomas R. Walker, the city of Chicago's Commissioner 
of Aviation. I am pleased to appear today and to welcome you to the 
great city of Chicago on behalf of our Mayor, Richard M. Daley. He 
regrets that he cannot be here in person, as he is out of the country.
    I am privileged to run the Chicago Airport System. Without 
question, we truly are fortunate here in Chicago with the wide variety 
of airlines, fares, and destinations offered by our two commercial 
service airports--O'Hare International and Midway. It is difficult to 
overestimate the national and international importance of Chicago's two 
major airports. In 2000, more than 87 million passengers passed through 
the doors of Chicago's airports: 72.1 million at O'Hare and a record-
breaking 15.6 million at Midway. Between O'Hare and Midway, we have 
approximately 3,300 commercial passenger flights per day to 255 
separate markets, including 191 nonstop destinations--provided by 60 
different passenger airlines, as well as an equally impressive number 
of cargo flights operated by 23 different cargo airlines.
    O'Hare itself currently serves 138 non-stop domestic destinations, 
with an average of 2,500 commercial flights each day. In many ways, 
O'Hare is the hub of the national aviation system. When O'Hare sneezes, 
the country gets the flu. It is a hub for the two largest airlines in 
the world. It is at the crossroads of our great nation. In addition, 
twenty-four essential air service airports are being served from 
O'Hare--vital service that I know is important to many Members of the 
Committee. O'Hare delays have a crippling effect on the national system 
and must be addressed to ensure communities across the country have 
better access to O'Hare today and into the future. We all have a stake 
in ensuring O'Hare's health and vibrancy.
    O'Hare supports more than 500,000 jobs and generates over $35 
billion in annual economic impact. O'Hare is truly a magnet for 
business, as evidenced most recently by Boeing's decision to relocate 
its headquarters to Chicago.
    Not only do we enjoy the only true dual hub in the country at 
O'Hare, but we also have the nation's preeminent point-to-point 
airport, Midway, which is served by many of our nation's leading low-
fare carriers, including Southwest and American Trans Air.
    All of this service by so many different airlines translates into 
an extraordinarily competitive environment for Chicago area travelers. 
The most recent DOT airfare surveys from the 4th Quarter 2000 indicate 
that the average airfare in Chicago, which is the third largest city in 
the country, is $183, which places Chicago fares lower than 19 other 
major cities. That is a tribute to our carriers and to our stewardship, 
but we cannot and will not rest there.
    For over a century, the City has been proud of its historical 
status as the preeminent transportation hub in the country. We know 
that this status is not just geographic happenstance, but the result of 
careful planning, strategic vision, and capital investment. It is also 
the result of sensitivity to those adversely affected by noise. The 
Chicago Airport System has the most aggressive noise mitigation program 
in the country. It will have spent $394 million in communities around 
O'Hare and Midway by the end of 2001 to provide sound insulation for 
4,500 homes and 99 schools. However, because of past and current 
objections by Illinois Governors; the City has not been able to make 
certain investments in its aviation infrastructure to deal with our 
current challenges.
    So that there can be no doubt, we fully understand and appreciate 
congressional frustration with the impasse over airport delay: relief 
at O'Hare. We understand the frustration of passengers, including the 
many Members of Congress who connect through O'Hare for their flights 
to and from their districts, when they cannot get to where they are 
going on time. Congress is right to be interested in solving this 
problem, and we appreciate your being here today.
    For its part, the City has tried hard to do everything possible to 
maximize the efficiency of O'Hare. Unlike many other airports, Chicago 
has a unique seven-runway, intersecting configuration. Back in 1991, 
the City and the FAA partnered to form a Delay Task Force, which was a 
productive, professional effort to focus the best technical minds at 
root causes and corrective fixes. It led to 11 specific O'Hare 
recommendations and 28 total recommendations, which when implemented 
contributed greatly to a 40 percent reduction in delays over the 
ensuing decade. Unfortunately, the 1991 Task Force recommendations for 
two new runways went unheeded.
    Additionally, we have worked with the FAA to improve central flow 
procedures, relieve choke points, and re-design terminal airspace. We 
have reconfigured taxiways to improve efficiencies: We built new hold-
pads. We built anew international terminal with 21 new gates. We 
supported the orderly phaseout of the archaic High Density Rule. We 
have worked with the FAA and carriers to implement Collaborative 
Decision Making. We have embarked on the ambitious World Gateway 
Program, which will add two new terminals and up to 30 new gates. With 
our carriers' active support, and at no expense to local or State 
taxpayers, we have invested billions of dollars in capacity development 
at our airports.
    As a result of these efforts, the City saw a 40 percent reduction 
in delays from 1988-1998. In 1988, O'Hare had 793,355 operations and 
43,943 delays, or 55.4 delays per 1,000 operations. In 1998, O'Hare 
operations had increased by approximately 2 percent per year to 
896,104, yet delays decreased dramatically, to 26,563 annually, or 29.6 
per 1,000 operations. Unfortunately, delays went up in 1999 to 49,202 
or 54.9 per 1,000 operations; while O'Hare operations stayed constant 
at 896,262. Then, as everyone here knows, the year 2000 brought a 
summer of horrendous delays across the country, including O'Hare. Bad 
thunderstorms, loss of land-and-hold-short (LAHSO) procedures, (which 
alone resulted in a reduction of 36-40 arrivals and departures per hour 
in one of the most commonly used runway configurations), increased 
demand, and labor problems at one of our hub carriers contributed to an 
awful season of delays. The result was an inordinate and unacceptable 
increase in delays. Again, operations were up only 1.4 percent, to 
908,989, yet delays were 57,545, or 63.3 delays per 1,000 operations. 
Clearly, not enough was done in the early 1990's to address O'Hare's 
long-term delay problem. Despite the City doing everything it could, 
recommended runways were not added to O'Hare at the time.
    To cope with this rise in delays, we have tried to make our airport 
as comfortable and appealing as possible for those travelers forced to 
wait at O'Hare, but we know that is a poor substitute for being on 
time. We know that delays cost money--$166 million in airline 
operations and billions to travelers each year. Delays mean missed 
connections, late meetings, missed events, less family time, and more 
headaches, which none of us need. Obviously, the City does not run the 
FAA's air traffic control system, control thunderstorms, or tell the 
airlines when to fly or what aircraft to use. Nor can we, given the 
current political climate, unilaterally construct runways to reduce 
delays at O'Hare without time-consuming costly challenges.
    Yet, we have heard loud and clear the clarion call for delay 
reduction at O'Hare from the FAA, from our two hub carriers, from the 
Chicago region's business community, from travelers everywhere, and 
most certainly from Members of this Committee and other congressional 
leaders. Without question, we need to be sure that O'Hare operates 
efficiently in good and bad weather.
    Mayor Daley has asked us to take: a hard look at all available 
options for increasing the efficiency of O'Hare and meeting our long-
term capacity needs. We supported the FAA's call to re-constitute the 
Chicago Delay Task Force.
    We are hopeful that the new Task Force will examine the full range 
of delay-reducing ideas, including runways, and arrive at a consensus 
on new recommendations, hopefully in the next 6 to 9 months. In the 
meantime, the Mayor has asked us by July 1st to forward conceptual 
runway plans to Governor Ryan to help to meet the region's aviation 
needs, and we will do so. While we are encouraged that the current 
Governor, for the first time, asked to at least see an O'Hare runway 
plan, he continues to say he does not support new runways at O'Hare. 
This is not new, since runway development has not enjoyed any of the 
last three Govenors' support.
    We certainly are not pleased that O'Hare became the third most 
delayed airport per flight in the country. According to the FAA's 
Capacity Benchmarks, O'Hare's current scheduled traffic meets or 
exceeds its good weather capacity for 3\1/2\ hours of the day and 
exceeds adverse-weather capacity for 8 hours of the day. On adverse 
weather days 12 percent of O'Hare's flights are delayed. The FAA 
believes that demand at O'Hare is expected to grow by 18 percent over 
the next decade, and that ``[t]his imbalance between capacity and 
demand growth is expected to significantly increase delays at O'Hare.''
    Obviously, we share the Committee's view that something must be 
done to alleviate congestion at O'Hare. Equally obvious, we 
respectfully submit, is the plain fact that O'Hare's delay problem can 
only be addressed at O'Hare. Seventy percent of O'Hare's passengers are 
connecting or international--their needs cannot and will not be met by 
any other airport, and certainly not by one 45 miles from the Loop. 
Let's invest in existing airports, support existing reliever airports, 
and expedite critical delay-reducing projects. The fastest, most 
economical way to improve efficiency in our nation's aviation system is 
to improve what we already have. And, any plan must protect local 
taxpayers.
    So, what can Congress do to help? From our perspective, it ought 
not to take ten years, as estimated by the FAA, to plan and build a 
runway.
    A number of proposals, such as the EASE proposal developed by the 
Airports Council International-North America and the American 
Association of Airport Executives, to streamline environmental 
processing, hold great promise. Additionally, a number of other 
legislative proposals designed to plan and build critical capacity 
projects have merit and are deserving of your consideration, including 
(a) designating critical national airport capacity projects; (b) 
mandating priority, concurrent processing at all Federal agencies; (c) 
allowing airports to fund runway-specific FAA staff/consultants; (d) 
encouraging FAA to broaden its use of categorical exclusions; (e) 
allowing airports to use airport revenue for off-airport noise 
mitigation; (f) eliminating both the off airport alternatives and ``no 
build'' analysis for national priority projects; (g) restricting 
judicial review for such projects; and (h) eliminating 49 U.C.S. 
Sec. 47106(c)(1)(B) governor's certificates.
    Regarding the latter element, the FAA and most agree that the 
Federal requirement for governor's certificates for clean air and water 
requirements is redundant and unnecessary. More broadly, however, a 
number of major airport operators, including the City, confront the 
additional impediment of having to ``channel'' airport fund requests or 
receipts through an additional layer of State approval.
    With respect to such State and local ``approvals,'' we are aware of 
bipartisan support in both the Senate and the House to consider 
preemption of State and local impediments to runway construction at 
certain airports, including O'Hare. Given the enormous interstate 
commerce implications of delays at O'Hare, we fully understand 
congressional interest in playing a useful role in resolving the 
current runway impasse.
    As one of the busiest airports in the world, O'Hare is a vital link 
to moving people and goods everywhere. We are mindful of its unique 
status, and the need to make real improvements in real time to reduce 
delays now and in the future. We do not have the luxury of time in 
developing answers to this problem. We appreciate, respect, and welcome 
congressional attention to O'Hare's problems. We recognize that some 
projects are so essential to our nation's infrastructure that they are 
deserving of your attention. Developing infrastructure at O'Hare and 
several other national priority capacity projects is essential to 
keeping our nation's economy running smoothly.
    Failure to address delays in Chicago now has he potential to 
cripple the economic engine that is O'Hare, and leave passengers 
stranded throughout the country. That is not an option.
    The City applauds the Committee's efforts to examine this issue.

                               CONCLUSION

    This concludes my prepared remarks. I will be happy to answer any 
questions that you or other Members of the Committee may have.

    Senator McCain. Thank you, sir.
    Miss Wheeler, welcome.

STATEMENT OF LINDA M. WHEELER, DIRECTOR, OFFICE OF PLANNING AND 
       PROGRAMMING, ILLINOIS DEPARTMENT OF TRANSPORTATION

    Ms. Wheeler. Thank you. The problems at O'Hare are reaching 
a crisis stage. U.S. DOT in March reported that O'Hare had the 
worst delays in the nation last year with nearly 10,000 flights 
more than an hour late. The primary cause for this dismal 
record is the lack of capacity at O'Hare.
    For the past 2 years, as delays were soaring by 60 percent, 
the number of domestic passengers at O'Hare actually declined 
by nearly 2 percent in 2000. While domestic passengers 
nationwide grew by more than 4 percent per year.
    Besides delays, this lack of capacity has allowed the 
development of a fortress hub where airlines that want to 
compete cannot enter the market. Where additional communities 
that want service to O'Hare, cannot get in. And smaller 
communities that have service have been pushed out. And where? 
According to U.S. DOT data, in 1999 O'Hare's fares were 34 
percent higher on a per mile basis than the average fares of 
the 68 hub airports.
    We've been working to address that capacity shortfall since 
1984 when the FAA, as part of its approval for O'Hare's last 
airport layout plan, recommended that the state study the 
development of another air carrier airport to serve the Chicago 
metropolitan area.
    Extensive studies have identified the optimal site on which 
to construct a new airport to supplement the 40-year-old 
O'Hare. Located in the south suburbs, abutting the Chicago 
urban area boundary, this site will be nearly three times the 
size of O'Hare with abundant room to grow to meet future demand 
while still containing onsite all objectionable noise.
    We have submitted our data to FAA, which is preparing the 
Environmental Impact Study. The federal record of decision is 
expected by next March or sooner. We've begun land acquisition 
on the site. The state Legislature has authorized 75 million 
dollars to purchase the 4100 acres needed for the opening day 
airport and to undertake protective acquisition on the 
remainder of the 24,000 acres.
    The inaugural stage of this airport could be operational in 
less than 5 years at a cost of under 600 million dollars. While 
we believe the long term answer is the south suburban airport, 
we're pleased that the city of Chicago and the FAA have 
convened a Delay Task Force to examine a range of strategies 
for treating O'Hare delays. We're a member of that task force. 
And we intend to work diligently with the City and the FAA on 
this endeavor.
    We also believe it's necessary to consider the role of 
underutilized existing airports. But that decision ultimately 
rests with the airlines. We believe the airlines need to look 
beyond the bottom line and consider how such airports might 
provide short term relief.
    To that end, Governor Ryan has written to both American and 
United Airlines urging them to consider using the Greater 
Rockford Airport for relieving congestion at O'Hare.
    Finally, let's talk about runways at O'Hare. While Governor 
Ryan has not been a proponent of additional runways, he's never 
rejected a plan because no plan has ever been forwarded by the 
City. Therefore, the rush to consider new runways leaves a 
multitude of unanswered questions. Would they solve the delay 
problems at O'Hare? And if yes, for how long? What are the 
costs? Not only in dollars, but also in terms of additional 
persons affected by noise and businesses and homes displaced.
    What are the environmental consequences and how would they 
be remediated? Since no environmental work has been initiated, 
how long would they take to construct? Seven? Eight? Even ten 
years?
    And finally, how do new runways at O'Hare compare in terms 
of costs, benefits, and environmental and social impacts to the 
state's plans for the south suburban airport? No one knows 
these answers. That's why the Governor has asked, and the City 
has agreed, to submit a plan for O'Hare by the beginning of 
July.
    We understand that O'Hare is a critical asset not just for 
our region but for the whole nation. We're working on many 
fronts to seek solutions, but the real critical need is to add 
capacity to secure our aviation future.
    [The prepared statement of Ms. Wheeler follows:]

 Prepared Statement of Linda M. Wheeler, Director, Office of Planning 
         and Programming, Illinois Department of Transportation

    Mr. Chairman and Members of the Committee, we appreciate the 
opportunity to submit testimony concerning Air Traffic Congestion and 
Capacity in the Chicago, Illinois Region and its effect on the National 
Air Traffic System. We thank Chairman Hollings and the members of the 
Committee for their willingness to focus on proposals to expand airport 
capacity in and around Chicago.
    There is no question that O'Hare Airport has powered the economy of 
the Chicago area and much of the midwest region. It has created 
hundreds of thousands of jobs and contributed billions of dollars to 
the economy. The city of Chicago has done an outstanding job of 
attracting new international air service, while engineering Midway 
Airport's rebirth as one of the premier, low-fare, new entrant airports 
in the country.
    But, for the last several years, there has been less to boast about 
when it comes to aviation in our region. Strong demand for air travel 
has outstripped the available airport capacity at O'Hare and has forced 
the airlines to maintain schedules that leave no margin for error in 
poor weather. A single rainstorm can throw the entire schedule of 
flights into chaos causing delays and cancellations to ripple across 
the country.
    It has been clear for some time, that there is an aviation capacity 
crisis in the Chicago area. Addressing delays requires addressing 
capacity--the two issues are interrelated. Competition, fares and 
service in the midwest, however, should also be considered in any 
action to solve the delay and capacity problems. Those specific 
concerns will be discussed in the latter part of our testimony.
    Almost twenty years ago, the Federal Aviation Administration (FAA) 
recognized the pressing need for additional airport capacity. In its 
1984 Record of Decision approving the last layout plan for O'Hare 
Airport, the FAA recommended that the Illinois Department of 
Transportation study the ``. . . development of another air carrier 
airport to serve the Chicago Metropolitan Area . . .''
    Between 1984 and 1993, the state of Illinois, in cooperation with 
the states of Indiana and Wisconsin, the city of Chicago and the FAA, 
has conducted five airport studies that have evaluated a total of 
seventeen different sites. The airlines, business leaders and suburban 
communities were active participants in those studies. Over time, the 
studies have narrowed the number of viable sites down from fifteen to 
five to one. The best and most viable site for Chicago's third major 
airport is the proposed South Suburban Airport north of Peotone in 
eastern Will County.
    Once the best site was identified, the state of Illinois proceeded 
with the necessary engineering studies. As a result of the state's 
efforts (listed below), the South Suburban Airport is ready to move 
forward.
    <bullet> In 1994, the state of Illinois initiated Phase I 
Engineering to prepare a master plan, an Environmental Assessment and a 
financial feasibility analysis for the development of the South 
Suburban Airport.
    <bullet> In 1998, the state of Illinois completed the Environmental 
Assessment, which was submitted to FAA for review and approval.
    <bullet> On March 3, 1999, the state of Illinois submitted a 
revised plan for an ``Inaugural Airport'' at the Peotone site to the 
FAA. This submittal included additional data on the initial operations 
for a one-runway airport.
    <bullet> On January 27, 2000, the state of Illinois submitted to 
the FAA a proposal to begin a `tiered' Environmental Impact Statement 
(EIS) for the purpose of beginning land acquisition.
    <bullet> On May 23, 2000, the FAA agreed to begin the preparation 
of a `Tiered' EIS document.
    <bullet> On February 21, 2001, Governor George H. Ryan announced 
the Illinois Department of Transportation would begin land acquisition 
at the Will County airport site.
    <bullet> On March 7, 2001, the Illinois Department of 
Transportation began advertising for consultants to handle land 
acquisition from willing sellers.
    <bullet> On April 4, 2001, the Illinois Department of 
Transportation opened the Matteson project office and began the land 
acquisition process by accepting applications from willing sellers and 
hardship cases.
    The South Suburban Airport will supplement O'Hare and Midway and 
will be capable of growing to meet future demand. The Inaugural stage 
of the airport could be operational in less than five years at a cost 
of under $600 million. The entire 23,000-acre footprint will allow the 
construction of six parallel runways, with all objectionable noise, air 
pollution and water runoff retained on site. Such an airport will meet 
air carrier demand for 20 years, and beyond.
    Expanding the aviation capacity of the Chicago Region is and has 
been a paramount objective of the state of Illinois. The South Suburban 
Airport has been the vehicle for this expansion.
    Providing improved service with competitive air fares will also be 
impacted by the approach taken to increasing capacity in the Chicago 
region. Through a series of studies undertaken by the Illinois 
Department of Transportation since 1996, it became evident that 
increased capacity was, and remains, necessary to:
    <bullet> Ensure reasonable competition: O'Hare is a fortress hub of 
two powerful airlines, American and United who, with affiliates, 
control 88 percent of domestic passenger operations. These two airlines 
have prevented other airlines from establishing a competitive presence 
at O'Hare. Many airlines are unable to expand in the Chicago market.
    <bullet> Restore competitive airfares: The lack of competition has 
caused airfares, post 1995 at O'Hare, to skyrocket. According to US DOT 
data, O'Hare's fares per mile were 21 percent above the average of the 
68 large and medium hub airports in 1995; by 1999, O'Hare's fares were 
34 percent higher. Lack of competition and higher fares affect, not 
only Chicago residents and businesses, but also the economies of other 
midwestern communities that rely on Chicago Area Airports and their 
gateways to national and global economies.
    <bullet> Prevent loss of non-stop service from O'Hare: In 1996, 
Illinois Department of Transportation research predicted that, without 
expanding the region's aviation capacity, at least 44 cities (mostly 
midwestern) would, by 2020, lose service to O'Hare and, through O'Hare, 
to the national aviation system. Those losses would occur in stages. 
First, fares to these markets would increase, reducing demand. This 
would lead to fewer flights and, eventually, to abandonment of service. 
That forecast proved to be accurate. The feared service loss and 
abandonments are on target. To date, the hardest hit communities have 
been mid-size cities in Illinois and Iowa.
    The South Suburban Airport will create competition, by providing a 
new airport for airlines wanting to enter the Chicago market. It will 
also provide airport access to the 2.5 million underserved people who 
live on the south side of Chicago, its south suburbs and northwest 
Indiana.
    For now, however, we need to look at the existing air systems. 
While delays at O'Hare continue to grow, underutilized airports in the 
region may provide opportunities for short-term relief. On March 21, 
2001, the department wrote letters to United and American Airlines, 
urging them to make maximum use of the Greater Rockford Airport to 
relieve congestion at O'Hare.
    In addition, at the urging of the FAA, the city has convened the 
second Chicago Delay Task Force in a decade. The task force has 
initiated its evaluation of the problems at O'Hare and will make 
recommendations in six to nine months. The state of Illinois is an 
active participant and looks forward to working with the city and the 
FAA to examine all methods to reduce delays.
    With all of this new awareness of delays, there is much talk, in 
many circles, about runways. Some critics have said that Governor Ryan 
is standing in the way of O'Hare runway expansion. While he has not 
been a proponent of runways at O'Hare, he has never rejected a plan to 
alter or add runways there because no plan has ever been forwarded by 
the city of Chicago.
    Because the city has not forwarded a plan, the rush to consider new 
runways leaves a myriad of unanswered questions. If runways are added 
to O'Hare, will that solve the delay problems at O'Hare . . . and if 
yes, for how long? What are the costs of this plan . . . not only in 
dollars but also the costs to people in terms of noise and 
displacements? What are the environmental consequences of these 
runways? How would these consequences be remediated? Will they meet 
current federal and state laws and regulations? Since no environmental 
work has been initiated, how long will it take to construct the runways 
. . . is an estimate of 7, 8 or even 10 years unreasonable? And 
finally, how do new runways at O'Hare compare, in terms of costs, 
benefits, and environmental and social impacts to the state's plan for 
the South Suburban Airport?
    No one knows the answers to these questions because an expansion 
plan for O'Hare does not currently exist. For that reason, Governor 
Ryan has asked the city to submit a plan for O'Hare. The city has 
agreed to submit at least a conceptual plan by the beginning of July.
    Within the last few months, in part because of the call to action 
from civic organizations, members of Congress and state and local 
officials, the heated debate about airport capacity has become a more 
rational dialogue. The state of Illinois believes that the South 
Suburban Airport is critical to the development of a long-term solution 
to delay problems in Chicago and throughout the nation.
    Finally, we will work diligently with the Delay Task Force to 
identify solutions for O'Hare, and we will discuss and review any 
proposal brought forward by the city.

    Senator McCain. Thank you very much, Ms. Wheeler.
    Ms. Garvey, there's been no consensus on the best way to 
combat delays at O'Hare in the short term. This is in part 
because the different parties can't agree on how quickly 
Peotone might be built versus expansion at O'Hare. In your 
opinion, which could be built more quickly, a new airport or 
new runways at O'Hare?
    Ms. Garvey. That's a difficult question in a sense to 
answer because just listening actually to Ms. Wheeler's 
comments, I think the questions she posed at the end of her 
testimony are exactly the kinds of questions to ask whether 
you're thinking about a new airport or a new runway.
    We're putting together a great deal of information that 
we'd like to submit to the Committee about which----
    Senator McCain. How soon could we get that?
    Ms. Garvey. We could probably get that to you by next week. 
We've got some of the airports already pulled together. But I 
think, in fact, what you have to really look at are what are 
the environmental considerations? What are the potential plans, 
what's the airport use or the airline use, and so forth.
    So we can give you a sense of what's occurred at different 
parts of the country and that may be helpful.
    [Information referred to follows:]

    Projected Costs in Response to Senate Commerce Committee Hearing

           PROJECTED COST FOR A NEW RUNWAY AT CHICAGO O'HARE

    On July 1 Mayor Daley presented a concept paper (copy attached) on 
proposed future development of Chicago O'Hare. The concept paper is 
currently under review by Governor Ryan and others.
  projected cost for a new airport in peotone (south suburban airport)
    An initial airport development proposal, referred to as the 
``Inaugural Airport'', was described to the FAA by the Illinois 
Department of Transportation,(IDOT) in 1999. The inaugural airport 
would be built on 4,100 acres with a 12,140, x 200, runway, parallel 
taxiway, an approximately 10 to 15 gate terminal, cargo and general 
aviation facilities, access to Interstate 57 and Highway 1, an air 
traffic control tower and airport surveillance radar. A cost estimate 
has not been provided to the FAA. The FAA has begun a tiered 
environmental impact statement (EIS) process on land only. This first 
tier EIS will evaluate the IDOT's proposed landbanking of the South 
Suburban Airport site and IDOT's request for FAA acceptance of the site 
for potential future development. The EIS will include broad brush 
assessment of potential infrastructure impacts sufficient to determine 
the environmental viability of the site for future commercial airport 
development, but not at the necessary level of detail to approve 
infrastructure. Subsequent EISs--i.e., additional tiers--would be 
required for proposed infrastructure development and any FAA approvals 
related to infrastructure. A detailed cost estimate would be included 
in the development of subsequent EISs, if undertaken. We anticipate the 
first tier EIS will be approved by the spring of 2002. The State of 
Illinois will fund the landbanking.

         PROPOSED AIRPORT IMPROVEMENTS FOR GARY/CHICAGO AIRPORT

    The airport currently has two runways (7,000 x 150 and 3,603 x 100) 
and a terminal with one jet boarding bridge and the ability to add an 
additional boarding bridge. A master plan study is underway and will be 
completed in early November. The draft master plan includes the 
following future development:
    <bullet> 1,900, runway extension and two high speed taxiways. 
Estimated cost: $55 million,
    <bullet> expand the terminal to 5 gates. Estimated cost: $13 
million,
    <bullet> de-icing pad. Estimated cost: $3.5. million.
    While the runway extension is justified it is a brown field site 
(environmentally questionable). It will also require relocating a 
railroad, assuming the railroad will go along with the relocation, as 
well as relocating a high-tension power line. The environmental impact 
statement process is just beginning for the runway extension. Current 
activity does not warrant the terminal expansion. Gary/Chicago Airport 
did not have scheduled air carrier service until 1999 when Pan Am 
Airways began serving Gary with two flights a day.

       PROPOSED AIRPORT IMPROVEMENT FOR GREATER ROCKFORD AIRPORT

    The airport currently has two runways (8,199 x 150 and 10,000 x 
150), 1 jet boarding bridge with the potential to add 2 more, and 2 
ground boarding positions. Rehabilitation of the 8,199, runway will 
begin this fiscal year and will be completed in fiscal year 02 at a 
total cost of $8 million. The airport master plan includes a new 8,000, 
parallel runway to meet future demand at an estimated cost of 
approximately $21 million. At this time justification for the proposed 
runway has not been demonstrated. The current airfield configuration is 
adequate to meet current needs. Greater Rockford Airport has had 
sporadic scheduled air carrier service. In 2001, they lost scheduled 
service. Approximately 600,000 people board a bus or drive each year 
from Rockford to Chicago O'Hare. Four cargo carriers serve the airport 
with UPS using Rockford as a cargo hub.

                                                                                       Major New Airports
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Environmental                           Construction    Federal
             Locid                   City, State           Airport         Planning      Decision    Construction   Opening      Cost\1\      Amount    Number of Runways:  Number of    Acres
                                                                            Began         Issued         Began        Date     (Millions)   (Millions)        Length          Gates
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
DFW............................  Dallas-Ft. Worth,   Dallas-Ft. Worth           1964      May 1974      Dec. 1968  Jan. 1974         $700          $60  3: 2 @11,388 x             66     18,076
                                  TX.                 Int'l.                                                                                             200; 1 @ 9,000 x
                                                                                                                                                         200.
RSW............................  Ft. Myers, FL.....  Southwest Florida     1973-1974    Sept. 1977     April 1980   May 1983          $93          $27  1: 10,000 x 150...   12 to 14      3,431
                                                      Regional.
DEN............................  Denver, CO........  Denver Int'l......    1977-1980    Sept. 1989     Sept. 1989  Feb. 1995       $3,000         $508  5: 12,000 x 150...         94     33,422
XNA............................  Fayettville, AR...  Northwest Arkansas         1990     Aug. 1994      Aug. 1995  Nov. 1998         $110          $69  1: 8,800 x 150....          6      2,184
                                                       Regional.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Note: Former military airfield converted to civil use are not included (Alexandria, LA; Austin, TX; Portsmouth, NH; Marquette, MI; Belleville, IL)
DFW: Airport opened during early days of NEPA. Environmental review was actually completed after the airport opened.
RSW: First airport subject to environmental review under NEPA.
DEN: Construction costs were $3B plus $915M in interest, $261 M in planning and land for total cost to Denver of $4.2B.


                                                                          Sample of Schedules and Costs for New Runways
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                               Environmental                           Total Cost    Federal
               Locid                       City, State               Airport         Planning     Decision    Construction   Opening       \1\       Amount      Runway     Major Work Involved
                                                                                       Began       Issued         Began        Date    (Millions)  (Millions)    Length    (other than pavement)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
DFW................................  Dallas-Ft. Worth, TX..  Dallas-Ft. Worth Int'l      1987        1992           1992         1996        $300        $190      8,500  Land Acquisition for
                                                                                                                                                                           noise mitigtion
MEM................................  Memphis, TN...........  Memphis Int'l.........      1984        1993           1993         1997        $121         $74      9,000  Relocation of
                                                                                                                                                                           businesses &
                                                                                                                                                                           residences
PHL................................  Philadelphia, PA......  Philadelphia Int'l....      1990        1994           1996         1999        $220         $88      5,000  Small amount of land
                                                                                                                                                                           fill
PHX................................  Phoenix, AZ...........  Phoenix Sky Harbor          1989        1994           1994         2000        $185         $79      7,800  Land Acquisition
                                                              Int'l.
MIA................................  Miami, FL.............  Miami Int'l \2\.......      1991        1998           2001         2003        $206        $101      8,600  Minor site prep
STL................................  St. Louis, MO.........  Lambert-St. Louis \3\.      1987        1998           2001         2006      $1,100        $141      9,000  Significant relocation
                                                                                                                                                                           of businesses and
                                                                                                                                                                           residences
CLE................................  Cleveland, Ohio.......  Cleveland-Hopkins           1991        2000           2001         2004        $500        $148      9,000  Significant land fill;
                                                              Int'l \4\.                                                                                                   minor relocation
CVG................................  Cincinnati, KY........  Cincinnati/No.              1996         \5\            \5\         2005        $233         TBD      8,000  Moderate relocation of
                                                              Kentucky \5\.                                                                                                houses and churches
SEA................................  Seattle, WA...........  Seattle-Tacoma Int'l        1989        1997            \6\         2006        $773        $216      8,500  Significant land fill;
                                                              \6\.                                                                                                         minor relocation
ATL................................  Atlanta, GA...........  Atlanta Hartsfield \7\      1987    1994 \7\           2001         2005      $1,100        $175      9,000  Significant
                                                                                                                                                                           relocation; minor
                                                                                                                                                                           site prep
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
DFW: Construction Cost includes approximately $125 million for land acquisition/mitigation. Cost does not include NAVAIDs or changes to DFW airspace as part of the Metroplex Plan Upgrade to
  accommodate 2 new runways.
\1\ Not adjusted for inflation.
\2\ Runway is currently under construction.
\3\ STL: Construction to begin on temporary road system in July 01.
\4\ CLE: 7,000 of runway will open in 2002 with full 9,000 runway opening in 2004.
\5\ CVG: Land acquisition to begin in 2002, assuming favorable environmental findings. Estimate ROD will be issued October 2001. Construction to begin in 2002.
\6\ SEA: Rwy construction suspended due to endangered species isue that has held up 401/404 permits. Initial site preparation underway.
\7\ ATL: Land acquisition and site preparation underway for 6,000 runway (FONSI issued 1994). Draft EIS for 9,000 runway issued December 2000.


    Senator McCain. Ms. Wheeler states in her testimony that a 
new airport in Peotone can be up and running in less than 5 
years. Do you agree that a new airport can be planned and built 
and operational in 5 years?
    Ms. Garvey. That would be a record, if that were the case. 
And I think a lot will depend on what we see at the end of the 
first tier. But certainly, we're willing to work with the 
Department on those issues.
    Senator McCain. Thank you. Mr. Walker, a case has been made 
that O'Hare is falling behind other major cities that are 
building new runways. For years, the City has denied that 
O'Hare needed expansion. Why hasn't the City proposed new 
runways until now?
    Mr. Walker. Senator, as I stated in my testimony, the Delay 
Task Force in 1991 recommended reconfiguration and the 
addition----
    Senator McCain. The task force did but the City didn't.
    Mr. Walker. It did, in fact. The City was aware of the 
position of the former Governor and the present Governor on 
additional runways at O'Hare. It would have been 
counterproductive for us to expend time and effort in preparing 
something that the Governor was on record as being opposed to.
    Senator McCain. Would it have been counterproductive to 
propose an expansion of runways at O'Hare because the Governor 
was opposed? I don't know many mayors that are reluctant to 
propose things that they believe are necessary because the 
Governor might object. Perhaps this mayor is much more shy and 
retiring than I had anticipated. I don't quite understand that.
    Mr. Walker. Not quite. And of course, I was not Aviation 
Commissioner at the time, but that, in fact, has been the case. 
The three Governors had made it very clear their position on 
expansion at O'Hare and therefore no proposal has ever been put 
together actually proposing new runways.
    Senator McCain. Has the City made any calculations as to 
how much it would cost to expand capacity at O'Hare? That's 
going to be a very major aspect of this issue.
    Mr. Walker. That's part of our ongoing analysis and by July 
1 we expect to have some estimates based on the concepts that 
we plan to present to Governor Ryan.
    Senator McCain. How soon can we expect cost estimates of 
one new runway and then again two new runways at O'Hare? I 
think that's going to be a critical factor in the 
decisionmaking.
    Mr. Walker. I expect that we will have some rough estimates 
along with the concepts that we provide to the Governor on July 
1.
    Senator McCain. By the first of July. Thank you, thank you 
very much.
    Ms. Wheeler, there are currently several airports in the 
area that are underutilized and have excess capacity. It's been 
argued that Gary, Indiana; Rockford Airport; Milwaukee's 
General Mitchell Airport can handle the excess capacity. Has 
the state looked at how to utilize this excess capacity instead 
of building a new airport?
    Ms. Wheeler. When we talk about existing airports and their 
excess capacity, it's not on the same level as the type of 
capacity needs we're going to have into the future, into the 
21st Century. It's true that we believe it's important that the 
airlines look to use what's out there today and see if that 
can't be part of the solution.
    But when we look toward the region's aviation capacity 
needs into the future, 20 years out, during the study period 
that we had done with forecasting all during the 1990's, it 
showed a need of 30 million enplanements that was unmet by the 
region's existing airports even allowing for them to grow 
substantially during that time.
    So, while we welcome the existing airports' part of the 
solution, they can't solve our future needs.
    Senator McCain. Why is it the state convinced that the 
expansion of O'Hare is not the answer or part of the solution?
    Ms. Wheeler. Even when we did our existing studies that 
forecast into the future, even when you--we have seen no actual 
numbers that show us what runways might produce and at what 
cost additional runways at O'Hare but----
    Senator McCain. But common sense tells us that new runways 
do increase capacity.
    Ms. Wheeler. Right. Nonetheless, it still doesn't reach to 
the type of dimensions of what we're saying. We need to be able 
to serve this region into the future. O'Hare is already a 40-
year-old airport. It's on less than 8,000 acres. It has 
substantial noise difficulties. When we did our studies, we 
even considered that O'Hare would have significant passenger 
expansion, enplanement expansion.
    But it doesn't come to the equivalency of 30 million 
additional passengers. We're looking at adding a new airport 
with the capacity to grow for the aviation's future demand up 
to six runways, 30 million enplanements.
    Senator McCain. When you say consensus that there's no one 
solution to this problem, part of the solution could be the 
expansion of O'Hare. Part of the solution could be a new 
runway. Part of the solution could be additional utilization of 
existing airports in the area.
    I don't quite get the logic of just excluding a new runway 
at O'Hare unless there are compelling factors, such as cost 
which may dictate otherwise. And I hope--my time is expired and 
I hope you will enter that into your calculations. And we would 
also appreciate not only the cost that you stated of 600 
million dollars for one runway and 12 gates. But the cost and 
time involved to have a fully operational mature airport as 
well. That cost estimate, I think, is an important one as well.
    And my time is expired.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. Ms. Garvey, 
this whole thing reminds me very much a number of years ago of 
when Dulles Airport, National Airport and Baltimore-Washington 
were all at war with each other. And there was a lot of 
politics and geography and constituency in the state, state 
stuff involved.
    And the theory at the time was oh, you could do one, you 
could do the other. But you surely can't, you can't be nice to 
everybody. And of course, as it worked out, we did all of them, 
in that case creating a regional airport, authority which could 
issue AAA rated bonds. And all are booming. And, you know, the 
capacity is just overwhelming.
    Now, you look at O'Hare. I start with the premise that you 
have to do O'Hare. I don't, nevertheless, end with that premise 
because if O'Hare is reconfigured, let's say Plan A of the Plan 
A, Plan B; either way, with parallels sets of runways, 
reconfigure. It's expensive but it has to, I believe it has to 
be done because it's a huge part of capacity.
    On the other hand, if you look at technology and delays and 
what that extended or reconfiguration of runways, it doesn't 
mean there are a great many more numbers of runways. It just 
means they're laid out in a way which is more convenient for 
delays and take offs and landings.
    Nevertheless, the increase in capacity at O'Hare doesn't 
grow that much. In other words, you're talking maybe 12, 16, 
whatever it is percent. I'm looking at the next 10 years, 15 
years, that's what you do all the time, doubling the air 
traffic, air people flying. UPS, FedEx. FedEx is what now? The 
third largest airline in the world, so to speak.
    So, I mean, all of these things are going to be required. 
And doesn't it therefore follow almost mathematically that, 
yes, you got to do O'Hare. You got to do that. But it is not 
going to be sufficient to handle all the capacity needed for 
the next 10, 15, 25 years.
    Ms. Garvey. I would agree, Senator. Again, I think there's 
still a lot of unanswered questions. But I would agree with 
both your comments and Senator McCain's.
    Senator Rockefeller. But you do agree it would not be 
sufficient. It has to happen.
    Ms. Garvey. It is not going to be sufficient.
    Senator Rockefeller. It has to happen, right?
    Ms. Garvey. That's exactly right.
    Senator Rockefeller. But it wouldn't be sufficient.
    Ms. Garvey. That's exactly right.
    Senator Rockefeller. Therefore the question is, what would 
be the other place or other places to go?
    Ms. Garvey. Exactly. The question becomes how then do you 
provide the additional capacity.
    Senator Rockefeller. Yeah.
    Ms. Garvey. Whether it's a combination of a number of the 
options that have been mentioned earlier, and timing I think is 
important as well.
    Senator Rockefeller. And speaking of timing, I want to make 
it clear that Chairman McCain and myself, Senator Hutchinson 
and others are on this sort of--everybody says it takes 15 
years, 13 years to build. Well, we hope that by the end of the 
summer it's not going to because we're going to pass a bill 
which will encapsulate the whole study and environmental 
process into a 5-year period. So that everything will go from, 
say, the 13 years and 15 years in Seattle to 5 years 
everywhere.
    That will be the federal law so that things will be able to 
happen more quickly. Mr. Walker, and I'm not just saying that 
to you. I'm saying that generally for the record.
    Mr. Walker, wouldn't you also agree with what I just 
stated? I mean, I agree with you that O'Hare has to be done. 
That's where you've got to--it's here. It's got to be 
reconfigured. Sure, there's going to be some inconvenience. 
But, you know, airports are pretty skillful at taking care of 
construction and still handling.
    But for the longer term, O'Hare isn't going to be able to 
handle the traffic. I mean, you had five million people coming 
in and out of here in 1960. You've got 72 million today. It's 
going to be 150 million in 15 years.
    Mr. Walker. And we certainly have the capability to serve 
that need far into the future. And the question----
    Senator Rockefeller. Well, tell me, why do you say that you 
have that. I suggested that your capacity for landing and all 
may only increase 12, 16, 18 percent, which is a big increase 
but not nearly according to the needs of the future.
    Mr. Walker. Certainly, with only reconfiguration that would 
be true. But if we were to add additional runways and if they 
were to be configured properly, the increase in capacity could 
be far larger than what you estimated. It certainly won't 
fulfill all the needs into the infinite future. And we will 
eventually need additional----
    Senator Rockefeller. So you don't preclude the need for 
another option. You just say we've got to do O'Hare but you 
don't preclude the need for another.
    Mr. Walker. No. Except that we emphasize that we ought to 
be investing where we already have infrastructure. And as I 
stated earlier, we probably have 400,000 excess operational 
capacity in the region right now at these airports that 
testified earlier today.
    And so the need for a specific airport, for instance, a 
brand new airport, is dubious in the near to mid- or the long-
term future.
    Senator Rockefeller. My time is up and Ms. Wheeler, I'll 
have a question for you at the second round. Thank you, Mr. 
Chairman.
    Senator McCain. Thank you.
    Senator Fitzgerald.
    Senator Fitzgerald. Well, thank you, Mr. Chairman. And Mr. 
Walker, I noted from the newspaper article that the City had 
signed a contract with Southwest Airways pertaining to 
Southwest's agreement to share part of the cost in building new 
terminals at Midway. And I have a copy of that contract and it 
appears to say that if a third airport is built within 50 miles 
of Midway, then Southwest will be able to get out of its 
contract to pay for the cost of that terminal at Midway. Is 
that correct? Is that your understanding?
    Mr. Walker. I'm aware of that agreement, yes.
    Senator Fitzgerald. Does that agreement mean that the City, 
in fact, the agreement goes on to seem to require the City to 
oppose a third airport until the year 2012. My question would 
be, will the City, because of that agreement with Southwest, 
have to oppose a third airport, other than at Gary, Illinois, 
no matter what is given the City at O'Hare?
    Mr. Walker. I would have to confer with our corporation 
counsel to get their interpretation of that agreement.
    Senator Fitzgerald. I have spoken to Southwest and that's 
their interpretation and they are threatening to move if you 
ever do anything that would advance the ball even a little bit 
to a third airport.
    And for Ms. Garvey, I wondered as Ms. Wheeler stated that 
back in 1984 when FAA approved the city of Chicago's last 
airport, the NASAR Plan was it? That they told the City or the 
region that they had to start planning a third airport. And in 
1988, August 1988, this study came out, the Chicago Airport 
Capacity Study, and the FAA and the city of Chicago 
participated in it.
    The conclusion was that it wasn't feasible to expand either 
Midway or O'Hare. And the reason for that was because they're 
both in dense urban areas. As you see O'Hare Airport, which is 
filled up with seven runways, it's bounded by interstate 
expressways on two sides and major roadways on the other sides 
and railroad beds. And the FAA, for that reason, engaged in a 
study of where a third airport should be and they concluded 
that it should be in the southwest, south suburb.
    A couple of years later, when President Clinton took 
office, Mayor Daley requested that the third airport be removed 
from the NPIAS list. Why did the FAA remove the third airport 
from the NPIAS list after they had just done a study saying we 
need--that study says we need a third airport by the year 2000. 
And here we are in 2001.
    Ms. Garvey. Senator, at that point there was, I think, 
great disagreement between the FAA and Illinois, at least in 
1997, over the forecast and size and scope of the project. I'm 
pleased to say that's behind us and, as I mentioned, we're 
working on the tiered approach environmentally. And that work 
is underway. So, we are on the right course and the right track 
now.
    Senator Fitzgerald. Do you think any politics came into 
play in that decision?
    Ms. Garvey. You know, in Chicago it's always interesting in 
politics, I think.
    Senator Fitzgerald. Mr. Walker, what percentage of the 
flights at O'Hare are for corporate jets and for charters right 
now? Do you know?
    Mr. Walker. I don't have that number. It's relatively small 
at O'Hare.
    Senator Fitzgerald. Do you think when all the passenger 
large planes at 300 plus people are confronted with delays, do 
you think it makes sense to continue to allow corporate jets 
and charter flights to operate out of the City? Couldn't that 
kind of capacity be put out to Rockford Airport, even Gary or 
DuPage or some of the many other facilities?
    Mr. Walker. Well, the operators of those aircraft are 
pretty sophisticated in their understanding of the facilities 
in the region. And they generally are able to make pretty good 
decisions about the likelihood of them getting in and out of 
O'Hare within the timeframe that's convenient to them based on 
the destination of their passengers.
    So, I think they're able to make pretty good decisions on 
their own without getting dictated to about where to go. And 
they have decided, in some cases, to move their operations to 
Midway or other regional airports.
    Senator Fitzgerald. And am I----
    Senator McCain. Yeah, we'll have a second round.
    Senator Fitzgerald. OK, we'll have a second round. Thank 
you very much.
    Senator McCain. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman. On this 
Southwest lease, it is interesting because it says according to 
the lease signed between the city of Chicago and Southwest 
Airlines, if a new airport opens they have a right to terminate 
the lease early. A new airport within 50 miles of the Midway 
Airport. They can terminate their lease at Midway 4 years early 
at their own option effective December 31, 2008.
    If the city of Chicago enters into a contract with any new 
airport restricting operations at Midway, then they can 
terminate it within 60 days, as I read this. Which raises some 
interesting questions, which Senator Fitzgerald has posed about 
the impact of any new airport on Southwest lease with Midway. 
But I do think we have to take into consideration that even a 
construction of an airport at Peotone would raise question as 
to whether or not Southwest could leave its lease at Midway. As 
I read it they have an option to leave early if that happens. 
And I think they even discussed this with the Department of 
Transportation, one of their concerns.
    So, it is not as simple as it first appears. But I want to 
get down to some basic questions. Ms. Garvey, I read an article 
in Times and Newsweek a few months ago about airport 
congestion. And there was one unnamed official from the FAA who 
was quoted, who said, ``If I had one wish, if there was one 
thing I could do to improve airport, airline efficiency and 
reduce delay and congestion in America it would be to do 
something about O'Hare''.
    I was kind of stunned by that because it was a long article 
about a lot of different things, air traffic control and the 
like. Is that your conclusion as well that O'Hare is really the 
major, one of the, at least one of the major problems facing us 
in terms of national airline congestion?
    Ms. Garvey. Well, I think certainly, Senator, it's one of 
the major ones. If you look at the benchmarks, for example, 
we've identified eight airports that we consider to be the 
pacing airports. Those are the airports where when you have a 
problem it really affects the system.
    Certainly O'Hare is one of them. LaGuardia is another one 
where it really has an affect on the whole system. And actually 
if you look at the worst part of the country in terms of 
congestion, where we really feel the congestion, it is the 
triangle from Chicago to my home town of Boston down to 
Washington and then back up to Chicago.
    So, much of our effort in the last year has been to release 
some of the choke points in the area. But clearly Chicago is 
one of those critical airports.
    Senator Durbin. You can help us. I think the Chairman has 
asked for that help in trying to come up with some honest 
estimates as to cost and time lines to do things, to build 
runways and airports. Some of the estimates that we're dealing 
with at this hearing are so wildly different. There's just a 
lack of credibility.
    Some people think that if you're going to estimate the cost 
of a runway at O'Hare, you add in all of the attendant cost to 
moving highways, traffic congestion and terminals and put it 
all together and say, well, every runway is going to cost us 10 
to 12 billion dollars, way beyond any of the numbers that we've 
seen for runway construction itself.
    And yet when they estimate the opening of an airport such 
as Peotone, they estimate it can open in 5 years and there's no 
mention about the infrastructure supportive of such an airport. 
So I hope that the FAA can help us in trying to put some honest 
figures on the table for the course of this hearing.
    Ms. Garvey. Well, we'll certainly do that, Senator. And 
we'll be very mindful as we're breaking it down to state just 
what those costs include. And we'll give you some good 
examples, I think, of what it's been in other places.
    Senator Durbin. Ms. Wheeler, let me try to get the bottom 
line on the state's position here. I think what we've heard 
from Ms. Garvey and Mr. Walker is at least the belief that 
O'Hare should be first priority and other things might be 
considered, depending on your timeframe, how you look at 
things.
    Does the state of Illinois and the Governor, at this point, 
take the position that you can't modernize O'Hare or add or 
expand service to existing airports like Rockford or Gary, 
except at the expense of Peotone?
    Ms. Wheeler. No, absolutely not. We're participating in the 
Delay Task Force. And we're pleased that the City and FAA have 
convened it. We have called upon the airlines to look at the 
underutilized capacity at existing airports. As I said earlier, 
while we've never been supporters of the runways at O'Hare, we 
have asked the City to get us information on that because we 
have never seen information.
    There's been a lot of concern about what sort of impact any 
sort of runways at O'Hare might have on those communities that 
you saw on the map that are so close to the airport. And we're 
very anxious to see answers to those sorts of questions.
    Senator Durbin. Well, Ms. Wheeler, if you could clarify 
that. And I want to make sure it's clear on the record. I think 
you just said that we have never supported new runways at 
O'Hare but we've never seen a proposal.
    Ms. Wheeler. That's true.
    Senator Durbin. So you start with the assumption that 
you're opposed to new runways at O'Hare before you see the 
proposal?
    Ms. Wheeler. There's been great concern because of the 
impact on those who live so close to O'Hare--the noise impact. 
The City has indicated they've spent, what? $400 million in 
trying to soundproof homes in the vicinity of the airport.
    Senator Durbin. Has this been successful in reducing noise 
problems?
    Ms. Wheeler. I think there's still a number of homes and 
schools and facilities out there that are talking to the 
Commissioner about seeking additional help.
    Senator Durbin. Mr. Walker.
    Mr. Walker. And there's an ongoing commitment on the part 
of the City and the airlines to fund further noise mitigation. 
We have an ongoing program. In addition, the improvements that 
have been made in aircraft technology, the quieter airplanes, 
will reduce the noise footprint in the area around the airport 
and take out of the 70 decibel level of contour, something like 
22,000 homes.
    So, we're making progress in terms of reducing the impact 
to the communities around the airport.
    Senator Durbin. Thank you very much. Mr. Chairman.
    Senator McCain. Thank you. I want to say to all the 
witnesses, we need cost and time estimates. Not the Congress, 
but the people of Illinois and the taxpayers of America deserve 
better than what they've been getting. And I'm a bit surprised 
and a little unhappy that we don't have better estimates.
    This is not a new issue. And we need to have much better 
estimates of the cost and time involved with these options. 
Otherwise, rational decisions cannot be made. And Ms. Garvey, 
in your estimates, I think you also ought to include the 
projected time and cost associated with an expansion of Gary or 
Rockford or other airports, which are other options which are 
being discussed today.
    I just have one additional question. I know my colleagues 
have a number of additional questions. Ms. Garvey, in her 
written statement Ms. Wheeler points out that O'Hare is a 
fortress hub of two powerful airlines, American and United. 
Then she goes on to say according to the U.S. Department of 
Transportation data, O'Hare's fares per mile is 21 percent 
above the average of the 68 large and--airports in 1995. By 
1999, O'Hare's fares were 34 percent higher.
    We all know, it's been established with Congressional 
hearings, we have one of two airlines dominate. The GAO has 
done several studies to show where they dominate and airfares 
are dramatically higher. It's one of the fundamental laws of 
economics.
    So, let's go through a scenario here. Peotone is built. 
None of the major airlines, these two major airlines will go 
there. What does that mean? Does that mean that we've got a 
white elephant or is it in your view that airlines like Virgin 
and others would locate there and provide their service? What's 
your view of that?
    Ms. Garvey. You know, it's interesting because we were 
talking about this yesterday. In fact, we were talking about 
the Dulles situation. I remember those early discussions about 
Dulles and it was really a case of people saying, ``Oh, if you 
build it they're not going to come.'' But, in fact, it turned 
out----
    Senator Durbin. They did come.
    Ms. Garvey [continuing]. They did come. And I don't know 
the answer to that here, quite frankly. It does feel like a 
chicken and egg situation. But it certainly seems to me that as 
it's worth looking at some of the market. I'm not an airline 
analyst, and I don't know all the answers to that, but it would 
certainly seem to me it would be worth sitting down, talking 
with the airlines and saying, let's take a look at this market. 
And as Ms. Wheeler has suggested, asking is there underused 
capacity? Is there a way to use it? And is there really a 
market for Peotone?
    My guess is they're looking at those decisions. They've 
done some analysis of that as well. It would be interesting to 
get some help from the bond market to see what, from their 
perspective, the market would say. When you have to fund these 
projects, the bond markets pay very close attention to what the 
market will bear.
    Senator McCain. Do you have a feel on that, Ms. Wheeler?
    Ms. Wheeler. Yes. First of all, the state of Illinois has 
pledged that we won't begin construction on this airport until 
we have airline tenants who are interested in using it. We 
haven't really been in a position to forcefully seek airline 
tenants because of the problems with not having the record of 
decision.
    And now that that's proceeding forward and the land is now 
being acquired, we feel that we'll be in a better position in 
another year to 2 years to be talking turkey, if you will, with 
airlines.
    Senator McCain. Now, if history is true, there will be 
airlines who will want to be there. Denver went through this 
whole situation and it was viewed that nobody would locate 40 
miles out. And now they're operating at near capacity. Do you 
believe the projections for the air passenger travel that 
somebody's going to be there to fill the vacuum. So, I wouldn't 
be too concerned about it but I think that it's an issue.
    Finally, Mr. Walker, I appreciate the outstanding job you 
do for the city of Chicago and your public service. But quite 
often actions speak louder than words. And I'm sure you're not 
responsible for it. But the deal made with Southwest is an 
action that indicates that the city of Chicago is not only not 
interested in the additional airport but it's taken actions 
which would penalize the city of Chicago if a new airport were 
built within 50 miles of the city of Chicago.
    And I don't think that was a proper action on the part of 
the city of Chicago. And I really don't think the citizens of 
the state were well-served by that kind of agreement because 
you're going to have great difficulty if Peotone is or another 
airport is deemed necessary, which many of us think there's a 
certain inevitability about that scenario. And I'll be glad to 
hear your response to that.
    Mr. Walker. Well, as you said, Senator, I was not involved 
in that. We have to deal with the situation as it is now. And 
the requirements are what they are. And it is certainly true 
that it presents a difficulty should a third airport move 
forward.
    Senator McCain. I thank you, sir. Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. Mr. Walker, 
let me just ask you a technical question. With gates, it 
becomes very important, it seems to me, as that evolves. What 
percentage of the gates will be controlled by airlines and what 
percentage will be controlled by the airport?
    Mr. Walker. Approximately two thirds of the new gates will 
be controlled, what we call a preferential allocation to 
airlines. And a third to the airport itself so that we can make 
those available to any airlines. So we'll have approximately 
eight gates that the City will control and can make those 
available to new entrants or other expansion of existing 
carriers.
    Senator Rockefeller. The reason I say that is because every 
state in America has rural parts. And, you know, United is now 
on junk bond basis. The settlements that are being made are 
going to virtually price airlines, potentially price airlines 
out of business. So we're almost, we're not exactly facing a 
casual situation here.
    So, that means that competition really does have to work. 
If there's a delay in Chicago, as indeed I was delayed about an 
hour getting in last night which was fine. I was happy to land 
and happy to go to a local hotel and get a good sleep, or at 
least a sleep. But on the other hand, at some point, you have 
to move, right? You have to--Jane Garvey mentioned the chicken 
and egg thing.
    I'm not sure there's a chicken and egg thing involved here. 
Again, it's the numbers. Now, Jane, you said you don't 
administrate--you don't have the final numbers. But I don't 
think you would disagree with what I stipulated earlier and 
that is that, as I believe, that you should, we should do 
O'Hare. I mean, I start with that assumption because why would 
you not? That's a question I would have for you, Ms. Wheeler, 
so you be thinking about that. Why would you not do that?
    Now, if you look at the paddage, 5 million to 72 million, 
60 to 2000. And then you go 20 years out, 25 years out. I mean, 
it's almost impossible to conceive of a situation wherein there 
does not have to be other options. So, the so-called chicken 
and egg thing--I remember Dulles. I mean, I remember being in 
Washington in the 1960's and Dulles was all out there by itself 
and nobody was going. And actually I was at that point pushing 
for a regional airport in West Virginia. I'm now holding back 
on our current situation, as you know, because I've got to 
worry about, you know, just getting in and out of this service 
that we have today.
    But, I mean, people were just wrong about Dulles. They were 
flat out wrong. And it's now expanding and it has to keep 
expanding and then it has to keep on expanding. And that's 
because people want to travel. And, you know, we may have a 
couple of down years in our recession and people will travel 
less. But Americans are going to travel, they're going to 
travel more than anybody in the history of civilization. 
They're going to keep on.
    So, don't you agree that there has to be, along with the 
growth and the reconfiguration of O'Hare, another option and, 
like Chairman McCain, to me it's a question of where that best 
one is, where it's the most convenient. You know, all that kind 
of thing. Don't you agree with that?
    Mr. Walker. Senator, there are a couple of concerns that we 
have about the premise that you laid out. One is that we're in 
an era of deregulation at this point where airlines choose to 
go where they believe that there's a market for their services.
    And in the case of building a new airport, frequently in 
the past, the existing airport or the old airport has been 
closed or restrictions have been placed on the operation of 
existing airports in order to try and force traffic to that new 
airport. We would be concerned about those kinds of constraints 
on activity at our existing airports.
    Senator Rockefeller. Let me probe that. Why, if there are 
so many people out there in the future who want to travel and 
have to stop in Illinois and Chicago in order to get where 
they're next going to go, why are there the constraints about 
where the airplanes are going to have to--I mean, they're not 
going to have any choice but to go to, you know, whatever's 
available.
    Mr. Walker. We don't believe there should be any but I'm 
saying that some of the cases that you've cited, the existing 
airport closed down when the new facility was opened up. And we 
would be concerned that there be any attempt to limit the 
operations at our existing airports in order to force traffic 
to a new airport.
    Senator Rockefeller. Would you believe me if I told you 
that Teeterborough Airport has more landings and takeoffs than 
LaGuardia Airport?
    Mr. Walker. I would believe you. We've got a new airline, 
Indigo, at Midway that is providing service.
    Senator Rockefeller. OK. But see, that makes my point. I 
mean, there's so much traffic that Teeterborough, which many 
people in the country never heard of, has a lot more traffic 
than LaGuardia, so at least substantially more than LaGuardia.
    Ms. Wheeler, along with Senator McCain's question, why is 
it not in the interest of the Governor to make sure that 
Illinois can service all of the people who are going to be 
coming into this great state where I and Sonny got married, so 
I care about it, and want to have a solution that accommodates 
all of those people? So why would there be an instinct not to 
do O'Hare as well as look at other things, other possibilities 
when you know that the capacity demand is going to be there for 
O'Hare plus another option? And maybe in the future another two 
options.
    Ms. Wheeler. I think, Senator, that the key question here 
is that with respect to additional aviation capacity at a new 
airport, we've done 17 years of studies. We've done extensive 
environmental and other studies to get to the point where we 
are today with a record of decision likely to come in less than 
a year.
    With respect to what may be the impacts, the benefits, et 
cetera, associated with the runway at O'Hare, there has been 
none of that work done. There has been no plan offered. The 
Governor has been very, very concerned about the impacts, even 
today, of O'Hare on the communities around it. The communities 
have been very vocal in their concerns about the impacts of 
O'Hare on their day to day life.
    We need to see information. And we've asked for that 
information and the City has pledged to get us that information 
by the beginning of July.
    Senator Rockefeller. With the indulgence of the Chairman, I 
just have to say that the Chairman has asked for information 
and we're going to get information hopefully next week, but I 
don't need information. If I'm looking at 5 million in 1960 and 
72 million in 2000. What, I mean, common sense tells you that 
people want to travel. They're going to have the money to 
travel. Americans travel. We're wanderers, all right? And 
you're the beneficiary of that. Why would you deny yourself any 
single part of that benefit?
    Ms. Wheeler. I think that's why we've been working for 17 
years to try to get that additional capacity in the region.
    Senator Rockefeller. OK.
    Senator McCain. Senator Fitzgerald.
    Senator Fitzgerald. Well, I'm just struck after listening 
to all the different witnesses on this panel and the one 
before. It is pretty obvious what, in part, what is going on 
here is there are political battles to retain control of 
aviation capacity within political jurisdictions.
    Obviously, the business community and the city of Chicago, 
the political leaders, the Mayor of the city of Chicago would 
like to keep all the traffic in the City. Rockford community 
leaders are here. They'd like traffic up in Rockford. South 
suburban leaders are here. They want economic development in 
the south suburbs.
    What has been happening up till now is that raw political 
clout has been determining where all the traffic and capacity 
is going to be. But sometimes that system has been at the 
expense of the traveling public and at the expense of creating 
new aviation capacity that can be rationally used.
    And I wonder if Ms. Garvey, doesn't this case study in 
Chicago here kind of suggest that in an area like Chicago, 
wouldn't we all be better off if we weren't fighting amongst 
ourselves like a bunch of different Balkanized regions. Or 
instead all fully together and trying to create a regional 
board of some sort that would make sure that we didn't have the 
waste we're seeing with two wonderful runways up in Rockford. 
One 10,000 feet, the other 8,500 feet the only time used 
because United and American are running free shuttle buses from 
the Rockford Airport down to Chicago's O'Hare Airport.
    Don't you think there's a case to be made for some kind of 
regional oversight in a situation like this?
    Ms. Garvey. Well, I think certainly, Senator, any time you 
have an issue like this and you look at it regionally, it's an 
advantage, absolutely. And they're doing that in other places.
    Senator Fitzgerald. What other places have done that?
    Ms. Garvey. I think as Los Angeles, for example, is looking 
at their expansion of their airport, they're also looking at 
how it can fit with all of the regional airports. It's a little 
bit easier there. They do control all of them. But in the New 
England region, a number of the Governors in the New England 
area have gotten together to look at aviation from a regional 
perspective. So, I think you make a good point looking at 
things regionally is always----
    Senator Fitzgerald. Isn't there some way that Congress 
could be helpful here by getting one regional body together. 
And finally, just for Mr. Walker, I don't know why but somehow 
the Committee gave me a copy of your testimony. I guess it was 
a draft of your testimony. And it had some additions and 
deletions.
    And I noticed that one of the deletions or an editor's 
notes on this draft that was sent to my office said that we 
needed to rework this ending here because it makes the argument 
why Chicago should be asking for runways, not why Congress 
should. And I do have a question here. Why has Chicago never 
put forward a request for runways and why are they having 
Congress make the request for runways?
    Mr. Walker. We certainly are not urging Congress to do 
that.
    Senator Fitzgerald. Do you support Congress getting 
involved here? Does the city of Chicago want Congress to get 
involved here?
    Mr. Walker. We wish it were not necessary and we hope that 
it won't be. We hope that we can get resolution within the 
region----
    Senator Fitzgerald. So you oppose Congress getting 
involved.
    Mr. Walker. We don't oppose. We hope that we can avoid it 
by coming to a recommendation on how to move forward and taking 
action so that Congress doesn't have to act.
    Senator Fitzgerald. Do you want Congress to make proposals 
in other areas or just as to expanding O'Hare? Do you want them 
to look at other issues as well in Chicago aviation? Like Meigs 
Field, for example.
    Mr. Walker. We certainly have no desire to reopen the 
discussion about Meigs Field. That's an issue that we thought 
was settled.
    Senator Fitzgerald. All right. You're very good. Thank you 
very much.
    Senator McCain. Senator Durbin, you have additional----
    Senator Durbin. Thank you very much. Let me just say on the 
suggestion by Senator Fitzgerald on the regional approach. I 
think there's value to it and I want salute Representative 
Hamos because I think that's what her study came up with was 
trying to integrate all of the airport resources that we have 
into something that makes sense.
    But of course, we can't do that just at the governmental 
level. You need players. And the players are the airlines. And 
they have to be enticed to come to these airports and to use 
them for a variety of different purposes. And as a person who 
hails from downstate and spends a good part of my time with our 
six airports, we spend most of that time trying to lure 
airlines to our airports.
    We have great airports and they just sit there because we 
need to get more people to use them. And we work on that and we 
should continue to. But I don't think the idea of regionalism 
is a bad one. I think it's a very good one. I want to salute 
Representative Hamos for her leadership with George Scully on 
that issue.
    I'd like to ask you this, Ms. Wheeler, one of the things 
that we talked around and should get right to the point on is 
who pays for these things? When we're talking about airports 
and runways, who pays for them? I'll tell you what is my 
understanding and please tell me what is yours and I invite the 
panel.
    It's my understanding that whether we're talking about 
runways or airports the three major sources are passenger 
facility charges, which means that O'Hare, the money that's 
being collected from every passenger going through there is 
building into a fund that can be used for that airport and its 
expansion.
    Second, the airlines. When it came to Denver, as Senator 
McCain has said, initially the only airline interested in 
Denver was bankrupt, Continental. And eventually United said, 
``well, we'll come out there too'', when the choice was clear 
that Stapleton was not going to be open any longer. And United 
went and now has a big presence there. But they made a big 
investment.
    Let me say parenthetically, that's one of the reasons for 
the Southwest lease. They're making a huge investment in 
Midway. They are very conscious of the fact that another 
airport might be built nearby that can either compete with 
their massive investment at Midway or might be an option for 
them to move to. So why would they include the issue of another 
airport in their lease on Midway? For obvious commercial 
reasons. This is their bottom line.
    And the third source beyond PMC's and airlines, would be 
the AIP funds, the Airport Improvement Program funds coming out 
of Washington.
    Now, as you look at this--am I missing any element here, 
there might be some others, but out of those three major 
elements how will Peotone be built? If there's no airline that 
wants to come forward now and put the money up for Peotone, if 
they don't have passenger facility charges in Peotone and I'm 
sure they don't, do you believe that the state is going to fund 
the construction of Peotone or that the Federal Government will 
pay for it?
    Ms. Wheeler. We have worked through a number of financial 
models, worked with the financial industry on this. And there 
are two ways that we've considered. One is the conventional way 
that would be a combination of funds. Once you know you have 
airline tenants, you're able to use the----
    Senator Durbin. It takes an airline.
    Ms. Wheeler [continuing]. General aviation revenue bonds or 
the GARB Bonds, and some federal funding to go with that, a 
letter of intent over 10 years.
    Senator Durbin. A pretty substantial federal investment?
    Ms. Wheeler. We were talking about a 600 million dollar 
airport. We had done financial planning that said in the area 
of 150 to 200 million dollars in federal funds spread out over 
a 10-year period. And you could make that financially work.
    We also said that another thing we might consider, and we 
have had private sector firms come to us and ask us about this, 
is taking on a private partner who would put equity in this and 
do design, build, operate. That model hasn't really been done 
in this country but it has been done in other places in the 
world. And as I say, there've been a few large firms that have 
come to us and talked about this idea with us.
    Senator Durbin. Let me ask my last question of Ms. Wheeler. 
The Mayor has said that by July 1st he is going to present some 
general concept. I don't know how far that will go. We'll wait 
and see. I think it is clear from this hearing that there is a 
feeling of impatience and frustration on a national level about 
the Chicagoland airline aviation situation.
    What kind of assurance can you give me, in terms of 
response from the Governor and the Illinois Department of 
Transportation to the Mayor's proposal? How quickly will you 
respond and be willing to sit down and see if we can say to 
people in the Congress, we can solve our problems right here in 
Illinois. We don't need the solution imposed on us by Congress.
    Ms. Wheeler. We certainly are going to give that our 
absolute top priority and give it a fair and hard and quick 
look. We understand that now is not the time to delay.
    Senator Durbin. Is September 1st an unreasonable deadline 
for the state of Illinois to respond to the Mayor's proposal?
    Ms. Wheeler. I think part of that will depend on to what 
extent the Mayor's proposal is able to be detailed, how many 
questions it leaves unanswered and so on. But we'll have to do 
that first review and see where it leads us.
    Senator Durbin. I understand that and that's a fair answer. 
But I really urge you in speaking to the Governor that he 
understand that this September 1st response and evidence of 
progress is really important to a lot of people who are 
watching this closely in Washington. Thank you.
    Senator McCain. Any further questions or comments? I want 
to thank the witnesses--oh, sure.
    Senator Rockefeller. Just actually, from a different words 
would like to ask the same question to both of you. And that 
is, I mean, this is an awkward thing to say but, yes, O'Hare 
and aviation belongs to political jurisdictions.
    But it doesn't, you know, I mean, like the interstate goes 
through West Virginia. We pay our 10 percent, the feds pay 
their 90 percent. It is national. It is national. I mean, 
that's where the people say I cannot have any noise. Well, we 
have a house 3 miles off the end of an airport. And we get 
noise. We like the place. We stop talking every 3 minutes for 
10 seconds and then go on.
    You know, aviation is taking over the world. The interstate 
highway system no longer does it. People don't, just in time. 
Everything is going toward crowded skies.
    Therefore, would you both agree to me that it is important 
that the Mayor and the Governor, by September 1st, either a 
reacting to the Mayor's plan or the Mayor reacting to the 
Governor's plan, that Congress has a right to start getting 
really annoyed about the national requirements and the national 
suffering because the Mayor and the Governor and whatever 
political jurisdictions and other airports and other options 
refuse to reach an agreement? Do you agree that there's a 
possibility that you can get an agreement by September 1st so 
we don't have to do what we will do?
    Mr. Walker. I believe that, Senator.
    Senator Rockefeller. Do you, Ms. Wheeler?
    Ms. Wheeler. I believe that. And we certainly understand 
that you're annoyed today. And----
    Senator Rockefeller. I'm not annoyed today. I'm annoyed all 
the time about delays, wherever they are, wherever they occur 
in this country for reasons which are insufficient and which 
can be solved. Thank you, Mr. Chair.
    Ms. Wheeler. It's a national----
    Senator McCain. People of goodwill and work together and 
solve the issues that oftentimes seem intractable. I believe 
that that's the message I think is loud and clear in this 
hearing.
    So, I thank you all for coming. Thank you Mr. Walker, Ms. 
Wheeler, Ms. Garvey. I especially thank you for forgoing some 
other previous obligations to be here. Thank you.
    Our next panel is Mr. Joe Karaganis, who's the general 
counsel of the Suburban O'Hare Commission; Mr. Lester Crown, 
who's the Chairman of Material Services Corporation; Mr. Ed 
Paesel, who is the Executive Director of South Suburban Mayors 
and Managers Association; and the Honorable Mark Schwiebert, 
who is the Mayor of the city of Rock Island. If you would come 
forward.
    We'll continue the hearing. And Mr. Karaganis, is that the 
proper pronunciation?
    Mr. Karaganis. It is, Senator, thank you.
    Senator McCain. And Mayor Schwiebert, I apologize for 
mispronouncing your name.
    Mr. Karaganis, please proceed.

 STATEMENT OF JOE KARAGANIS, GENERAL COUNSEL, SUBURBAN O'HARE 
                           COMMISSION

    Mr. Karaganis. Thank you. Mr. Chairman, and Members of the 
Senate Committee on Commerce, Science, and Transportation, 
thank you for the opportunity to present the views of the 
Suburban O'Hare Commission on the vital question of what to do 
about the Chicago region's aviation capacity problem.
    I've prepared a rather detailed presentation of testimony, 
which I'm not going to go over in my oral remarks today.
    Senator McCain. All of the written testimony will be made 
part of the record.
    Mr. Karaganis. Thank you. And I've also, Senator McCain, 
submitted a memorandum to Mr. Chamberlain, your counsel, with 
regard to some questions that he's raised in addition that I 
would ask to be made part of the record.
    Senator McCain. Without objection.
    Mr. Karaganis. I think again, despite all of the talk about 
dissention, several key facts are being agreed upon. They're 
being agreed upon because people are being forced to address 
them.
    One fact is there's a widespread regional consensus now, 
except, I might add, by the city of Chicago, but maybe they're 
coming around too, that we need major new capacity in the 
region. Senator Fitzgerald has talked about this. Congressman 
Hyde's talked about it, Congressman Jackson, the Suburban 
O'Hare Commission. We're major advocates of it.
    One of the facts that I'd like this Committee to address is 
the fact that O'Hare is out of capacity now by any standard 
used by the FAA, by any standard used by the city of Chicago, 
by any standard used by the state of Illinois. It's out of 
capacity now and it has been for several years.
    I'd also like you to recognize that Midway will soon be out 
of capacity. Everybody talks about O'Hare in isolation. But the 
fact is is that Midway currently has seven million boarding 
passengers. Everybody's estimate, including the city of 
Chicago, says that Midways' capacity is nine million boarding 
passengers. And that will be wiped out in about 2 to 3 years 
according to the state of Illinois and according to the 
figures.
    The question you have to ask yourself as part of this 
regional solution, where is ATA going to go and where is 
Southwest going to go after Midway is out of capacity? Are they 
going to go to O'Hare? Are you going to add runways to Midway? 
Or are you going to talk about a south suburban airport?
    One of the things we've been asking for is a regional 
master plan of what we're going to do for aviation in the 
region. The state of Illinois has been willing to accept that 
concept. Thus far, the city of Chicago has not.
    Let's talk about that major new capacity. Ms. Wheeler 
referred to it and I think it's very important. Everybody seems 
to agree now that the capacity we need, and I would allude to 
Senator Rockefeller's comments, is big capacity. Not just a 
trickle, not just a few. But we need, Senator Rockefeller 
talked about another 35 or 40 million boarding passengers that 
have to be accommodated within the next few years.
    Those figures, his comments are consistent with what the 
state, what the City's internal numbers and what the Civic 
Committee has talked about. Let me just give you some of these 
numbers. 35 million boarding passengers is what the city of 
Chicago's internal documents say the region's going to need. 
New capacity for 35 million boarding passengers. The state says 
30 million. The Civic Committee, which is here before you 
today, says 27 million.
    Bottom line, we're talking about new capacity roughly the 
size of O'Hare in terms of accommodations. Now, we can all do 
the arithmetic, how many passengers per, how many enplanements 
per aircraft, et cetera, and look at the impact of wider gauge 
aircraft and regional jets and the smaller aircraft fleet that 
they embody.
    The fact is, we need a lot of capacity for several hundred 
thousand new flights. The central question again is where do 
you put it? New south suburban airport? O'Hare? Midway? And 
again, I want you to please keep in mind that Midway will be 
out of capacity in 3 years. Or even Gary or Rockford.
    When you talk about Gary, don't talk about Gary or Rockford 
as a million enplanement airport. I heard the term here 15 
million enplanement. We've got to find a place to put 30 
million or 40 million new enplanements and probably have the 
reserve to go beyond that.
    Decision making process must be open and fair and not a 
done deal. Now what's going on here, and we appreciate the 
importance of this issue and we're thankful the Senate 
Committee has called this meeting today. But what's going on 
here is an exercise in hype, massive hype.
    There are a number of central questions which Ms. Wheeler 
referred to, which we've asked, which Senator Fitzgerald asked, 
cost? Where are you going to put it? What's involved? And 
nobody wants to put these questions on the table for public 
debate and examination.
    Now, I'll give you an example. The so-called Delay Task 
Force that's been reinstituted is internally known in the FAA 
as a Capacity Enhancement Task Force. That's the terminology. 
Because as my testimony shows, using FAA graphs, delay 
reduction and capacity enhancement are two sides of the same 
coin.
    We sought to simply observe this meeting of this Delay Task 
Force, which is made up of the airlines, the FAA and the state. 
We're told this is a closed door meeting. The public cannot 
attend. The press cannot attend. We cannot even observe. If 
we're going to have a fair process that has credibility, it's 
got to be a public and open process.
    And it's got to be a process that when people ask hard 
questions, the kinds of questions that this Committee's been 
asking, they're not accused of political pandering. They're not 
accused of trying to be, to exercise some form of power.
    Now the points have been made and I'm not going to go over 
these points that you can do a new airport far faster than 
expanding O'Hare, far less cost, far less environmental impact. 
I want to come back to some of the things that the Committee 
Members have mentioned this morning.
    I do work primarily in other areas of environmental law, 
not as it happens with airports, but I do work with airports 
around the country. And the fact is Senator Rockefeller was 
absolutely right and I've talked to the authorities in 
Washington, in Washington, D.C. Dulles was a white elephant 
until the decision was made that national was not going to 
grow. If you put runways in at national, you'd be talking about 
Dulles still being a white elephant.
    Senator McCain. You couldn't build anymore runways.
    Senator Durbin. You couldn't build anymore runways.
    Mr. Karaganis. Let me suggest that engineers, given the 
opportunity, can build them anywhere, Senator, but----
    Senator McCain. You haven't wandered around National 
Airport. There's a river on one side and----
    Mr. Karaganis. And if I might add, the question of delays, 
now the Committee's focusing on delays. We need to address 
delays in a 0 to 5 year window. We're the first to candidly say 
to you that a new airport at Peotone nor the runways at O'Hare 
are not going to address the delay problems that are going to 
be suffered this summer and the next five summers.
    And we've got to stop dancing around this issue in Chicago. 
The FAA is candidly addressing this with the New York/New 
Jersey airport authority for LaGuardia and Newark. And they've 
got to. And you've to got to be talking about demand 
management, in some form or another, that matches the demand at 
the airport with the capacity of the airport.
    If you do that, you'll solve the delay problems in the 
short term. You'll make them acceptable. Now, will that solve 
the long term capacity needs of any other regions? No. Let me 
address something that you folks have talked about. And I 
happen to be a staunch states' righter when it comes to the 
prerogatives of local control and local decision.
    You've made the point, and I would be the first to concede, 
that the Federal Government can come in and build airports. We 
can have a federal system of airports but we don't have it 
today. And if you're talking about stripping power out of 
Governors and legislatures, it's not two states, it's not seven 
states, it's not nine states. It's 50 state legislatures.
    And I know the law that governs. I've worked with the court 
authority in the state of New York and New Jersey. I know what 
governs Newark. I know what governs LaGuardia. You're talking 
about stripping New Jersey authority from the ability to 
protect their citizens with respect to Newark. Or stripping New 
York authorities with the ability to protect their citizens 
with respect to LaGuardia.
    I respectfully suggest to you that as a policy matter, 
that's true of San Francisco, Boston, Logan, Seattle, Tacoma. 
As a policy matter, that's a bad policy choice. Respectfully, 
as a legal matter, the bodies that operate these airports are 
political subdivisions of states. And I think there's a strong 
constitutional problem with Congress dictating how the state 
law, and it is state power that builds these airports, not 
federal power; how that delegation of power is allocated 
amongst political subdivision. To intrude upon that state 
power, I believe that's an unconstitutional action.
    Finally, let me suggest, and again, one of the things we 
need to do is keep the rhetoric down, keep the heated rhetoric 
down. But at the same time we cannot have our concern for 
courtesy and courteous discourse overlook some very serious 
problems.
    Now, I've heard a lot of talk about fare policies. Senator 
McCain referred to the situation of fortress hubs. We had a 
study that we did just for this hearing of spoke city fares 
versus Chicago-based fares out of O'Hare Airport.
    Three to four to five hundred percent higher for the 
Chicago-based traveler than for the Madison, Wisconsin traveler 
or the Dubuque, Iowa traveler or the Grand Rapids, Michigan 
traveler. Why? Because they have competing hubs that they can 
switch to. They can go into Detroit. They can go into 
Cleveland. They can go into Minneapolis.
    We here in Chicago don't have that choice. And quite 
frankly, ATA, and one of the arguments you're going to hear is 
that the Civic Committee says you can't have two hubbing 
airports in one City. ATA is hubbing out of Midway now, but 
it's not big enough. It's not big enough to provide significant 
competition.
    Finally, the last thing. We had a situation in Chicago that 
has----
    Senator McCain. It's your second finally.
    Mr. Karaganis. I'm sorry, Senator. It is a question which 
the Tribune has referred to as the stench at O'Hare. And we 
have a long history from our judicial scandal in Gray Lord to a 
number of major political and financial scandals in this state. 
And one of them is how O'Hare operates. And it operates with 
this kind of political corruption in part because there's a 
huge funnel of federal money.
    Now, we're asking, if I may, by way of closing 
recommendation, asking this Committee to consider the 
following. Avoid any temptation to destroy state power over the 
state's political subdivisions. Adjust federal financing 
funding, and I'm asking the Committee to reexamine the premises 
behind PFC's and reexamine the whole premises behind Airline 
General Revenue Fund of financing of airports because it tends 
to lock up the competition. It locks out the competition in 
terms of gates.
    Demand that the FAA take the brick off the south suburban 
airport. Senator, you asked how fast it can be done, to build 
an airport. My first deposition on airports was a gentleman who 
was given the responsibility of rebuilding two air force bases 
for the Israelis after the 1973 Sinai War. They built them in 3 
years.
    Demand that the state of Illinois put the details of all 
their proposals on the table for public examination and debate. 
Do not tolerate, and the public will not tolerate, back room 
deals behind closed doors. And develop federal policies that 
will break up the airline fortress hub system. Deregulation has 
been positive in some areas but it's a disgrace in many others.
    Thank you.
    [The prepared statement of Mr. Karaganis follows:]

         Prepared Statement of Joe Karaganis, General Counsel, 
                       Suburban O'Hare Commission

    Mr. Chairman, and members of the Senate Committee on Commerce, 
Science, and Transportation. Thank you for the opportunity to present 
the views of the Suburban O'Hare Commission on the vital question of 
what to do about the Chicago region's aviation capacity problem. The 
Suburban O'Hare Commission (SOC) is a consortium of 14 local 
governments adjacent to O'Hare Airport, representing several hundred 
thousand citizens. I serve as their counsel\1\.
---------------------------------------------------------------------------
    \1\ A statement of my professional background is attached as 
Exhibit 1.
---------------------------------------------------------------------------
    My testimony today makes the following points:
    1. There is wide regional consensus that the Chicago region needs 
construction of major new airport capacity.
    2. O'Hare is now out of capacity and Midway will be out of capacity 
in about three years.
    3. The major new airport capacity needs to handle a passenger load 
equal to another O'Hare.
    4. The central question facing the region is where to put the major 
new capacity--at a New South Suburban Airport, O'Hare, Midway, or even 
Gary or Rockford.
    5. The decision-making process must be open and fair and not a 
``done deal'' behind closed doors.
    6. When debated and decided openly and fairly in public, the 
inevitable choice for building the major new airport capacity for the 
region is the South Suburban Airport.
    <bullet> The new airport can be built faster than expanding O'Hare.
    <bullet> The new airport can be built at far less cost than 
expanding O'Hare.
    <bullet> The new airport can be operated with far less adverse 
environmental impact on surrounding residential communities than will 
be the case of expanding O'Hare.
    <bullet> The new airport provides much more new regional capacity 
than O'Hare expansion--the new airport will provide more than four 
times the capacity of O'Hare expansion at less than \1/2\ the cost.
    <bullet> Based on the limited capacity provided by quad runways at 
O'Hare, even an expanded O'Hare (i.e., with quad runways) is likely to 
quickly run out of capacity. Result: A huge capital investment with 
insufficient capacity to meet regional needs and a quick return to the 
congestion and delay conditions of today--only at increased traffic 
levels.
    <bullet> The new airport creates far more opportunity for bringing 
in new competition and breaking the monopoly control of United and 
American over high business fares in the region.
    7. The so-called ``compromise'' being sponsored by the ``Civic 
Committee'' and by United and American Airlines--new runways at O'Hare 
and a new ``airport''--is a bad choice for the region, the O'Hare area 
communities, and the South suburbs.
    8. The Tribune, Chicago, the airlines and the FAA are trying to 
stampede and steam roll a decision to build runways at O'Hare without 
allowing rigorous public examination of the issues and the alternatives 
such as a new regional airport. Anyone who asks hard questions is 
ridiculed--witness the Chicago Tribune calling Senator Fitzgerald a 
``political panderer'' for asking questions neither the Tribune, the 
airlines, nor Chicago want to answer.
    9. Delays at O'Hare are a red herring. Neither a new regional 
airport nor new O'Hare runways will be available in the next five 
years. The real issue on delays is what to do with delays now and in 
the next five years. O'Hare needs to be given the same rigorous 
analysis that is currently underway at LaGuardia to match demand with 
the existing capacity at that airport. By matching demand and existing 
capacity, the current delays at O'Hare (and other similarly congested 
airports like LaGuardia) can be dramatically reduced. Once current 
delays are addressed by matching demand with existing capacity, we can 
engage in a rational debate and discussion about which alternatives 
(e.g., new airport or O'Hare expansion) should be implemented. The 
alternative selected should provide opportunities for long-term growth 
without repeating the growth/congestion/delay cycle now afflicting 
O'Hare and which will be repeated with any quad runway proposal for 
O'Hare.
    10. Proposals to strip and gut the Governors and Legislatures of 50 
states of their ability to enforce state clean air, clean water, and 
public health laws as applied to proposed expansion of existing 
airports should be dead on arrival. Congressman Lipinski's proposal 
(and similar proposals being attributed to Senators Harkin and 
Grassley) would prevent Massachusetts from protecting the citizens of 
Boston (new runway proposed at Logan Airport), prevent the state of New 
York from protecting citizens around LaGuardia from new runway 
proposals, prevent the State of California from protecting the natural 
resources of San Francisco Bay (new runway at SFO), prevent the State 
of Washington from enforcing Washington state environmental laws at 
Sea-Tac, and prevent the State of New Jersey from protecting the 
citizens around Newark. Indeed, Congressman Lipinski should know that 
this same legislation, if passed, would strip the power of the State of 
Illinois to protecting the citizens around Midway from runway expansion 
at Midway. The proposal to gut state environmental and public health 
laws from airport development is both bad policy and bad law. It is 
likely unconstitutional.
    11. Your Senate Committee has stepped into a Hornet's nest of 
political corruption. Chicago wants to expand O'Hare and defeat a major 
new South Suburban Airport because Chicago wants to control the massive 
patronage dollars and opportunities for graft afforded by billions of 
federal dollars. The entire operation of O'Hare airport is permeated 
with the stench of corruption and kickbacks--what the Tribune calls 
``The Stench at O'Hare''.
    The airlines and the downtown business community stand idly by and 
let this corruption continue because they either profit from it or are 
afraid. The airlines like it because they use their relationship with a 
corrupt city government to rip off hundreds of millions of dollars from 
the business travelers based in Chicago.
    1. We Now Have Regional Consensus That The Chicago Region Needs 
Construction Of Major New Airport Capacity.
    Congressmen Hyde and Jackson have said this for years. The Suburban 
O'Hare Commission and the DuPage County Board has said this for years. 
Governor Ryan and the State of Illinois have been saying this for 
years. Now the downtown ``Civic Committee'' and the airlines are saying 
that the region needs major new capacity\2\. The only person who 
persists in publicly claiming that the region does not need new airport 
capacity is Mayor Daley in Chicago.
---------------------------------------------------------------------------
    \2\ The State of Illinois says the new airport capacity needed in 
the region is 30 million enplanements. The Civic Committee/Chicagoland 
Chamber Booz Allen Report (paid for by United Airlines) says the region 
needs capacity for 27 million new enplanements. The City of Chicago's 
secret internal forecast recently released by court order shows that 
the City forecasts the need for new capacity for 35 million boarding 
passengers. See discussion infra.
---------------------------------------------------------------------------
    2. O'Hare Is Now Out Of Capacity And Midway Will Be Out Of Capacity 
In About Three Years.
    By the FAA's and Chicago's own standards, O'Hare is currently out 
of capacity\3\. Attempts to force more traffic into the existing O'Hare 
airfield will lead to even more massive congestion and delay than we 
currently experience.
---------------------------------------------------------------------------
    \3\ For many years FAA has considered the practical capacity of an 
airport to be reached when the AAAW (average annual all weather delay) 
reached 4 minutes per operation, based on an assumption that peak 
delays would be roughly 5 times the average and about the limit that a 
transfer airport could tolerate. In recent years Chicago and the FAA 
have used ten minutes AAAW as the upper bound of acceptable capacity 
after which the airport transfer system begins to collapse. See 
Exhibits 2, 3, 4 attached hereto. SIMMOD capacity studies conducted by 
Chicago and the FAA have shown that O'Hare operations have exceeded the 
outer limit of this 10 minute AAAW delay since as early as 1993.
---------------------------------------------------------------------------
    It is a little known fact that at current rates of growth, Midway 
will rapidly exhaust its capacity--likely in about three years\4\. 
Where will ATA and Southwest go when Midway runs out of capacity? Will 
we be back here in three years saying that Midway needs new runways? At 
what cost in dollars and disruption of Midway communities? Will 
Congressman Lipinski's bill to gut state laws affecting airport 
expansion strip protection from his own constituents at Midway? Will 
ATA and Southwest go to O'Hare? Where?
---------------------------------------------------------------------------
    \4\ This estimate of three years of remaining capacity is based 
upon what appears to be an agreement that Midway's practical capacity 
is about 9 million annual enplanements and that Midway is currently at 
7 million annual enplanements. The three year estimate is based on 
current growth rates that have been experienced at Midway in recent 
years.
---------------------------------------------------------------------------
    3. The Major New Capacity Needs to Handle a Passenger Load Equal to 
Another O'Hare.
    We now have regional consensus that we need to build major new 
regional airport capacity to handle a passenger load roughly equivalent 
to another O'Hare airport. O'Hare currently handles about 34 million 
boarding passengers (called ``enplane-
ments'') annually at 900,000 operations.
    The State of Illinois says the new airport capacity needs to handle 
30 million new boarding passengers and proposes a new South Suburban 
Airport with six new runways and a large environmental buffer to handle 
that massive new load.
    Recently released Court documents show that Chicago has a secret 
study that shows that the new airport facilities will have to handle 35 
million boarding passengers and that even a massive conversion at 
O'Hare into a ``quad runway'' system at a cost in excess of $10 billion 
dollars will not accommodate the forecast additional traffic.
    The ``Civic Committee'' relies on a study funded by United Airlines 
and performed by United's own consultant which states that the new 
increased passenger load will be 27 million boarding passengers--
roughly the same as the State of Illinois' projected demand. Under the 
Civic Committee proposal, virtually all of the new traffic growth would 
be funneled into a massively expanded O'Hare where the new traffic 
would be directed to an airport complex dominated by American and 
United. Bottom line: O'Hare area communities get hundreds of thousands 
of additional flights--United and American get the lion's share of the 
traffic growth and are able to squeeze out competition.
    4. The Central Question Facing the Region Is Where To Put the Major 
New Capacity--at a New South Suburban Airport, O'Hare, Midway, or even 
Gary or Rockford.
    Senator McCain has stated the right perspective: We all agree that 
the region needs new capacity. The question is where to put it. The 
suggested places are self-evident. At a defined cost and with defined 
economic and environmental impacts, the new capacity can be built: (1) 
at the new South Suburban site, (2) at O'Hare, or (3) at Midway. Other 
alternatives that have been suggested include Gary and Rockford.
    5. The Decision-Making Process Must Be Open and Fair and Not a 
``Done Deal'' Behind Closed Doors.
    The Tribune and the airline sponsored ``Civic Committee'' have 
proposed that Governor Ryan break his campaign promise of no more 
runways and make a back room deal with Mayor Daley to trade new runways 
at O'Hare in return for some acceptance of some kind of airport at 
Peotone. This suggested ``compromise'' is bad for the region on both 
process and substance:
    <bullet> First, it is bad process. The entire region has a major 
stake in this decision. It is simply improper for the City of Chicago 
to cut a back room deal with the Governor. All proposals--the South 
Suburban Airport, Expanded O'Hare, Gary, Rockford, or any other 
proposals--should be examined openly and fairly in public on the basis 
of their respective costs, benefits, and environmental and economic 
impacts.
    <bullet> Second, it is bad substance. Trading an O'Hare runway for 
a token airport at Peotone (what we call a Quonset hut and a windsock) 
dooms Peotone and guarantees the massive expansion at O'Hare. The 
airlines, Chicago's former aviation commissioner, and SOC all agree 
that if you expand O'Hare you cannot make an economic justification for 
Peotone. Even if built, Peotone will become a ``white elephant on the 
prairie'' just as the St. Louis area's Mid-America Airport is sitting 
empty while Lambert Airport is getting a new runway. At the same time 
the greatly expanded O'Hare envisioned by the Tribune and the Civic 
Committee will funnel hundreds of thousands of new flights over our 
communities while expanding the monopoly lock that United and American 
have on high priced fares charged to Chicago area business travelers.
    The Governor deserves praise for holding his ground on the airline/
Chicago/Tribune/Civic Committee pressure to break the Governor's solemn 
promise to our communities to ban new runways at O'Hare. And he should 
reject their suggestions to make a deal behind closed doors. We agree 
with his request to all parties to put their plans to address the 
region's capacity needs on the table in public and allow them to be 
publicly debated.
    We are respectfully asking--indeed demanding as our right as 
citizens in a democracy--that the details of the costs and impacts of 
the O'Hare expansion proposal be fully and publicly disclosed and 
compared to other alternatives such as the South Suburban Airport and 
publicly debated--before any decision is made on which alternative to 
pursue. We will not tolerate closed door, back room deals that shut the 
public and our communities out of the decisionmaking process.
    Apparently Senator Durbin and Congressman Lipinski have been shown 
the details of the airlines and City of Chicago O'Hare expansion plans. 
But they have not shared this information with the public. Nor have 
they been willing to answer the hard questions raised by Senator 
Fitzgerald, Congressman Hyde, Congressman Jackson, and residents of our 
communities and south suburban communities\5\.
---------------------------------------------------------------------------
    \5\ An illustrative list of the questions that the Tribune, the 
airlines, Senator Durbin, and Congressman Lipinski don't want asked and 
won't answer is enclosed as Exhibit 5.
---------------------------------------------------------------------------
    Recent documents released by the Illinois Appellate Court disclose 
that Chicago and the O'Hare airlines have repeatedly and consistently 
lied to the Congress, the Illinois Legislature, the press and the 
public about the issues of air transportation demand and capacity in 
the Chicago region. These documents reveal what Chicago's lead aviation 
consultant (Landrum & Brown)--the company that the FAA is currently 
using to advise the current O'Hare ``Delay Task Force''--called a 
twenty year ``guerilla war'' which Chicago and the O'Hare airlines 
waged to ``kill'' the South Suburban Airport and expand O'Hare\6\.
---------------------------------------------------------------------------
    \6\ The entire Evidentiary Appendix released by the Appellate Court 
has been provided to the Committee in electronic format as an Adobe 
Acrobat file. Summaries of individual items of evidence are attached as 
Exhibits 6, 7, 8, 9, 12, and 14.
---------------------------------------------------------------------------
    The history of deceit and secrecy continues. Chicago and the FAA 
have now recreated the ``Delay Task Force'' (which was internally known 
as a ``capacity enhancement team) to address ``delays'' at O'Hare. Yet 
Chicago's own internal documents show what we all know--that reducing 
delays automatically increases capacity for more flights\7\. Invited to 
participate in this capacity enhancement team were representatives of 
the Fortress O'Hare airlines. When suburban communities who will be 
impacted asked to attend meetings of this group, we were told that the 
group would meet in secret behind closed doors and that the public and 
the press were excluded. When the President of the Illinois Senate--in 
whose district O'Hare is located--asked to have a representative 
observe the meeting, he was turned away and told the meeting was 
secret. The Congress should not tolerate continued deception.
---------------------------------------------------------------------------
    \7\ See Exhibits 8, 10, and 11 attached hereto.
---------------------------------------------------------------------------
    6. When Debated and Decided Openly and Fairly in Public, the 
Inevitable Choice For Building the Major New Airport Capacity For the 
Region is the South Suburban Airport.
    When the open public debate occurs, it is clear that the 
overwhelming and inevitable choice for building the major new capacity 
is the South Suburban Airport.
    <bullet> The new airport can be built faster than expanding O'Hare. 
The reason for the faster construction is based on the difference 
between ``greenfield'' construction and trying to rebuild in and over 
existing construction. In the case of the new airport vs. rebuilding 
O'Hare, this difference is vastly magnified by trying to build billions 
of new construction while servicing 900,000 flights each year.
    <bullet> The new airport can be built at far less cost. Cost 
estimates released by the State of Illinois say that a six runway new 
airport at Peotone would cost in the vicinity of 5 billion dollars. 
Cost estimates for new runways at O'Hare are between 1-2 billion per 
runway. Since Chicago already has admitted that the announced terminal 
expansion plans will cost 6 billion dollars, the cost of O'Hare 
expansion will be between 10-15 billion dollars\8\. That 10-15 billion 
dollar estimate does not include the cost of western access (which 
Chicago knows is needed to bring the passenger load into the airport to 
service the new runways and terminals), a western terminal and parking 
facility (needed to service western access), the cost of destroying a 
large chunk of Bensenville and Elk Grove Village, and the cost of 
additional mitigation by soundproofing due to increased flights.
---------------------------------------------------------------------------
    \8\ The cost estimates for the South Suburban Airport include all 
integrated Airside, Terminal and Landside facilities. Chicago internal 
documents released by the Appellate Court repeatedly acknowledge the 
need to build road and terminal facilities with terminal and access 
capacity to match the runways and repeatedly acknowledge the need for 
such a balanced ``integrated'' analysis of airport facility 
requirements. See e.g. Exhibit 12 and Exhibit 17.
---------------------------------------------------------------------------
    <bullet> The new airport can be operated with far less 
environmental impact. It is clear that the new South Suburban Airport 
can be built with far less environmental impact. The new airport has a 
massive non-residential environmental land buffer to mitigate the noise 
and air pollution created by the facility. In contrast, the 
environmental ``buffer'' for O'Hare currently consists of Bensenville, 
Wood Dale and a host of other DuPage County communities--a residential 
``buffer'' which will receive even more adverse impact when several 
hundred thousand additional flights are added to O'Hare.
    O'Hare is currently--by Chicago's own admission--the largest 
emission source of toxic and hazardous air pollutants in the State of 
Illinois\9\. In addition, noise monitoring data shows that current 
O'Hare noise extends over a far greater area than admitted by Chicago. 
Adding several hundred thousand additional flights will only make it 
worse.
---------------------------------------------------------------------------
    \9\ See Exhibit 13.
---------------------------------------------------------------------------
    <bullet> The new airport provides much more new regional capacity. 
The State of Illinois estimates the capacity of the new airport at 1.6 
million operations annually. That's 1.6 million operations above and 
beyond O'Hare's current 900,000. In contrast, the ``quad runway'' 
proposal for O'Hare will only provide new capacity for an additional 
300,000 to 400,000 flights.
    Based on forecast growth, the new O'Hare runways would be out of 
capacity in 5-10 years--necessitating the addition of a fifth and a 
sixth (and so on) parallel runway into O'Hare communities after the 
quad runway system was exhausted. In sum, the new airport provides far 
more capacity at far less cost than expanding O'Hare.
    <bullet> The new airport creates far more opportunity for bringing 
in new competition and breaking the monopoly control of United and 
American over high business fares in the region. The real heart of this 
controversy can be found by asking where the money is. American and 
United are currently able to overcharge Chicago area business travelers 
several hundred million dollars per year because of their dominance of 
the regional market--primarily for business travel\10\. Chicago has 
designed the proposed O'Hare expansion to funnel virtually all of the 
massive new traffic growth into a specially designed airport complex to 
perpetuate the dominance of American and United. Do the arithmetic. How 
is the expanded O'Hare design going to allow a major new hub competitor 
into the market? In contrast, the new South Suburban Airport will have 
plenty of capacity to allow major new competition to enter the region. 
That is why United and American and Chicago have a campaign to ``Kill 
Peotone''.
---------------------------------------------------------------------------
    \10\ United and American are able to charge very high premiums for 
business travel to major business destinations such as New York 
LaGuardia, Washington Reagan, Boston, Los Angeles, and San Francisco to 
the Chicago based ``hub'' traveler. In contrast, these same airlines 
compete with other hubs (e.g. Minneapolis, Detroit, Cleveland) for 
travelers from ``spoke cities'' such as Madison, WI and Grand Rapids, 
Michigan. Result: Chicagobased travelers getting on a United or 
American flight to a major business destination often pay a huge fare 
penalty as compared to a passenger from a ``spoke'' city connecting 
through O'Hare to the same destination. The State of Illinois estimates 
that the lack of competition for the Chicago-based traveler results in 
a several hundred million dollar monopoly fare penalty to Chicago-based 
travelers annually.
---------------------------------------------------------------------------
    7. The So-Called ``Compromise'' Being Sponsored By The ``Civic 
Committee'' and by United and American Airlines--New Runways At O'Hare 
And A New ``Airport''--Is A Bad Choice For The Region, The O'Hare Area 
Communities, and the South Suburbs.
    The Civic Committee has made much of its announced position that it 
``does not oppose a third airport'' and that it would favor a 
``compromise'' that would build both new O'Hare runways and a new 
airport. This is the same ``compromise'' plan being pushed by American 
and United.
    But an examination of the details of the ``compromise'' reveals a 
far different picture.
    <bullet> The Civic Committee position is based on a report paid for 
by United Airlines and prepared by United's long-time consultant, Booz-
Allen. The Booz-Allen report's central assumption is that virtually all 
of the traffic growth must be funneled into a vastly expanded O'Hare--
and that O'Hare must be even further expanded in serial fashion far 
into the future (i.e., a fifth and a sixth parallel runway).
    <bullet> Under the Civic Committee, Booz-Allen, United Airlines 
``compromise'', O'Hare will get quad runways and several hundred 
thousand more flights over O'Hare area communities. The third airport--
if it gets any traffic at all--will get one thirtieth the traffic level 
proposed by the State of Illinois for the new airport. Further at the 
levels envisioned in the Booz-Allen report, there will never be a 
Peotone. The trickle of traffic projected by Booz-Allen can be fit into 
a tiny airport at Gary.
    With any expansion of O'Hare capacity, the economic viability of a 
new airport is called into serious question. With an expanded O'Hare it 
will be hard to justify building the South Suburban Airport. And even 
if a new airport is built, it will stand as a ``white elephant on the 
prairie''--a subject of derision much as the current Mid-America 
Airport near St. Louis is ridiculed as standing empty while St. Louis 
expands its Lambert Field.
    8. The Tribune, Chicago, the airlines and the FAA are trying to 
stampede and steam roll a decision to build runways at O'Hare without 
allowing rigorous public examination of the issues.
    We are currently being deluged by a massive wave of hype--funded by 
the Fortress O'Hare airlines (American and United)--that claims that 
the central solution is a massive increase in capacity at O'Hare. Their 
hope is that this hype campaign will force the Governor of the State to 
break his promise to the State and our communities that he will not 
allow new runways to be constructed at O'Hare and that he would build 
the South Suburban Airport. Their hope is that this rush to judgment 
will be made before they are forced to answer hard questions about 
their proposal.
    Yet these airlines and their front organizations in the downtown 
business community\11\ refuse to disclose (a) exactly what their 
proposal for O'Hare expansion is, (b) how much will it cost, (c) how 
much capacity will it provide, (d) how will it impact the current 
monopoly fare dominance of United and American, and (e) what are the 
environmental and public health impacts on surrounding communities of 
their O'Hare expansion proposal.
---------------------------------------------------------------------------
    \11\ For example, the report used by one of the most prominent 
groups advocating O'Hare expansion (the ``Civic Committee'') was paid 
for by United Airlines and was authored by United's long-time 
consultant, Booz-Allen. See Exhibit 14.
---------------------------------------------------------------------------
    Indeed, as we sit here today, neither the Tribune, the Sun-Times, 
Senator Durbin, Congressman Lipinski, nor the host of front 
organizations funded by United and American have told the public 
exactly what their plan for O'Hare is, what it will cost, what capacity 
will it provide, how it will impact the monopoly fare problem, and what 
is the environmental impact of the proposal on communities surrounding 
O'Hare.
    Instead of facts we get hype. And when people like Senator 
Fitzgerald ask hard questions, the Tribune rolls another one of its 
thundering personal attacks on anyone who asks hard questions or asks 
for a public disclosure and debate--calling Senator Fitzgerald ``a 
political panderer''.
    The Tribune has been writing editorials day after day demanding 
that an immediate decision be made to build runways at O'Hare. Senator 
Durbin has said that there is a July 1 ``deadline'' for action by the 
governor on new O'Hare runways.
    Ignored are the following:
    <bullet> Public Stonewalling. The Civic Committee, the Tribune, 
Senator Durbin, the City of Chicago, and the airlines refuse: (1) to 
publicly disclose what their proposal is for new runways at O'Hare; or 
(2) to answer even the most basic questions about the cost and impacts 
of their O'Hare expansion proposal as opposed to the alternative of a 
new regional airport. The Senate Committee should demand that they 
disclose their plans and answer these basic questions\12\.
---------------------------------------------------------------------------
    \12\ The Daily Herald has asked similar questions. See Exhibit 15.
---------------------------------------------------------------------------
    <bullet> The City of Chicago, the FAA and the Airlines are meeting 
behind closed doors (the so-called ``Delay Task Force'' to decide 
whether to recommend new runways at O'Hare--a recommendation which will 
have major adverse effects on O'Hare communities and on South Suburban 
hopes for a new airport. Excluded from these meetings are the public, 
the press, representatives of impacted communities, and representatives 
of Senate President Philip and Congressman Hyde--two federal and state 
officials who represent the communities around O'Hare. Is this any way 
to make public policy decisions\13\?
---------------------------------------------------------------------------
    \13\ See Daily Southtown editorial on this subject. See Exhibit 16.
---------------------------------------------------------------------------
    <bullet> The so-called ``Delay Task Force'' is really a ``Capacity 
Enhancement Team'' and is refusing to consider the South Suburban 
Airport as an alternative to adding capacity at O'Hare. The Chicago/FAA 
``Delay Task Force'' is really a ``Capacity Enhancement Team'' 
sponsored by the FAA. The Delay Task Force is meeting behind closed 
doors with the airlines as members. The Delay Task Force has announced 
that it will not consider a new airport as an alternative to adding 
runways at O'Hare. This means that the alternatives that the Delay Task 
Force will consider for adding capacity to the region (which is the 
same as reducing delays) are going to be limited to the choice between 
new O'Hare runways or new O'Hare runways.
    <bullet> ``Delay Reduction'' is another word for ``Capacity 
Enhancement.'' What most people do not realize is that ``reducing 
delays'' automatically increases the capacity of the airport to handle 
more flights. FAA and the City of Chicago define the capacity of the 
airport as the level of traffic that can be handled at acceptable 
levels of delay. Chicago defines this level as ten minutes average 
annual delay per aircraft operation. If Chicago and FAA reduce the 
delay level of existing traffic--say from 10 minutes per operation to 8 
minutes per operation, that delay reduction automatically increases the 
number of operations that can be processed with a ten-minute delay. 
Delay reduction and capacity enhancement are two sides of the same 
coin\14\.
---------------------------------------------------------------------------
    \14\ See Exhibits 4, 8, 10, 11.
---------------------------------------------------------------------------
    9. Delays at O'Hare are a Red-Herring.
    Neither a new regional airport nor new O'Hare runways will be 
available in the next five years. The real issue on delays is what to 
do with delays now and in the next five years. O'Hare needs to be given 
the same rigorous analysis that is currently underway at LaGuardia to 
match demand with the existing capacity at that airport. By matching 
demand and existing capacity, the current delays at O'Hare (and other 
similarly congested airports like LaGuardia) can be dramatically 
reduced. Once current delays are addressed by matching demand with 
existing capacity, we can engage in a rational debate and discussion 
about which alternatives (e.g. new airport or O'Hare expansion) should 
be implemented. The alternative selected should provide opportunities 
for long-term growth without repeating the growth/congestion/delay 
cycle now afflicting O'Hare and which will be repeated with any quad 
runway proposal for O'Hare.
    10. Proposals to strip and gut the Governors and Legislatures of 50 
states of their ability to enforce state clean air, clean water, and 
public health laws as applied to proposed expansion of existing 
airports should be dead on arrival.
    Congressman Lipinski's proposal (and similar proposals being 
attributed to Senators Harkin and Grassley) would prevent Massachusetts 
from protecting the citizens of Boston (new runway proposed at Logan 
Airport), prevent the State of New York from protecting citizens around 
LaGuardia from new runway proposals, prevent the State of California 
from protecting the natural resources of San Francisco Bay (new runway 
at SFO), prevent the State of Washington from enforcing Washington 
state environmental laws at Sea-Tac, and prevent the State of New 
Jersey from protecting the citizens around Newark. Indeed, Congressman 
Lipinski should know that this same legislation, if passed, would strip 
the power of the State of Illinois to protect the citizens around 
Midway from runway expansion at Midway. The proposal to gut state 
environmental and public health laws from airport development is both 
bad policy and bad law. It is likely unconstitutional as an improper 
federal intrusion on the basic state power to control and limit the 
delegation of state power to a state's political subdivisions.
    These proposals to gut state law protections are bad policy for 
another reason. These proposals are all directed to promoting expansion 
of existing airports at the expense of looking at environmentally and 
economically desirable (i.e., to bring in new competition) new airport 
construction. Nowhere do these proposals address the current gridlock 
on new airport development caused by Congress' bypassing the states and 
sending federal PFC money directly to the operators of existing 
airports.
    11. Your Senate Committee has stepped into a Hornet's nest of 
political corruption.
    Chicago wants to expand O'Hare and defeat a major new South 
Suburban Airport because Chicago wants to control the massive patronage 
dollars and opportunities for graft afforded by billions of federal 
dollars. The entire operation of O'Hare airport is permeated with the 
stench of corruption and kickbacks--what the Tribune calls ``The Stench 
at O'Hare''. Multi-million dollar kickbacks to Mayor Daley's friends 
and associates are the order of the day.
    The airlines and the downtown business community stand idly by and 
let this corruption continue because they either profit from it or are 
afraid. The airlines like it because they use their relationship with a 
corrupt city government to rip off hundreds of millions of dollars from 
the business travelers based in Chicago.

                               CONCLUSION

    Respectfully, we make the following recommendations to this 
committee:
    1. Avoid any temptation to try to destroy state power over the 
state's political subdivisions and the state's power to protect its 
citizens through state environmental and public health laws.
    2. Adjust federal financial funding to provide at least a level 
playing field--and ideally actual positive incentives--to build new 
environmentally sound airports.
    3. Demand that the FAA take the ``brick'' off development of the 
South Suburban Airport and demand fast-track processing of the South 
Suburban Airport proposal.
    4. Demand that the FAA and Chicago and the State of Illinois put 
the details of all airport capacity proposals (be it South Suburban 
Airport, expanding O'Hare, Gary, or Rockford) on the table for public 
examination and debate. Do not tolerate back room deals behind closed 
doors.
    5. Develop federal policies that will break up the Fortress Hub 
system and force new competition into our region and similarly burdened 
Fortress Hub communities. The blatant geographic allocation of markets 
by the major airlines--and the resultant exorbitant fares charged to 
hub city business travelers--is a national disgrace.
                                 ______
                                 
             Exhibit 1.--Background of Joseph V. Karaganis

    Joseph V. Karaganis is a 1966 graduate of the University of Chicago 
Law School. Following law school he served as a law clerk to United 
States District Judge Hubert L. Will and as a Bigelow Teaching Fellow 
at the University of Chicago Law School.
    Entering private practice in 1968, Mr. Karaganis soon became 
established as a nationally known expert in the then ``new'' field of 
environmental law. His practice is a unique combination of public 
governmental and private party representation. His public clients have 
included:
    <bullet> The State of Illinois--Mr. Karaganis served three 
Attorneys General of both political parties from 1969-1983 as a Special 
Assistant Illinois Attorney General representing the state in major 
environmental litigation--with a special emphasis on the clean-up of 
Lake Michigan. As an Assistant Attorney General he helped draft the 
Illinois Environmental Protection Act.
    <bullet> LaSalle County, Illinois--Mr. Karaganis served as a 
Special Assistant State's Attorney representing the County in a major 
hazardous waste controversy.
    <bullet> The Suburban O'Hare Commission--For the last fifteen 
years, Mr. Karaganis has served as general counsel of an 
intergovernmental agency made up of municipalities impacted by aircraft 
noise and toxic air pollution from O'Hare airport.
    <bullet> DuPage County, Illinois--Mr. Karaganis served as a Special 
Assistant State's Attorney representing the State and several school 
districts seeking damage recovery for aircraft noise interference. In 
that litigation, Mr. Karaganis successfully challenged Chicago's claim 
that Chicago's responsibility for aircraft noise damages to schools was 
limited to the funding available from federal grant funds and that the 
availability and quality of soundproofing was restricted to that 
allowed by federal grant regulations. The litigation established that 
Chicago's liability to pay noise damages was based on state law 
independent of federal funds and independent of federal grant 
restrictions and that Chicago's liability was fully indemnified by the 
airlines using O'Hare. Result: Approximately 20 million dollars paid to 
local schools, which Chicago had claimed, were ineligible under federal 
grant regulations.
    <bullet> Special counsel to Bensenville, Illinois--Mr. Karaganis 
successfully sued Chicago for discriminating in the dispensation of 
housing soundproofing funds--rewarding Chicago's political friends and 
punishing those communities who opposed O'Hare expansion.
    <bullet> West Chicago, Illinois--Mr. Karaganis has served and 
continues to serve as a Special Assistant City Counsel representing 
West Chicago in a major cleanup battle with Kerr-McGee Chemical 
Corporation over radioactive wastes in the City. After years of 
litigation, a settlement was reached with Kerr-McGee, which will 
produce one of the largest hazardous waste cleanups in the Nation.
    Mr. Karaganis's most recent legal success came in December of 1998 
when the Illinois Supreme Court, in the case of People ex rel Birkett 
v. Chicago, rejected Chicago's claim that Chicago could hide over 
50,000 pages of hitherto secret documents regarding illegal O'Hare 
expansion. The Supreme Court accepted Mr. Karaganis's arguments (on 
behalf of the DuPage County State's Attorney) that there was no 
government ``deliberative process'' privilege that allowed a Chicago to 
hide evidence of wrongdoing.
    Mr. Karaganis has represented a number of citizen and environmental 
organizations as well throughout his career. His representation has 
included:
    <bullet> The Izaak Walton League--successful litigation against 
Commonwealth Edison to stop open discharge of heated cooling water from 
Quad Cities Nuclear Power Plant into Mississippi River. Suit resulted 
in commitment by Edison to halt further nuclear plant construction on 
Mississippi River.
    <bullet> The Homestake Gold Mine Lead-Deadwood South Dakota--Mr. 
Karaganis successfully represented the ``Save Centennial Valley 
Association''--a group of ranchers who fought a huge toxic mine 
tailings dam and impoundment that threatened the Valley's groundwater.
    <bullet> Lock & Dam 26 and the Upper Mississippi Wildlife Refuge--
Mr. Karaganis represented the Sierra Club and the Izaak Walton League 
in a successful fight to stop lock and dam expansion on the Upper 
Mississippi without first obtaining Congress's authorization.
    <bullet> Tennessee-Tombigbee Waterway, Alabama and Mississippi--Mr. 
Karaganis represented Environmental Defense Fund in ultimately 
unsuccessful fight to halt construction of a water project that 
destroyed major wildlife resources.
    Mr. Karaganis is President of Karaganis & White Ltd., a seven 
lawyer Chicago law firm. While the firm's practice focuses on 
environmental law, the breadth of matters involved in Mr. Karaganis's 
practice in state and federal courts have required him and his firm to 
develop expertise in a broad range of other substantive law areas, 
including constitutional law, federal court jurisdiction, 
administrative law, aviation law, and the law governing nuclear energy 
production.
    Mr. Karaganis's private practice--and that of his firm Karaganis & 
White--involves representation of private corporations, real estate 
developers, and entrepreneurs in a broad spectrum of environmental 
matters ranging from Superfund (CERCLA) remediation, CERCLA cost 
recovery, regulatory compliance with a host of federal and state 
regulatory programs, brownfield redevelopment, and corporate 
counseling.
                                 ______
                                 
              Exhibit 2.--Chicago's Definition of Capacity

    The practical capacity of the airfield will be defined as the 
maximum level of average all-weather throughput achievable while 
maintaining an acceptable level of delay.
    Ten minutes per aircraft operation will be used as the maximum 
level of acceptable delay for the assessment of the existing airfield's 
capacity . . . This level of delay represents an upper bound for 
acceptable delays at major hub airports . . .
                                 ______
                                 
                               Exhibit 3

    DOT in its High Density Rule Study (1995) listed the Average Annual 
All Weather (AAAW) delay for O'Hare as 11.8 minutes. To put that delay 
figure in a capacity context, consider the following statement in the 
DOT study:
    Solutions to delay require capacity increases or demand reductions. 
. . . [A]s a general rule of thumb, when the AAAW delay per operation 
reached 6 minutes, capacity improvements should be actively pursued. 
When the AAAW reached 8 minutes, implementation of capacity 
improvements should be underway.
    DOT High Density Rule Study, Technical Supplement #3 at D-2 
emphasis added
                                 ______
                                 
                Exhibit 4.--Capacity/Delay relationship 

[GRAPHIC] [TIFF OMITTED] T8897.001

                 Exhibit 5.--Suburban O'Hare Commission

    QUESTIONS THE TRIBUNE, THE CIVIC COMMITTEE, THE FORTRESS O'HARE 
AIRLINES (AMERICAN AND UNITED), SENATOR DURBIN AND CONGRESSMAN LIPINSKI 
                          DON'T WANT TO ANSWER

    In recent weeks, the O'Hare airlines and the City of Chicago public 
relations machine has unleashed a public relations deluge calling for a 
``reconfiguration'' of runways at O'Hare. The downtown papers--the 
Tribune and the Sun-Times--have thundered mightily with repeated 
editorials stating that new runways at O'Hare are a ``done deal'' and 
suggesting that Governor Ryan will break his campaign promise to ban 
new O'Hare runways.
    A downtown business group called the ``Civic Committee'' (allied 
with United and American Airlines)--as well as Senator Durbin and 
Congressman Lipinski--have all been given major coverage in their calls 
for ``reconfiguration'' of O'Hare runways.
    To his credit, Governor Ryan has repeatedly reaffirmed his promise 
to our communities to ban new O'Hare runways. And the Governor and IDOT 
Secretary Kirk Brown have repeatedly asked questions with which our 
communities agree. What are the details of the so-called plans for 
``reconfiguration'' at O'Hare and what will be the impact of this 
reconfiguration on O'Hare area communities, the south suburbs' hopes 
for a new regional airport, and on the problem of high fares due to 
monopoly dominance by American and United--and a host of other 
questions relating to the choice of where to put new airport capacity 
in the region.
    Neither the Civic Committee, the airlines, the City of Chicago, or 
Senator Durbin or Congressman Lipinski is willing to publicly disclose 
any of the details of the still secret plan for ``reconfiguration'' of 
O'Hare runways. Apparently these drawings and plans have been disclosed 
in a series of closed door meetings between the City of Chicago and the 
airlines and the Civic Committee, the Tribune, the Sun-Times, Senator 
Durbin, and Congressman Lipinski.
    Yet none of them are willing to tell the public and the communities 
impacted by the secret ``reconfiguration'' plan the details of the 
secret plan. Nor are they willing to answer serious questions about 
these reconfiguration plans, the impacts of these plans and 
alternatives to these plans. Here are some of the questions the Civic 
Committee, the airlines, the City of Chicago, or Senator Durbin or 
Congressman Lipinski don't want to be asked and questions they won't 
answer.
    <bullet> Where are the plans or drawings showing the new 
``reconfiguration'' of runways that the Tribune, the Civic Committee, 
the airlines, Senator Durbin and Congressman Lipinski say they want at 
O'Hare? Where are the new runways located? How many new runways?
    <bullet> How much new capacity is needed in the region between now 
and 2020?
    <bullet> How much new capacity will be produced by the O'Hare 
``reconfiguration'' plan promoted by the Tribune and United and 
American and the Civic Committee vs. the 6-runway south suburban 
airport?
    <bullet> What is the future demand for air traffic in the region 
and how will one runway at O'Hare address that future demand? How will 
two runways at O'Hare satisfy that future demand? Where are the demand-
capacity studies on which the Civic Committee bases its claims?
    <bullet> How much of future demand will be stuffed into the 
``reconfigured'' O'Hare; when will O'Hare's ``reconfigured'' capacity 
be exhausted; and once exhausted where do we go from there?
    <bullet> What terminal and surface road access facilities are 
needed for O'Hare to accommodate the growth projected by the Civic 
Committee and to match the capacity provided by the new runway or 
runways?
    <bullet> How much will it cost to add new runway and associated 
terminal capacity at O'Hare vs. at a new south suburban airport?
    <bullet> How will new construction at either an O'Hare $10-15 
billion dollar expansion or a $4-5 billion dollar new airport be 
financed?
    <bullet> How fast can new runway capacity be built at O'Hare vs. a 
new airport?
    <bullet> What are the environmental and public health costs of the 
various alternatives--i.e., an expanded O'Hare vs. a new south suburban 
airport?
    <bullet> What is the legal power of Congress to compel Chicago or 
the State of Illinois to build new runways at O'Hare or build a new 
airport at Peotone?
    <bullet> When will Midway be out of capacity?
    <bullet> Does Congressman Lipinski's proposed federal legislation 
attempting to strip states of their power enforce state laws to protect 
their citizens from runway expansion mean that he is willing to strip 
such protection from Midway area residents when proposals are made to 
expand Midway runways or build new runways at Midway?
    <bullet> Is there a monopoly air fare problem currently at O'Hare 
whereby United and American charge Chicago area travelers--particularly 
business travelers--more than would be charged if there were 
significant competition in the region?
    <bullet> If there is such a monopoly fare problem at O'Hare, what 
is the annual cost of this problem to Chicago area travelers on an 
annual basis?
    <bullet> How much of the region's traffic growth will be captured 
by United and American if the expansion of the region's air traffic 
capacity takes place at O'Hare vs. if the expansion takes place at a 
new regional airport?
    <bullet> How is the design of the new O'Hare terminal expansion 
program (a/k/a World Gateway) designed to promote the entry of 
significant new hub competition (e.g., Northwest, Delta, Continental, 
new carrier) into the region?
    <bullet> What are the effects on competition and the problem of the 
Fortress O'Hare monopoly fares by putting new capacity at a 
``reconfigured'' O'Hare vs. a new south suburban airport?
    <bullet> Who is Booz-Allen and who funded the economic studies 
performed by Booz- Allen on which the Civic Committee makes its claims 
for new runways at O'Hare? Has not Booz-Allen been a long-time business 
consultant for United Airlines? Did not United Airlines contribute 
significant funds for the Booz-Allen study which is the basis of the 
Civic Committee's claims?
    <bullet> Based on the Civic Committee's demand forecast how soon 
will demand for air traffic at O'Hare exceed the capacity of a single 
new runway (2005, 2010, 2015)? How soon will demand exceed the capacity 
of a second O'Hare runway? Once the capacity of the second runway is 
exhausted, what do we do then--build even more O'Hare runways?
    <bullet> Under the Civic Committee/Booz-Allen/United Airlines 
proposal how much of the region's future traffic growth (in passengers 
and annual operations) will go to O'Hare vs. the so-called ``point-to-
point'' airport at Peotone or Gary--with one runway at O'Hare; with two 
new runways at O'Hare?
    <bullet> What is the cost of ``reconfiguring O'Hare'' to add one or 
two parallel runways? What are the associated costs for new terminals, 
associated road access, and mitigation costs for the increased noise 
that would exist as compared to an O'Hare which was not expanded?
    <bullet> How will the costs of expanding the terminals, roadways, 
and runways for O'Hare expansion be financed?
    <bullet> Does the Civic Committee challenge the State DOT's 
estimate of the costs associated with the new south suburban airport? 
If so, what is the Civic Committee's estimate of the cost of the South 
Suburban Airport and provide the basis for that estimate.
    <bullet> How fast can new runways and associated terminal and 
roadway components be constructed at O'Hare? How fast can these 
elements be constructed at the new regional airport?
    <bullet> How many additional annual flights at O'Hare will be 
needed to accommodate the forecast increase in demand to the year 2020?
    <bullet> How many O'Hare area homes will suffer unacceptable noise 
exposure by these additional flights vs. the number of O'Hare area 
homes that would experience unacceptable levels of noise if the traffic 
growth was sent to a new regional airport with an adequate 
environmental buffer?
    <bullet> Does the Civic Committee agree or disagree with the claim 
that noise levels from aircraft operations that are above government 
recommended levels cause a decline in residential property values as 
compared to similar homes that do not experience levels of aircraft 
noise in excess of government recommended levels?
    <bullet> What are the amounts and types of toxic air pollution 
emitted by operations at O'Hare airport? Do the Civic Committee and the 
Tribune and Senator Durbin agree with the figures released by Chicago's 
consultant that show that at current levels of traffic, O'Hare is the 
largest emitter of toxic and hazardous pollutants in the State of 
Illinois--far more than any other industrial source? If not, what are 
their figures?
    <bullet> Do the Civic Committee and the Tribune and Senator Durbin 
agree or disagree with the findings of the air toxics study by a 
nationally known public health consultant, Environ, showing that 
downwind of O'Hare in residential communities like Des Plaines and Park 
Ridge, O'Hare toxic emissions cause an increase health risk up to five 
times recommended health protective levels? If they disagree, where are 
their data and analyses on the transport of air toxics from O'Hare to 
downwind residential communities and the resultant health risk from 
O'Hare toxic emissions in those communities.
    <bullet> What will be the amount of air toxic emissions at O'Hare 
if future demand is accommodated by an expansion of O'Hare vs. a new 
South Suburban Airport with an environmental buffer? What will the 
concentrations of O'Hare toxic emissions and the resultant health risk 
in downwind O'Hare area communities if future demand is accommodated by 
an expansion of O'Hare vs. a new South Suburban Airport with an 
environmental buffer?
    <bullet> Do the Civic Committee and Senator Durbin agree with the 
Tribune Editorial Board that there is a ``Stench at O'Hare'' and that 
the management of airport contracts has been part of what that same 
Tribune Editorial Board refers to as a ``culture of sleaze''? If the 
Civic Committee and Senator Durbin do not agree, why not? If the Civic 
Committee and Senator Durbin do agree, how can the they propose 
shoveling billions more in public funds to expand United and American's 
monopoly at O'Hare while giving the ``culture of sleaze'' at O'Hare 
billions more with which to play?
    <bullet> Whether the choice be an O'Hare expansion or a new south 
suburban airport, it is clear that the governmental framework for 
making and implementing these multi-billion dollar decisions needs to 
be cleaned up and aired out. What's the Civic Committee's and Senator 
Durbin's answer? Are the Civic Committee and Senator Durbin advocating 
a ``back room'' deal like the Rosemont Casino--only on a much grander 
multi-billion dollar scale to carve up the pork? Are they proposing 
that a ``backroom deal'' be made before giving the impacted communities 
and their residents a chance to be heard at public hearings on the 
alternatives?
    <bullet> What do the Civic Committee and Senator Durbin propose to 
address the current delay crisis at O'Hare. We both know that whatever 
the decision is--either new runways at O'Hare or a new airport--these 
facilities will not be in place to address the delay problem faced by 
O'Hare currently or the delay problem it will face this Summer or over 
the next several years. What are the Civic Committee's and Senator 
Durbin's proposals for addressing this immediate and near term delay 
problem?
                                 ______
                                 
Exhibit 6.--A Generation of Deceit--Chicago's Deception Of The Public, 
   Press, Federal And State Courts, State Legislature And Congress--
                    Chicago's Guerilla War Continues

    <bullet> Chicago lied to the public and the press in a 1983 
Environmental Impact Statement when it said it had abandoned plans for 
new runways at O'Hare because of the adverse environmental impact the 
additional flights would have on surrounding communities. While it made 
this statement to the public, Chicago was secretly planning new runways 
at O'Hare.
    <bullet> Chicago lied to the federal courts in 1986 when it said 
that it had no plans for new runways. At that very time, Chicago was 
planning new runways at O'Hare.
    <bullet> Chicago lied in 1990 to the O'Hare communities, the DuPage 
County Regional Planning Commission, and the Northeastern Illinois 
Planning Commission when it said that Chicago would be preparing a 
Master Plan Update to examine all alternatives for adding capacity in 
the region. That same year Chicago officials secretly met with United 
Air Lines officials to discuss the new Master Plan. Chicago and United 
officials agreed that a new Master Plan was needed but decided to do a 
secret Master Plan with the express purpose of limiting public 
participation, in particular hiding the master plan from the Suburban 
O'Hare Commission.
    <bullet> Chicago lied to the public in 1991 when it said it was 
proposing new O'Hare runways ``to reduce delays'' and not for 
additional new flights. Chicago's consultants told Chicago that the 
``delay reduction'' runways actually would increase capacity and add 
more flights.
    <bullet> Chicago and the airlines lied to the Illinois General 
Assembly in 1995-96 when they told the General Assembly that the 
Chicago area airports had plenty of capacity and that there was no need 
to add capacity at either O'Hare or at a new airport.
    <bullet> Chicago lied to the House Judiciary Committee in 2000 when 
it told Chairman Henry Hyde and the Congress that Chicago and O'Hare 
had plenty of capacity without any need for new runways or a new 
airport.
    <bullet> Chicago lied to the Illinois House Aviation Committee in 
April and May of this year when it said O'Hare had sufficient capacity 
for several additional years when Chicago knows O'Hare is out of 
capacity.
    <bullet> Chicago lied when it told the press and the public that 
Chicago was not actively opposing the new South Suburban airport when 
Chicago was actually working in collusion with United Airlines to 
``Kill Peotone'' and to stop major new competition from entering the 
region.
    <bullet> Chicago lied about: The demand for airport services 
(Chicago has generated internal forecasts very similar to the State of 
Illinois), O'Hare capacity (By Chicago's own definition of capacity, 
O'Hare is out of capacity now and has been for several years), and it 
continues to lie about demand and capacity for the region and O'Hare
    <bullet> Chicago continues to lie about the fact that its multi-
billion dollar ``World Gateway'' Terminal project is part of a larger 
``Integrated Airport Plan'' that includes new quad runways. Chicago `s 
own consultants have told Chicago that without new runways, O'Hare does 
not need new terminals.
    <bullet> Chicago has clearly shared the details of its quad runway 
O'Hare ``reconfiguration'' (integrated Airport Plan) with the airlines 
and the Civic Committee--but neither Chicago, the airlines or the Civic 
Committee are willing to give the public and the media the details of 
the plan.
                                 ______
                                 
  Exhibit 7.--Chicago's ``Terrible Dilemma'' And Its Top Consultant's 
Admission That The Chicago Was Waging A ``Guerrilla War'' Against A New 
                                Airport

    The following is from an internal memo in which Chicago's lead 
airport consultant over the past 40 years details why the city had to 
argue that no new air capacity was needed in the Chicago area, knowing 
it was a lie, and the resulting ``Guerrilla War'' it waged against the 
new regional airport.
    When IDOT conducted its ``Third Airport Study'' in the late 1980s, 
it was positioned as an alternative to further development of the ORD 
airfield. At the time, Mayor Washington's DOA was paralyzed by a 
terrible dilemma.
    On the one hand, the City recognized that additional airfield 
capacity would someday be needed in the Chicago Region.
    There were only three possibilities for providing that additional 
capacity: new runways at ORD; new runways at MDW or a third airport.
    On the other hand, the City recognized that new runways at MDW were 
impractical and was unwilling to incur the political heat that would 
accrue to any suggestion that new runways were being considered at 
either ORD or MDW.
    Thus the City was forced to argue that new capacity was not and 
would not ever, in the foreseeable future, be required in the Chicago 
Region.
    The City did manage, by waging this argument, to stall any serious 
plans for a third airport outside the city limits.
    Ultimately, after Mayor Daley took office, the City recanted on the 
ultimate need for new airfield capacity in the Chicago Region and 
proposed a MDW replacement airport at Lake Calumet.
    The effort to demonstrate feasibility of this concept lasted about 
two years and succeeded again in preventing IDOT from making any 
meaningful progress toward developing a new airport in a suburban 
location.
    Thus, the City has conducted a protracted but successful Guerrilla 
war against the state forces  that would usurp control of the City's 
airports by launching development of a new airport in the Southwest 
suburbs and creating a Regional Airports Authority responsible for the 
third airport development and for operation and maintenance of ORD and 
MDW.\1\
---------------------------------------------------------------------------
    \1\Exhibit C 76 (italic emphasis in original, boldface emphasis 
added.)
---------------------------------------------------------------------------
                                 ______
                                 
    So Mayor Richard M. Daley (pre-Lake Calumet) falsely claimed that 
no new capacity was needed in the region. Then he flip-flopped and 
admitted that new airport capacity was needed. Then Mayor Daley flip-
flopped again when Lake Calumet failed and now continues to claim that 
no new airport capacity is needed. His chief consultant knew Chicago 
was lying in 1993 and Chicago knows it is lying today.
    Chicago is continuing its ``guerilla war'' against the economic 
welfare of the region by fighting the construction of the new regional 
airport capacity the region needs and by secretly planning massive new 
runway expansion at O'Hare.
                                 ______
                                 
 Exhibit 8.--Deceiving The Public By Claiming The New Runways Are For 
  Delay Reduction when Chicago Knew That New Runways Mean Additional 
                                Flights

    Chicago and the airlines have tried to argue that new runways are 
needed to reduce delays and are not intended to increase the capacity 
and the number of aircraft operations. Chicago even went so far as to 
rename a ``capacity enhancement'' study Chicago was conducting from 
1988-1991 as a ``Delay Task Force Study''.
    Yet internal contract documents show that the ``Delay Task Force'' 
effort was really a ``Capacity Enhancement Plan'' that would increase 
O'Hare's flight capacity by several hundred thousand flights per year. 
See Evidentiary Appendix at p. 21 and See Exhibit 260.
    In March 1993, Chicago own consultants warned Chicago officials 
that claiming that new runways were only for delay reduction was not 
truthful. The consultants told Chicago that the new runways were also 
intended for increasing the number of flights.
    Development of a new O'Hare runway(s) is certain to be 
controversial. Accordingly, it is imperative that the City do 
everything possible to present its case for the new runway(s) such that 
the probability of a successful outcome is maximized.
    During internal strategy discussions to date, the City has 
recognized two possible alternative ways in which to characterize the 
purpose and need for new runway development at O'Hare: delay reduction 
or capacity enhancement.
    [C]apacity enhancement is a more accurate characterization of what 
the City really intends to seek.
    The City's real intentions in building a new runway(s) at O'Hare 
include both delay reduction and capacity enhancement.
    The net effect of this will be that the Airport will accommodate 
more annual operations than either it is accommodating today or than it 
could accommodate in the future without new runways.
    To the suburbanite living near the airport, providing capability to 
handle more annual operations is capacity enhancement pure and simple.
    Further, the City appears to be avoiding the issue by only 
developing a plan to address aviation needs through the year 2005.\2\
---------------------------------------------------------------------------
    \2\ Exhibit C 89 (italicized emphasis in original, boldfaced 
emphasis added).
---------------------------------------------------------------------------
                                 ______
                                 
     Exhibit 9.--Hiding the New O'Hare Master Plan From the Public

    In 1990 Chicago lied to the O'Hare communities, the DuPage County 
Regional Planning Commission, and the Northeastern Illinois Planning 
Commission when it told these organizations that Chicago would be 
preparing a Master Plan Update to examine all alternatives for adding 
capacity in the region.
    Public participation is inherent in the planning process. . . . As 
part of the public participation that will occur in connection with the 
master plan, the City of Chicago will report periodically to the O'Hare 
Advisory Committee. Consistent with OAC's role as an advisory body, the 
City of Chicago expects that the OAC will provide its views in the 
master planning process. The City of Chicago will seek and welcome the 
OAC's comments along with those from other public and private parties 
affected by O'Hare.
                                 ______
                                 
    That same year Chicago officials secretly met with United Air Lines 
officials to discuss the new Master Plan. They (Chicago and United 
officials) all agreed that a new Master Plan was needed but decided to 
do a secret Master Plan with the express purpose of limiting public 
participation--and in particular hiding the master plan from the 
Suburban O'Hare Commission.
    Yesterday, at their request, I met with Franke, Loney, and 
Freidheim, here at EXO [United Executive Headquarters] to discuss a 
potpourri of O'Hare Planning Issues. Attached is a list of projects, 
developed by Kitty's staff enumerating projects that might be included 
in an ODP-II.
    We agreed that a Master Plan was necessary but Franke and Freidheim 
are very concerned that a formal FAA sponsored Plan would require 
significant public participation, (specifically SOC).\3\
---------------------------------------------------------------------------
    \3\ The ``SOC'' referred to here is the ``Suburban O'Hare 
Commission.''
---------------------------------------------------------------------------
    To shorten the planning process I thought the airlines might agree 
to fund the Master Plan without FAA money to limit outside 
participation prior to preparing the E.I.S.
    Chicago and the O'Hare Airlines then proceeded to prepare a secret 
multi-million dollar Master Plan for expansion of O'Hare. They 
attempted to disguise the Master Plan by giving the Master Plan a 
series of aliases (``Airport Layout Plan Update''; Global Hub 
Implementation Plan; and finally ``Integrated Airport Plan''.
    Exhibit 10.--Relationship Between Delay Reduction and Capacity 
Increases
      
    [GRAPHIC] [TIFF OMITTED] T8897.002
    
                                 ______
                                 
    Exhibit 11.--Relationship Between Delay Reduction and Capacity 
                               Increases 

[GRAPHIC] [TIFF OMITTED] T8897.003

                                 ______
                                 
      Exhibit 12.--The Analytical Framework That Governs Airport 
                            Decision Making

    In order to understand the evidence in this case, it is useful to 
further summarize the analytical framework that governs decision-making 
about airport expansion. This framework is discussed extensively in the 
Evidentiary Appendix in the chronological narrative, but a more concise 
outline may be helpful.
    1. Demand vs. capacity. Airport expansion is governed by two simple 
concepts: forecast passenger and traffic demand vs. calculation of the 
capacity of the airport.
    2. Does existing or forecast demand exceed the capacity of the 
airport? If demand exceeds capacity then expansion of the airport--or 
as an alternative construction of another airport--is needed.
    3. The forecast demand drives the entire analysis. Central to the 
decision whether to expand an airport--and central to any disputes as 
to whether facilities such as runways are needed--is the Demand 
Forecast. The Demand Forecast drive the entire analysis: The Aviation 
Demand Forecast serves as the foundation for planning future airside, 
terminal and landside facilities.\1\
---------------------------------------------------------------------------
    \1\ Plaintiffs Exhibit C70.
---------------------------------------------------------------------------
    Thus Demand Forecast is computed as both number of passengers and 
number of aircraft operations and is then used to compare demand with 
the capacities of the airside, the terminals and the landside.
    4. Measure of airfield capacity. Airfield capacity is defined by 
the number of operations that can be handled at an acceptable level of 
delay.
    The practical capacity of the airfield will be defined as the 
maximum level of average all-weather throughput achievable while 
maintaining an acceptable level of delay. . . . Ten minutes per 
aircraft operation will be used as the maximum level of acceptable 
delay for the assessment of the existing airfield's capacity. . . . 
This level of delay represents an upper bound for acceptable delays at 
major hub airports. . . .\2\
---------------------------------------------------------------------------
    \2\ Plaintiffs Exhibit MP4, p. II-1 (italic emphasis added).
---------------------------------------------------------------------------
    Airfield capacity analysis is typically done--and was done here by 
Chicago--with and FAA capacity/delay computer model called SIMMOD.\3\
---------------------------------------------------------------------------
    \3\ While most of the reports are in evidence to prove that the 
capacity analysis was performed, two of the SIMMOD reports show that 
current levels of traffic delays exceed the level of delay which 
Chicago has defined as the capacity at O'Hare. See Plaintiffs Exhibit 
S4, Bates No. OH/DU 0097476, and Plaintiffs Exhibit S17, Bates No. OH/
DU 002855.
---------------------------------------------------------------------------
    5. Long-term planning. Long-term planning of airport needs is 
typically done in a master planning process\4\ that ``integrates'' the 
capacity and needs of the three major airport components--airside, 
landside, and terminal.
---------------------------------------------------------------------------
    \4\ Because Chicago has not wanted to involve the public in the 
master planning process, Chicago has disguised the Master Plan process 
with a series of euphemistic names such as ``Global Hub Feasibility 
Study,'' ``O'Hare Beyond 2000,'' and most recently, the ``Integrated 
Airport Plan.''
---------------------------------------------------------------------------
    Mr. Ursery stated that it is necessary to integrate and balance the 
three components (airfield, terminal, and ground access). . . .\5\
---------------------------------------------------------------------------
    \5\ Plaintiffs Exhibit C82 (italic emphasis added) .
---------------------------------------------------------------------------
          *        *        *        *        *        
    The key to implementing the comprehensive plan will be to balance 
the capacities of all three main elements: airside, terminal, and 
landside in each phase and to match demand with capacity as Chicago's 
O'Hare International Airport moves into the 21st century.\6\
---------------------------------------------------------------------------
    \6\ Plaintiffs Exhibit C114 (italic emphasis added). For evidence 
of the integration of airside, landside and terminal elements, see: 
Plaintiffs Exhibit C95A (``[T]he planning team should focus its 
attention on integrating the airfield, terminal, and ground access 
elements of the most viable plan.''); Plaintiffs Exhibit C49 (``Using 
the short-list of airport component alternatives, a series of 
integrated airport facility concepts will be developed.''); Plaintiffs 
Exhibit C44 (``Our key technical role will be in the airside 
simulation/planning, ALP preparation (integration of the landside/
terminal work with the airside)''); Plaintiffs Exhibit C70 (``L&B will 
coordinate with the landside/terminal contractors to integrate terminal 
and roadway concepts with each airfield concept.''); Plaintiffs Exhibit 
C82 (``Mr. Ursery stated that it is necessary to integrate and balance 
the three components (airfield, terminal, and ground access) ''); 
Plaintiffs Exhibit C209 (``The plan must not forego long-term 
requirements for the sake of short-term success; therefore it must not 
be developed in a vacuum. The program must view the airport as a single 
integrated system.'') (Italic emphasis throughout added.) See also 
Plaintiffs Exhibits C55, C56, C60, C61, C62, C70, C74, C80, C89, C90, 
C133, and C138 for references to the need for an integration of the 
components of the airport.
---------------------------------------------------------------------------
    Applying this framework to Chicago's current long-term planning, it 
clear demand already exceeds the runway capacity at O'Hare. One does 
not need the FAA's SIMMOD model to know that O'Hare's runways are 
choking on too much traffic. Either new runways are needed at O'Hare or 
a new airport needs to be built.
    These facts are confirmed by Chicago's own demand capacity 
analysis. As discussed above, Chicago's SIMMOD capacity analysis shows 
that O'Hare operations already exceed the delay levels which Chicago 
has defined as the capacity of the airport.
    Even if one accepts the unsupported claim in Chicago's documents 
that O'Hare has a capacity of 946,000 operations,\7\ Chicago's own 
demand forecast says that demand at O'Hare will exceed the 946,000 
operation capacity in approximately the year 2007\8\--about the same 
time Chicago is completing construction of the 5 billion dollars worth 
of terminal and road expansion.
---------------------------------------------------------------------------
    \7\ Plaintiffs Exhibits C156 and C158.
    \8\ Plaintiffs Exhibit C203, Bates No. OH/KF020806. Plaintiffs 
emphasize that even the 2007 figure is based on Thomas's claim that the 
capacity of O'Hare is 946,000 operations if and only if certain as yet 
to be achieved ATC technologies come into being. Compare the Chicago 
Demand Forecast of June 1998 (C 223)(which Chicago says is the forecast 
demand used to design the World Gateway Program) with Landrum & Brown's 
Jeff Thomas capacity forecast of 946,000 operations. (C 155, EA at 
114). According to these documents--which are optimistic--O'Hare runs 
out of runway capacity by 2007.
    Thus the timing of the runways in the Integrated Airport Plan as 
after the year 2012 is a sham--whether one accepts the reality that 
O'Hare is out of capacity now (as do the airlines) or whether one 
accepts Chicago's year 2007 figure.
---------------------------------------------------------------------------
    Indeed, Chicago's own experts have repeatedly stated that there is 
sufficient existing terminal capacity--the current capacity shortfall 
is in the need for new runways and roads.
    The terminal operation must balance as equally as possible with 
airside capacity. At the present time the terminal appears to be 
somewhat overbuilt because the utilization of the airfield is maximized 
all through an average day at O'Hare and many terminal gates are 
underutilized (based on either annual passenger throughput or aircraft 
operations per gate as compared to other U.S. domestic hub airports).
    In a balanced operational scenario, additional airfield capacity 
could provide the impetus for more terminal facilities. If no 
additional airside capacity is provided, there should be no need for 
additional terminal facilities.\9\
---------------------------------------------------------------------------
    \9\ Plaintiffs Exhibit C91 (italic emphasis added) .
---------------------------------------------------------------------------
    A comprehensive planning effort [Master Plan Update] was recently 
undertaken to provide for O'Hare's future and to attempt to bring the 
capacities of the key Airport components into balance with one another. 
. . . Of the three main components [Airside, Landside, Terminal] at the 
Airport, only the passenger terminals have any spare capacity today and 
this surplus is found primarily at one location at Terminal 2.\10\
---------------------------------------------------------------------------
    \10\ Plaintiffs Exhibit C114 (italic emphasis added).
---------------------------------------------------------------------------
    While the $2 billion ODP, begun in 1981 and just now reaching 
completion, provided modern, state-of-the-art terminal facilities, 
including the world-class International Terminal, it did not provide 
additional runway or access roadway capacity, the two current 
constraining elements of the O'Hare airport system.\11\
---------------------------------------------------------------------------
    \11\ Plaintiffs Exhibit C157 (italic emphasis added).
---------------------------------------------------------------------------
    What this analytical framework and this evidence demonstrates 
(along with the explicit evidence on the Integrated Airport Plan\12\) 
is that the real current capacity constraints at O'Hare are the runways 
and the roads--not terminals. Everyone--except Chicago--now agrees that 
O'Hare is out of runway capacity\13\. The only two choices are either 
new runways at O'Hare (Chicago's secret choice) or a new airport. 
Chicago should not be allowed to segment pieces of the Integrated 
Airport Plan--putting forward only the terminal and roadway segments 
while hiding the need for runways (or a new airport) from the state 
permitting process and public debate.
---------------------------------------------------------------------------
    \12\ Evidentiary Appendix pp. 137-47.
    \13\ Even the airlines--through their consultant Booz-Allen--now 
agree that O'Hare is out of runway capacity. The airlines and their 
consultant Booz-Allen have recently candidly admitted what Plaintiffs 
and others have been saying for some time--O'Hare is out of runway 
capacity now. Booz-Allen now says: ``The timing for adding new runway 
capacity [at O'Hare] will have to be accelerated significantly.'' C 
256a EA at 148.
---------------------------------------------------------------------------
                                 ______
                                 
    Exhibit 13.--Comparison of Hazardous Air Pollutants from O'Hare 
   International Airport with Largest Reported Sources of Recognized 
                     Carcinogens to Air in Illinois


------------------------------------------------------------------------
                 Rank                        Facility Name         TPY
------------------------------------------------------------------------
1....................................  O'Hare International       346.75
                                        Airport (HAPs per KM
                                        Chng).
2....................................  No-Sag Foam Products       283.62
                                        Corp. (West Chicago).
3....................................  General Foam Corp.         241.97
                                        (Bridgeview).
4....................................  GE Co. (Ottawa).........   219.45
5....................................  Burkhart Foam, Inc.        209.38
                                        (Cairo).
6....................................  Senior Flexonics, Inc.     140.63
                                        (Bartlett).
7....................................  Remline Co. (Yorkville).   129.07
8....................................  Cerro Copper Products      118.10
                                        Co. (Sauget).
9....................................  Dow Chemical (Channahon)   106.66
10...................................  Abbott Labs (North          97.40
                                        Chicago).
11...................................  Solutia, Inc. (Cahokia).    75.65
12...................................  Shell Wood River            70.25
                                        Refining (Roxana).
21...................................  Borden Chemicals &          33.78
                                        Plastic (Illiopolis).
31...................................  BF Goodrich Co. (Henry).    21.19
34...................................  Koppers Ind., Inc.          18.19
                                        (Cicero).
41...................................  Amoco Chemical Co.          15.14
                                        (Shannahon).
51...................................  Marathon Ashland            11.67
                                        Petroleum L.L.C.
                                        (Robinson).
66...................................  Clark Refining &             8.43
                                        Marketing, Inc. (Blue
                                        Island).
70...................................  PDV Midwest Refining         7.68
                                        L.L.C. (Lemont).
84...................................  Chrysler Corp.               6.80
                                        (Belvidere).
88...................................  Kerr-McGee Chemical          6.54
                                        L.L.C. (Madison).
89...................................  Chemical Processing,         6.51
                                        Inc. (Rockford).
94...................................  Acme Finishing Co., Inc.     6.11
                                        (Elk Grove Village).
------------------------------------------------------------------------
* Source (other than O'Hare International Airport): Environmental
  Defense Scorecard Pollution Ranking Database (http:www.scorecard.org).
  Emission levels are of recognized carcinogens to air, as reported by
  the listed companies in their Toxic Release Inventory (TRI) reports,
  required to be reported annually under Section 313 of the Emergency
  Planning and Community Right-to-Know Act (EPCRA), 42 U.S.C. Sec.
  11023, and retained in the U.S. EPA TRI Database.

                                 ______
                                 
   Exhibit 14.--The Civic Committee/Booz-Allen/United Airlines/Oscar 
                     D'Angelo/Gary Chico connection

    The Civic Committee's call for new runways at O'Hare is purportedly 
based on an economic study of the airport needs of the region performed 
by the firm of Booz-Allen & Hamilton.
    What most people don't realize is that Booz-Allen is a consultant 
to United Airlines and that United Airlines paid for the Booz-Allen 
Study. Nor do people realize the role of confidential mayoral advisor 
Oscar D'Angelo and Gary Chico, United's lawyer and former Chief of 
Staff to Mayor Daley, in shaping the outcome of the study.
    On February 4, 1998, Gerald Greenwald CEO of United airlines wrote 
Mayor Daley:
    We also spearheaded the effort at the ATA to have the entire 
airline industry express its views to the Governor.
    We have retained Booz, Allen & Hamilton to conduct a study 
reflecting the value of the entire existing Chicago airport system; the 
significance of O'Hare as a ``hub'' airport; the capacity of the 
existing system and the needs of the community for the foreseeable 
future; and the impact that a third airport would have on the system. 
(See Evidentiary Appendix at 137.)
    Oscar D'Angelo is a reported confidante of Mayor Daley, and 
according to the Chicago Tribune, is the beneficiary of a contract with 
Landrum & Brown which pays D'Angelo large sums of money for serving as 
Landrum & Brown's liaison with the Mayor. A May 28, 1998 memo from 
Goldberg of Landrum & Brown to Oscar D'Angelo relates a meeting between 
D'Angelo (Landrum & Brown's agent) and Gary Chico (lawyer for United) 
on May 26, 1998. The memo suggested that Booz-Allen knew in 1998 that 
runway capacity at O'Hare was or would soon be exhausted and that new 
runways would be needed much sooner.
    I am pleased that you were able to meet with Gerry Chico this 
morning regarding the release of the Booz-Allen & Hamilton (BA&H) 
report of Chicago Airport System demand and capacity. I understand that 
you successfully convinced him that the City would best be served if 
the BA&H study did not reference the need for additional runways. 
Instead the Study might suggest that the region's aviation needs could 
well be served through the reasonably foreseeable future by means of a 
modernization program that considers the use of new technology and the 
eventual reconfiguration of the Airport's forty year old runway 
geometry.
    Oscar D'Angelo is apparently the conduit between Landrum & Brown 
and Mayor Daley on the ``quad runway'' reconfiguration plan. See EA at 
pp. 130-132.
    After the first Booz-Allen report--paid for by United--Booz-Allen 
did a supplemental report, now asserting that runways should be built 
as soon as possible. The supplemental Booz-Allen report did nothing to 
change the economic analysis of the first Booz-Allen report which 
claimed that virtually all growth must go to O'Hare. In summary, the 
entire Booz-Allen economic rationale of the Civic Committee's proposal 
is based upon a report bought and paid for by United airlines. And 
Booz-Allen's views are in turn shaped by back room communications 
between Gary Chicago and Oscar D'Angelo.
                                 ______
                                 
   Exhibit 15.--Daily Herald: Don't Rush to OK Unseen O'Hare Plans, 
                              May 25, 2001

OUR VIEW: THE PUBLIC HAS SEEN NO MAPS. NO ENVIRONMENTAL IMPACT STUDIES. 
           NO COST ESTIMATES. NO TIMETABLES FOR CONSTRUCTION.

    Last week, there was talk of cutting a legislative deal on O'Hare 
International Airport by the time lawmakers adjourn this week. Then 
Sen. Dick Durbin declared that Gov. George Ryan and Mayor Richard M. 
Daley have until July 1 to reach an agreement on runways--or else 
Congress will step in and impose its will.
    Whoa; let's slow down a minute.
    That pressure is building to do something about Chicago's airport 
capacity is no surprise. Delays at O'Hare cause flights to back up 
across the country, wasting travelers' precious time and imposing a 
high cost on commerce. Outside pressure of some sort probably was 
necessary to break the long-standing impasse between Republican 
governors, who have opposed runways and favored construction of a third 
major airport, and Dale,y who opposes construction of any airport the 
city doesn't control and presumably has long been in favor of new 
runways at O'Hare.
    We say presumably, because the city has never taken a single public 
step to advance any specific plans for new runways or reconfiguration 
of existing runways. That remains true to this day, although Daley now 
says a newly formed delay task force will try to have a plan ready to 
hit Durbin's July 1 deadline. And American Airlines, for its part, is 
offering to show Gov. Ryan the runway plan it would prefer.
    But keep in mind that the public has seen no maps. No environmental 
impact studies. No cost estimates. No timetables for construction. No 
analysis of how flight schedules might be further disrupted or delayed 
during construction--particularly if the city wants a radical 
reconfiguration that would result in two or more new sets of parallel 
runways. No reports of what the capacity of an updated O'Hare would be. 
No assessment of related noise and safety issues. The complete absence 
of plans and cost-benefit analyses does not seem to deter those who 
suddenly insist that we must commit to an O'Hare plan--even plans 
unseen--and that we do so, in essence, right now. The absence of 
construction timetables does not seem to disturb those who insist that 
O'Hare runways are the short-term answer for more capacity, even though 
the city aviation commission itself says it is very possible that new 
runways would not be operational for at least 10 years.
    Yes, it is time--past time--to get serious about increasing airport 
capacity in the Chicago region. But O'Hare is not the only piece of the 
puzzle. A third airport in Peotone--which possibly could provide more 
capacity than O'Hare runways and perhaps do so earlier and at less 
cost--must be part of any reasonable discussion. To assume and declare 
that O'Hare is the only answer or the main answer before we know what 
the city and airlines have in mind is more than just bad planning--it 
is no planning at all.
                                 ______
                                 
           Exhibit 16.--Daily Southtown, Friday, June 8, 2001

                  O'HARE TASK FORCE KEEPS DOOR CLOSED

    For 20 years the city of Chicago has been conducting a campaign to 
sabotage plans for a third airport in the south suburbs. Documents 
prepared by Landrum & Brown, the city's aviation consultant, and 
recently unsealed by court order include a game plan for a ``guerrilla 
war'' against the third airport.
    This week, the so-called ``O'Hare Delay Task Force'' held its first 
meeting. Landrum & Brown is providing the data and forecasts for the 
task force, which has decided to meet behind closed doors, barring 
south suburban officials, the public and the press from attending.
    The documents released by the recent court order showed that 
Landrum and Brown advised Chicago on how to stall progress on a third 
airport and protect O'Hare and Midway airports and their airlines from 
possible competition at Peotone or another south suburban site. Chicago 
fought for years in court to keep the documents secret, and now city 
officials apparently are dedicated to keep the task force meetings 
secret as well.
    The decision to bar the public from a task force meeting Tuesday 
was called ``improper and unseemly'' by U.S. Rep. Henry Hyde (R-6th) of 
Bensenville, who has worked for years with O'Hare's suburban neighbors 
to discourage expansion of the airport. Hyde urged Federal Aviation 
Administrator Jane Garvey to open the meetings--which, Hyde noted, 
include representatives of United and American Airlines and 14 other 
air carriers.
    Joseph Karaganis, a lawyer for the anti-expansion suburbs, tried to 
enter the meeting but was barred. ``If this happened in any other 
community, officials would be in jail,'' Karaganis said.
    The fact is, the Cook County state's attorney and Illinois attorney 
general treat Chicago as if it were exempt from the Open Meetings Act. 
And it was clear at the task force meeting that Chicago Aviation 
Department officials have every expectation that the task force will be 
allowed to carry on its business in secret.
    As Hyde wrote, that is ``improper and unseemly.'' The task force 
meetings should be open to the public and press.
    But then, how often do people involved in a guerrilla war invite 
the press and the public to attend their planning sessions?
                                 ______
                                 
                              Exhibit 17 

[GRAPHIC] [TIFF OMITTED] T8897.004

          Prepared Statement of the Suburban O'Hare Commission

           ONE ASPECT OF THE MONOPOLY FARE PROBLEM AT O' HARE

    There has been much discussion over the issue of high fares charged 
by the dominant airlines at O'Hare--United Airlines and American 
Airlines--to business travelers using O'Hare airport. For many years, 
business travelers at O'Hare--those who usually travel in a 0-14 day 
window on short term business trips--have complained about the high 
prices charged by American and United for travel from O'Hare to many 
major business destinations such as New York's LaGuardia, Boston Logan, 
Washington National and West Coast cities.
    For example, the cost: of a single economy coach round trip ticket 
for flights from O'Hare to major business destinations next Tuesday 
June 19, 2001 is as follows: O'Hare to Boston: $1,556.00; O'Hare to 
LaGuardia (NY): $1,297.00; O'Hare to Wash. National: $1,297.00; O'Hare 
to Los Angeles (LAX): $2,304.00; O'Hare to San Francisco: $2,361.00.
    An examination of fares to these cities in the 0-14 day window so 
critical to business travelers shows that United and American typically 
keep economy coach fares at these high levels for several of these 
major business destinations throughout the 14 day period. This means 
that Chicago area business travelers must pay punishingly high fares 
for basic business travel out of O'Hare to major business centers 
within a 0-14 day window.
    United and American have defended these high fares suggesting that 
these high fares are not caused by a lack of competition, but simply by 
the fact that travel in a short time window is necessarily high cost. 
In a study cited by allies of United and American--and paid for by 
United--United's long-time business consultant, Booz-Allen and Hamilton 
claimed that there was not a monopoly high fare problem at O'Hare.
    To test this argument, the Suburban O'Hare Commission conducted a 
study of published internet fares for travel to major business centers: 
(1) by Chicago-based travelers from O'Hare and (2) by travelers from 
so-called ``spoke'' cities who connect through O'Hare to the same 
business destinations. For example, a traveler from Springfield to 
Washington National might deplane at O'Hare and then get on a plane at 
O'Hare to Washington National with a Chicago-based traveler who begins 
his or her trip at O'Hare. Similarly, a traveler from Madison, 
Wisconsin to LaGuardia might deplane at O'Hare and also board a plane 
at O'Hare to LaGuardia with a Chicago-based traveler who begins his or 
her trip at O'Hare.
    All other things being equal, one would expect that the traveler 
from the spoke city connecting at O'Hare to a major business 
destination would pay a higher fare than the Chicago-based traveler. 
The spoke city traveler is using two aircraft and traveling a greater 
distance than the Chicago-based traveler.
    To see if Chicago-based travelers are being treated fairly by 
United and American in the critical short term business travel, we 
attempted to determine if travelers from spoke cities were being 
charged the same very high fares charged to Chicago business travelers. 
We found two surprising facts:
    1. Travelers in spoke cities where there is strong competition 
frequently pay a far lower fare than the Chicago-based passenger who is 
traveling on the same plane.
    An example can be found in the flight to Boston on June 19, 2001: 
O'Hare to Boston (Chicago based traveler) 6-19: $1,556.00; Springfield 
to O'Hare to Boston (same plane as Chicago-based traveler) 6-19: 
$386.00; Peoria to O'Hare Boston (same plane as Chicago-based traveler) 
6-19: $452.00; Madison, WI to O'Hare Boston (same plane as Chicago-
based traveler) 6-19: $613.00.
    In this example the Chicago-based traveler paid anywhere from 200 
percent to 400 percent more than the spoke city traveler--more than 
$1,500 for the Chicago-based traveler and as low as $386 for the 
``spoke'' city traveler even though the spoke city traveler and the 
Chicago-based traveler flew on the same day and the same flight from 
O'Hare to Boston.
    Another example can be found in the flight to Washington National 
on June 19, 2001: O'Hare to Washington National (Chicago-based 
traveler) 6-19: $1,386.00 6-19; Springfield to O'Hare to Washington 
National (same plane as Chicago-based traveler) 6-19: $558.00; Grand 
Rapids, MI to O'Hare to Washington National (same plane as Chicago-
based traveler) 6-19: $799.00; Madison, WI to O'Hare to Washington 
National (same plane as Chicago-based traveler 6-19: $613.00.
    Again, in this example the Chicago-based traveler paid anywhere up 
to 200 percent more than the spoke city traveler--more than $1,300 for 
the Chicago-based traveler and as low as $613 for the ``spoke'' city 
traveler even though the spoke city traveler and the Chicago-based 
traveler flew on the same day and the same flight from O'Hare to 
Washington National.
    Another example can be found in the flight to LaGuardia (New York) 
on June 19, 2001: O'Hare to LaGuardia (Chicago-based traveler) 6-19: 
$1,1297.00; Peoria to O'Hare to LaGuardia (same plane as Chicago-based 
traveler) 6-19: $501.00; Grand Rapids, MI to O'Hare to LaGuardia (same 
plane as Chicago-based traveler) 6-19: $519.00; Madison, WI to O'Hare 
to Washington National (same plane as Chicago-based traveler) 6-19: 
$803.00.
    Again, in this example the Chicago-based traveler paid anywhere up 
more than 200 percent more than the spoke city traveler--almost $1,300 
for the Chicago-based traveler and as low as $519 for the ``spoke'' 
city traveler even though the spoke city traveler and the Chicago-based 
traveler flew on the same day and the same flight from O'Hare to 
LaGuardia.
    A final example is the flight to Los Angeles from O'Hare on June 
19, 2001: O'Hare to Los Angeles LAX (Chicago-based traveler) 6-19: 
$2304.00; Peoria to O'Hare to LaGuardia (same plane as Chicago-based 
traveler) 6-19: $501.00; Toledo, Ohio to O'Hare to LaGuardia (same 
plane as Chicago-based traveler) 6-19: $864.00; Madison, WI to O'Hare 
to Washington National (same plane as Chicago-based traveler) 6-19: 
$620.00.
    Again, in this example the Chicago-based traveler paid anywhere up 
more almost 400 percent more than the spoke city traveler--$2,300 for 
the Chicago-based traveler and as low as $620 for the ``spoke'' city 
traveler even though the spoke city traveler and the Chicago-based 
traveler flew on the same day and the same flight from O'Hare to Los 
Angeles.
    These fare comparisons demonstrate that in spoke cities where 
American or United has significant competition with other hub airports 
and airlines (e.g., Northwest, and Continental) the fares charged to 
the spoke city traveler are far lower than the Chicago-based passenger 
is paying on the same flight. Since the fare comparisons were for the 
same flights on the same day, United and American cannot use calendar 
differences or cost differences as an excuse for the much higher fares 
charged to the Chicago-based business traveler.
    We also looked at the fares charged from Midway. While fares 
charged by ATA to these same business destinations on the same day are 
far lower than those charged by United and American at O'Hare, ATA 
offers far fewer flights and seats and apparently is not able to mount 
a significant enough competitive challenge to United and American's 
market dominance to drive the O'Hare fare prices down to anything close 
what the spoke city traveler is paying.
    When these huge fare premiums charged to the Chicago-based traveler 
at O'Hare are added up over tens of thousands of passengers over the 
course of a year, it is easy to see why the State of Illinois has 
stated that the lack of competition in the Chicago region and the 
dominance by United and American is costing Chicago area travelers 
several hundred million dollars per year.
    2. There is more than one hubbing airport operation in the Chicago 
region.
    One of the central arguments made by United and American and their 
business allies such as the Civic Committee is that virtually all the 
growth must occur at O'Hare rather than at a new regional airport--
because, according to them, the region can only operate a single hub 
airport. But our fare study of Chicago and spoke cities revealed that 
the Chicago region currently has three hubbing airports--O'Hare, 
Midway, and Milwaukee. Many of the spoke cities served by United and 
American from O'Hare are also served by hub-and-spoke operations from 
Midway (ATA) and Milwaukee (Midwest Express). Unfortunately, neither of 
these airports provides sufficient capacity for these hubbing 
operations to grow to sufficient size and frequency to provide 
significant competitive pressure on the high fares charged to Chicago-
based business travelers at O'Hare. Indeed, based on current rates of 
growth, Midway will be out of capacity in about 3 years.

                               CONCLUSION

    United and American's own published internet fares demonstrate that 
these two airlines charge Chicago-based business travelers hundreds and 
thousands of dollars more than travelers from spoke cities who connect 
through O'Hare and travel on the same plane out of O'Hare to the same 
business destination as the Chicago based traveler. These extremely 
high fares for the Chicago based business traveler out of O'Hare appear 
to be based on the lack of significant competition in the Chicago 
region for the hub-based Chicago traveler. Where such competition in 
the spoke cities exists, the fares to the same destination on the same 
day on the same flights are much lower for the spoke traveler than for 
the Chicago-based traveler.

    Senator McCain. Thank you, sir. Welcome, Mr. Crown. Thank 
you for being here. And if you could move the microphone over.

         STATEMENT OF LESTER CROWN, CHAIRMAN, MATERIAL 
            SERVICE CORPORATION AND CHAIR OF CIVIC 
                COMMITTEE'S AVIATION TASK FORCE

    Mr. Crown. Thank you, Mr. Chairman. I'm here as the Chair 
of the Civic Committee's Aviation Task Force and joining me is 
Eden Martin who is the President of Civic Committee and also 
will be available to answer questions afterwards.
    The Civic Committee, I think as you know, is a group of 
senior executives from most of the major corporations and the 
professional firms and universities here in Chicago. And it's 
dedicated to improving the economic and the social vitality of 
this region.
    Our members have offices and plants and people living not 
just in the city of Chicago, but in all of the suburbs. It is a 
regional organization. And from that we have, obviously, we 
have a huge stake in the economic and the aviation future of 
this region.
    The preeminence of Chicago as a transportation hub is 
really in jeopardy, as all of you said this morning. The 
operations at O'Hare have been stagnant at 900,000 operations 
for the last few years. And it doesn't appear that under 
existing weather conditions in Chicago, that you can, at the 
existing airport, have more than 900,000 operations as time 
goes on.
    The predictions that you all talk about are true. All of 
our predictions on airline travel really have been less than 
what has occurred whether it's been the City or the state or 
the federal. The result has been larger than what we have 
anticipated to begin with.
    And as far as the members of the Civic Committee and the 
whole business community in Chicago are concerned, we are 
absolutely convinced that the primary way to address the 
shortage of aviation capacity is first to add one or more 
runways at O'Hare.
    Actually, maybe it's almost hard to say now, but the Civic 
Committee has been recommending the expansion of the O'Hare 
Airport for 20 years. Obviously, it's fallen on deaf ears for 
quite sometime but we started this 20 years ago. That 
additional runway capacity at O'Hare obviously could benefit 
not just the Chicago region but West Virginia, Arizona, and 
every other place throughout the country.
    Half, approximately half, of all of the passengers who come 
through O'Hare either originate or terminate here. But the 
other half, such as you when you come through and so many 
others, go beyond. And O'Hare is the connecting point to other 
destinations for half of the people, over half of them that 
come through O'Hare.
    Now, similarly, airfreight shippers that use O'Hare use it 
as an intermediate point. As we've talked about here this 
morning, there's been very little progress, unfortunately, made 
locally with respect to increasing runway capacity at O'Hare 
because primarily because of the political situation and the 
competing efforts to build a third airport at Peotone and 
concerns about noise and traffic in the communities. And I'd 
like to address those three issues briefly just one at a time.
    A new airport at Peotone is probably a very good idea. But 
what it does is it increases the capability of point to point 
flights. This Committee is on record to support the suggestion 
for land banking and perhaps even then the building of a new 
airport at Peotone to provide the region with the flexibility 
to meet the increased aviation demand in the future.
    But if I can, I'd just like to emphasize as strongly as 
possible that Peotone is not a substitute for enhancing 
O'Hare's position as a national and international hub. And if 
we have kept the flights at O'Hare or split the hub now before 
you maximize the capacity of O'Hare, it just will not work as 
well.
    On splitting the hubs, it's been tried in many places. 
Paris is the natural hub for Europe. They put in two airports 
and the hubs became Amsterdam and Frankfurt. Montreal put in a 
second airport and they lost out and Toronto became the hub.
    New York has three airports. LaGuardia is obviously a point 
to point airport. JFK, if you think about it, is a point to 
point airport. For any of you that have tried to get into JFK 
and go beyond, you do the same thing the rest of us do. You 
take a cab to LaGuardia and go on from there. Newark is the 
hub. Washington is the exception. There's no question. National 
is a point to point airport. And both Dulles and Baltimore are 
hubs.
    However, Dulles is served by United primarily. Baltimore is 
served by US Airways. And if a passenger on United comes into 
Dulles, he doesn't have the opportunity to go to the 
destinations of US Airways that United doesn't fly to. So a 
single hub is the most effective and important type of 
operation that you can have. It doesn't mean that you can't 
have two hubs. It just isn't as efficient and shouldn't be done 
first.
    Now, second, I really want to say that communities around 
O'Hare have a stake in the future of the airport. And they have 
quality of life concerns that Senator Durbin talked about. 
Absolutely true. And they should be addressed.
    The City has spent over $300 million in soundproofing homes 
and schools around O'Hare. And should there be a commitment now 
to expand the runways of O'Hare, we completely agree that there 
should be a commitment of additional resources to mitigate 
those problems.
    Also, the other problems, Senator Durbin, should be 
addressed. You've got western access, eastern access and ground 
facilities to handle it. All of them have to be done. But the 
only way you increase the capacity of O'Hare as a hub and spoke 
airport is by the addition of an additional runway or two.
    We really very much appreciate the fact that this Committee 
has gotten into this problem. We think it's one of the most 
important things within this area on a economic basis. O'Hare 
is the economic engine for this region and a Booz-Allen and 
Hamilton, an independent report that we commissioned to have 
done says that if another runway, one more, just one additional 
runway goes into O'Hare, it will mean at least an additional 
100,000 jobs for this area.
    If you all remember, especially Senator Fitzgerald and 
Senator Durbin----
    Senator McCain. Your third point is? We're running out of 
time, sir. Please go ahead.
    Mr. Crown. Just we did an awful lot to entice Boeing to 
come in. And they brought 500 jobs. This would be 200 Boeings 
being brought to the Chicago region. Thank you very much.
    [The prepared statement of Mr. Crown follows:]

    Prepared Statement of Lester Crown, Chairman, Material Service 
     Corporation and Chair of Civic Committee's Aviation Task Force

    Good morning, Mr. Chairman. My name is Lester Crown. I am a member 
of the Civic Committee of The Commercial Club of Chicago and Chair of 
its Aviation Task Force. On behalf of our members, I would like to 
thank you, along with the other Committee members and Senators here 
today, for allowing us the opportunity to share the business 
community's viewpoint on the Chicago region's aviation future. We 
appreciate your efforts to solve the shortage of aviation capacity--
which we can all agree has reached a crisis stage across the country. 
Nowhere is the problem more pressing than at O'Hare Airport, which has 
become a major bottleneck in the national aviation system.
    The Civic Committee--a group of 68 senior executives from the 
Chicago region's leading businesses, professional firms, and 
universities--is dedicated to improving Chicago as a place to live, 
work, and conduct business. We believe that a strong and efficient 
aviation system is essential to the economic vitality and livability of 
Chicago and Northern Illinois. Our members have offices and plants 
throughout the city and suburbs, including in the communities around 
O'Hare. We have employees who use O'Hare for business and/or personal 
travel. We clearly have a huge stake in the economic and aviation 
future of the region; and we are unanimous in our support for adding 
runway capacity at O'Hare. In fact, we've been advocating new runways 
at O'Hare for almost 20 years.
    One of the Chicago region's proudest legacies is its historic 
position as a major transportation center of the United States. Chicago 
developed as a major industrial, commercial, and financial center, and 
its businesses have grown and provided jobs for millions of people, 
because of ready access to efficient surface and air transportation 
networks. Chicago grew initially because of its proximity to the inland 
waterway transportation network. It later became a major commercial 
center in the 19th century because it was a hub for the nation's major 
railways. In the 20th century, from the beginnings of commercial 
aviation, Chicago has been the leading aviation center in the United 
States. Midway Airport was at one time the busiest airport in the 
country. It was succeeded by O'Hare Airport, which became--and for 
decades remained--the busiest airport in the world.
    Chicago's growth as a transportation center was good not just for 
Chicago, but for the entire country. Our rail switching operations 
provided essential linkages for transcontinental movements of freight, 
linking suppliers and consumers throughout the country. O'Hare airport 
now serves the same role in the national aviation system--as a vital 
hub for the movement of both passengers and cargo. Both United and 
American Airlines operate networks of connecting flights and schedules 
at O'Hare; and several dozen other airlines also have significant 
operations at the airport. Roughly half of the airport's passengers 
originate or terminate their trips at O'Hare, benefiting Chicago and 
the region. But, as many of you know from personal experience, the 
other half of the passengers use O'Hare as a connecting point to 
another destination. Similarly, many air freight shippers use O'Hare as 
an intermediate point for their freight shipments.
    Today, Chicago's pre-eminence as a transportation center is in 
jeopardy. O'Hare Airport is approaching its capacity limitations. Its 
operations have remained stagnant at approximately 900,000 for the past 
few years, while other airports have experienced substantial increases 
in the number of flights. Flight delays and cancellations at O'Hare--
due primarily to inadequate runways--have reached an all-time high, 
creating a ripple effect across the country. The increasing delays and 
declining service at O'Hare adversely impact not only the people of 
Northern Illinois, but the citizens and businesses in Arizona, West 
Virginia, and other states throughout the country. Although other major 
American metropolitan centers--including Atlanta, Dallas/Ft. Worth, and 
Denver--have built new airports and added new runways, or are planning 
to build new runways, Chicago has not built new runway facilities at 
O'Hare for decades.
    According to a study conducted by Booz Allen and Hamilton for the 
Civic Committee, aviation demand is projected to increase substantially 
in the future, with a significant portion of the projected increase in 
international traffic. International traffic at O'Hare grew at a rate 
of over 12 percent between 1996-99. Because of its central location and 
scope of operations, O'Hare is a natural to become the primary mid-
continent international aviation hub.
    In order to protect and enhance its role as a primary aviation hub, 
Booz Allen concluded that Chicago should add new runways at O'Hare now. 
Additional runway capacity at O'Hare would significantly reduce delays 
and improve the efficiency of the national aviation system. 
Unfortunately, little progress has been made with respect to increasing 
runway capacity at O'Hare because of competing efforts to build a third 
airport at Peotone and concerns about noise in the communities around 
O'Hare. Let me address these issues one at a time.
    First, a new airport at Peotone or elsewhere may be a good idea to 
accommodate the projected increase in point-to-point flights and 
promote economic development throughout the region. We are on record in 
support of land-banking for a third airport in Peotone to provide the 
region with the flexibility to meet increased aviation demand in the 
future. But a new airport in Peotone is not a substitute for expanding 
O'Hare's position as an international and domestic hub. Capping the 
number of flights at O'Hare or splitting its hub operations with a new 
airport would lead to disaster. Similar efforts failed in Paris and 
Montreal.
    Secondly, we recognize that the communities around O'Hare also have 
a stake in the future of the airport. They have quality of life 
concerns related to the airport's operations, such as noise and traffic 
congestion, that must be addressed. However, we do not believe that the 
solution to addressing these issues is to allow O'Hare to wither on the 
vine. Once the City releases a detailed plan for the airport, it will 
undergo an extensive review process, including an environmental 
evaluation. Many of these quality of life concerns will be addressed 
during this process. Hundreds of millions of dollars have already been 
spent by Chicago on soundproofing homes and schools around the airport; 
and we believe that any agreement to reconfigure O'Hare should commit 
additional resources to further mitigate noise and traffic concerns. 
There are other issues that need to be addressed, including Western 
access to the airport, but none of these should be allowed to block the 
immediate improvement of O'Hare.
    We appreciate the efforts of this Committee and other members of 
Congress to improve O'Hare and its impact on the national aviation 
system. Certainly, our preference is to have this issue resolved on the 
local level, and we are encouraged by recent indications from Governor 
Ryan and Mayor Daley that they will soon consider plans to expand 
runway capacity at O'Hare. However, if all else fails--and our local 
leaders cannot reach an agreement--then the Federal Government should 
step in and resolve the issue.
    There are a number of initiatives that Congress should consider in 
the interim to help improve O'Hare and the national aviation system. 
For example, Congress should streamline the environmental review 
process for runway construction. According to the FAA, it takes them 
nearly 4 years, sometimes longer, to complete an environmental review 
of a runway construction project. As you know, the lengthy review 
process has bogged down runway expansion projects at other airports 
around the country. Congress should also empower the FAA to speed up 
the technological advancement of the nation's air traffic control 
system. Lastly, Congress should fund adequate capital and operational 
investments in aviation to ensure a safe and efficient national 
aviation system in the future.
    We, the Chicago region and the nation, cannot afford to allow 
O'Hare to languish in delays and unfulfilled potential. If we fail to 
act, increasing numbers of travelers will avoid O'Hare; and the 
airlines will schedule more flights via other metropolitan airports, 
putting additional pressure on a national system approaching its 
limits. We must decide now to expand runway capacity at O'Hare; and to 
that end, we pledge our continued support to this Committee, Governor 
Ryan, and Mayor Daley.

[GRAPHIC] [TIFF OMITTED] T8897.005

[GRAPHIC] [TIFF OMITTED] T8897.006

    Senator McCain. I thought you had three points.
    Mr. Crown. That's enough, sir.
    Senator McCain. Thank you very much, Mr. Crown.
    Mr. Paesel.

   STATEMENT OF EDWARD W. PAESEL, EXECUTIVE DIRECTOR, SOUTH 
SUBURBAN MAYORS AND MANAGERS ASSOCIATION, REPRESENTING THE KEEP 
                    CHICAGO/ILLINOIS FLYING 
                           COALITION

    Mr. Paesel. Thank you, Senator. I am the Executive Director 
of the South Suburban Mayors and Managers Association. Today 
I'm privileged to represent the Keep Chicago and Illinois 
Flying Coalition, which consists of state, municipal, and 
county elected officials for Cook, Will, DuPage and Kankakee 
Counties, as well as business leaders from the Chicago 
Southland, Will County and Kankakee County Regional Chambers of 
Commerce. And we also number organized labor, citizen groups 
and educators as part of our coalition. And many of them are 
behind me today in the audience.
    I come here today to reiterate and reinforce our 14-year 
effort, we need to reemphasize that. Our 14-year effort to 
expand the aviation capacity of the Chicago region. We have 
stood in a bipartisan effort, with the state of Illinois, its 
present and two previous Governors, in not only calling for but 
actually planning the aviation facilities that would serve the 
region, the state and the nation for the net 20 years and more.
    Some call us obstructionists. But it is we who, with the 
state, 14 years ago recognized the rapidly growing aviation 
demand and the lack of regional capacity to handle it. In the 
early 1990's, many forecasters foresaw the crisis conditions 
that finally overtook the national aviation system; Secretary 
Mineta, in 1997, warned that we were approaching gridlock.
    Chicago is a major contributor to that gridlock because its 
airport sponsors have refused to acknowledge these forecasts. 
As late as a year ago, O'Hare's two major airlines were stating 
publicly that they could accommodate demand well into the 21st 
Century. As late as a month ago, the city of Chicago testified 
to the state legislative aviation committee that O'Hare would 
not require runway expansion.
    Its adverse conditions and ripple effects, however, finally 
have pushed O'Hare to center stage, nationally. Many 
Congressional leaders must fly through Chicago and they know 
well its serious problems. Iowa's senators are asking that our 
Governor be stripped of his authority so that O'Hare can be 
expanded to serve their state's 2.9 million residents.
    We too believe that 2.9 million Iowans should be served 
through Chicago's aviation hubs. And we said that as early as 
1995 they predicted the loss of service to their cities, a 
forecast which, at the time, the airlines loudly protested.
    We applaud the courageous stand of Governor Ryan. His 
priority is the economic well-being of 12 million Illinois 
citizens. And our responsibility is to see that the 2\1/2\ 
million south suburbanites, who live within 45 minutes of the 
proposed south suburban airport, finally are well-served as 
well. Our travel time to O'Hare exceeds 2 hours, severely 
restricts our use and discourages the location of business and 
industry in our midst.
    Fourteen years of planning, often against the 
obstructionist actions of the City, the airlines and the 
Federal Government, have finally resulted in a thoroughly 
planned airport that could be operational within 5 years. The 
Federal Government has the authority to expedite the EIS for 
the south suburban airport that has been stalled for 4 years. 
We urge this Committee to press forward with a solution to the 
national aviation problem that is, one, environmentally 
sensitive, and, two, socially just.
    This can and should be achieved without abandoning the 
environmental safeguards that the nation has put in place. The 
south suburban airport plans are well-documented and publicly 
discussed. There are no similar plans for O'Hare runways that 
have been presented to the public. Because the environmental 
consequences of O'Hare's expansion are expected to be severe, 
documentation has been avoided and the need for expansion 
itself has been denied.
    Our airport plan protects the environment and enriches our 
citizens. In our service are of 2\1/2\ million residents, we 
have a job shortage of 450,000. This will grow to 550,000 if we 
continue to pile the region's aviation rewards into the areas 
surrounding O'Hare. Our communities can and must be revitalized 
and the region rebalanced with no additional public funding by 
building the south suburban airport. Building the south 
suburban airport can solve many of the nation's aviation 
problems and eliminate the region's growing economic divide in 
one fell swoop. It is smart growth in all respects.
    Finally, we ask that you truly listen to our concerns today 
because they are the concerns of the people. They are, as well, 
the concerns of local government and business leaders who 
offer, with the south suburban airport, solutions to the 
national and regional aviation crisis that are both short term 
and long term.
    Thank you for your attention.
    [The prepared statement of Mr. Paesel follows:]

   Prepared Statement of Edward W. Paesel, Executive Director, South 
    Suburban Mayors and Managers Association, Representing the Keep 
                   Chicago/Illinois Flying Coalition

    My name is Edward Paesel; I am the Executive Director of the South 
Suburban Mayors and Managers Association. Today, I also am privileged 
to represent the Keep Chicago/Illinois Flying Coalition, consisting of 
state, municipal and county elected officials from Cook, Will, DuPage 
and Kankakee Counties, as well as business leaders from the Chicago 
Southland, Will County and Kankakee County Regional Chambers of 
Commerce. We also number organized labor, citizen groups and educators 
as part of our coalition.
    I come here, today, to reiterate and reinforce our 14-year effort 
to expand the aviation capacity of the Chicago region. We have stood, 
in a bipartisan effort, with the State of Illinois, its present and two 
prior governors, in not only calling for, but planning, the aviation 
facilities that would serve the region, the State and the nation for 
the next 20 years, and more.
    Some call us obstructionists. But it is we who--with the state--14 
years ago, recognized the rapidly-growing aviation demand and the lack 
of regional capacity to handle it. In the early 1990's, many 
forecasters foresaw the crisis conditions that finally overtook the 
national aviation system; Secretary Mineta, in 1997, warned that we 
were approaching gridlock. Chicago is a major contributor to that 
gridlock because its airport sponsors have refused to acknowledge these 
forecasts. As late as a year ago, O'Hare's two major airlines were 
stating, publicly, that they could accommodate demand well into the 
21st Century. As late as a month ago, the City of Chicago testified to 
a State legislative committee that O'Hare would not require runway 
expansion.
    Its adverse conditions and ripple effects, however, finally have 
pushed O'Hare to center stage, nationally. Many Congressional leaders 
must fly through Chicago and they know, well, its serious problems. 
Iowa's two senators are asking that our governor be stripped of his 
authority so that O'Hare can be expanded to serve their state's 2.9 
million residents. We, too, believe that 2.9 million Iowans should be 
served through Chicago's aviation hubs; as early as 1995, our studies 
predicted the loss of service to their cities, a forecast which the 
airlines loudly protested.
    We applaud the courageous stand of Governor Ryan. His priority is 
the economic well-being of twelve million Illinois citizens. And our 
responsibility is to see that the 2.5 million South Suburbanites, who 
live within 45 minutes of the proposed South Suburban Airport, finally 
are well-served, as well. Our travel time to O'Hare, exceeding two 
hours, severely restricts our use, and discourages the location of 
business and industry in our midst.
    Fourteen years of planning, often against obstructionist actions of 
the City, the airlines and the Federal Government, have finally 
resulted in a thoroughly-planned airport that could be operational 
within five years. The Federal Government has the authority to expedite 
the EIS for the South Suburban Airport that has been stalled for four 
years. We urge this Committee to press forward with a solution to the 
national aviation problem that is: environmentally sensitive and 
socially just.
    This can and should be achieved without abandoning the 
environmental safeguards that the nation has put in place. The South 
Suburban Airport plans are well-documented and publicly discussed. 
There are no similar plans for O'Hare runways that have been presented 
to the public. Because the environmental consequences of O'Hare's 
expansion are expected to be severe, documentation of them has been 
avoided; and the need for expansion, itself, has been denied.
    Our airport plan protects the environment and enriches our 
citizens. In our service area of 2.5 million residents, we have a job 
shortage of 450,000. This will grow to 550,000 if we continue to pile 
the region's aviation rewards into the area surrounding O'Hare. Our 
communities can be revitalized and the region rebalanced, with no 
additional public funding, by building the South Suburban Airport. 
Building the South Suburban Airport can solve many of the nation's 
aviation problems and eliminate the region's growing economic divide in 
one fell swoop. It is smart growth, in all respects.
    We ask that you truly listen to our concerns, today, because they 
are the concerns of the people. They are, as well, the concerns of 
local government and business leaders, who offer--with the South 
Suburban Airport--solutions to the national and regional aviation 
crises that are both short-range and long-term. Thank you for your 
attention.

    Senator McCain. Thank you very much, Mr. Paesel.
    Mr. Schwiebert.

             STATEMENT OF MARK SCHWIEBERT, MAYOR, 
                      CITY OF ROCK ISLAND

    Mr. Schwiebert. Chairman McCain, Chairman Rockefeller, 
Senators Durbin and Fitzgerald, I want to begin by thanking you 
for convening this hearing here in Chicago and coming to us to 
hear some information about this very important issue.
    Today, I perhaps will speak with a little different 
perspective than most of the others, perhaps a little less 
passion on the subject because it isn't quite so close to where 
I'm from in western Illinois, but with no less interest in the 
concerns that exist with regard to Chicago aviation because of 
the significant impact it has on economic development and our 
job base in western Illinois and eastern Iowa.
    First a word about the base from which I come. I'm from the 
Quad Cities region, which is located on what is sometimes 
referred to whimsically as the western coast of Illinois--a 
four city region of Rock Island and Moline in Illinois and 
Davenport and Bettendorf in Iowa.
    Quad Cities International Airport is a facility that 
presently accommodates 400,000 passengers per day and as such 
is the third busiest airport in the state of Illinois, after 
Chicago O'Hare and Midway. We've seen a 56 percent growth in 
our enplanements during the last 6 years and serve a population 
base of approximately 1.2 million population in a 60-mile area.
    We are also going through an 18 million dollars expansion 
at our own airport, which we see as accommodating a 
considerable amount of additional growth in the future. And are 
presently the fifth fastest growing airport, Senator 
Rockefeller, the fifth fastest growing airport in the United 
states at the present time with hubs, in addition to here in 
Chicago, in St. Louis, Minneapolis, Detroit, Denver, Milwaukee 
and Atlanta.
    As such, we have become something of a regional sub-hub 
that can, in one respect perhaps, afford some opportunity for 
reducing some of the congestion that may occur at the 
Chicagoland airports. But we're very much concerned about the 
Chicago metropolitan airport situation and are here primarily 
to speak on behalf of the addition of runways at Chicago 
O'Hare.
    And the reason for that, as was referred to by Mr. Crown 
earlier, is because a large amount, 90 percent approximately of 
the people coming out of the Quad Cities International Airport 
at the present time are coming through O'Hare for purposes of 
catching connecting flights to other points.
    Only approximately 10 percent, due to a variety of reasons, 
are actually people who are coming to Chicago as the ultimate 
destination. Well, that has something to do with ridiculously 
high air fares presently on round trip air fares. The walkup 
fare to Chicago from the Quad City is presently $800. That's 
for a 165-mile flight.
    And that relates to a further reason why the additional 
runways at O'Hare are necessary. Not only do we need O'Hare 
with its ability to serve the international as well as the 
national community as opposed to the point to point service, 
but we need the expansion of the runway so we can gain 
additional gates from Quad Cities O'Hare for competing 
airlines.
    Presently our sole service to O'Hare is by United Express. 
That means that United Express basically has a captive market 
and can charge pretty much what they want for whatever the 
airfares would be to Chicago. And they are doing so.
    Senator McCain. They're charging $800?
    Mr. Schwiebert. Eight hundred dollars round trip for walkup 
service. Now, if you book in advance you can get somewhat 
better rates. I know I was booking for a trip in October where 
we would have had point to point service and it would have been 
over $300. And then would have been catching another flight out 
of here. But that would have been several months in advance 
would have been over $300. But walkup service is $800 at the 
present time.
    And that's the second reason why the added gates are 
important. In 1999 we had a competing airlines serving Quad 
Cities and that was American Airlines. Because of the limited 
number of gates, slots in and out of O'Hare at the present 
time, they shifted that service to what they saw as being a 
larger service base between Chicago and Omaha. And as a result, 
we were left with one airline to Chicago from the Quad Cities.
    The capacity we have locally could accommodate at least 
another four roundtrip flights a day to Chicago we've 
estimated. We presently have five roundtrip flights. Now, as I 
say, speaking for downstate communities here today in somewhat 
of an unofficial capacity, I would just suggest that although 
our problem may be more pronounced because of the fact that we 
have a busier air service, I'm sure that this condition could 
also be reported for many other downstate communities, which 
don't have the luxury of having as much air service as we do 
presently. And as a result I think there is a major concern.
    I would like to add that I think that one of the topics 
that's been raised today by a number of you on this esteemed 
panel that I think makes a great deal of sense is the concept 
of regional planning. I'm sure there is abundant capacity for 
just about any kind of air service that would be developed 
here. Particularly if you consider some of the numbers that are 
being mentioned here.
    At the same time, I think a first priority simply has to 
be, Senator Rockefeller, as you said earlier, on expanding 
capacity at O'Hare. It's simply not sufficient and no other 
alternative is going to meet the concerns that downstate 
communities have for a global, national as well as point to 
point service.
    Thank you very much.
    [The prepared statement of Mr. Schwiebert follows:]

   Prepared Statement of Mark Schwiebert, Mayor, City of Rock Island

    The Quad City International Airport is critical to the economy of 
Western Illinois and Eastern Iowa. It serves a 60-mile catchment area, 
including Rock Island, Moline, East Moline, Davenport and Bettendorf, 
and 1.2 million people.
    The airport serves 400,000 passengers per year, up 56 percent in 
just 6 years. We have almost completed the construction of a new $18 
million terminal concourse expansion project. We have added 12 new 
gates, two new baggage carousels, a frequent flier lounge, a new 
restaurant and snack bar, and a new gift shop. In the next 5 years, we 
will be the fifth fastest-growing airport in the country. We have 
nonstop air service to six different hubs--St. Louis, Chicago O'Hare, 
Minneapolis, Detroit, Denver, Milwaukee and Atlanta. For a region of 
our size, this represents very good service and allows us to be a 
``sub-hub'' that can help relieve congestion at major hubs like O'Hare. 
As such, our facility benefits all of Western Illinois and Eastern 
Iowa.
    But we don't have reliable and frequent service to O'Hare's 
International Hub, and this is destructive to businesses and economic 
development in the area. On July 31, 1999, American Airlines terminated 
service from the Quad Cities to O'Hare because American needed the 
slots to establish service between O'Hare and Omaha. This leaves only 
five daily flights by United Express to Chicago from the Quad Cities. 
This does not satisfy our demand for service to O'Hare and leaves no 
margin for error if a flight is delayed or canceled. Every day people 
drive to Chicago for international connections to insure that they make 
their flights and avoid air traffic or weather delays.
    Greater capacity to O'Hare is critical for our area's development. 
We need new runways at O'Hare to provide that capacity. Fliers in the 
Quad Cities are not only looking for better ways to Chicago--we need 
access to O'Hare's incredible range of air service to cities all over 
the world which only O'Hare can provide.
    Midwestern communities depend on service to O'Hare. And we need 
these runways now, not in the 10 to 15 years that it often now takes to 
complete runway projects. We need decisions to allow this to happen and 
an environmental review process to facilitate construction presently to 
meet current and future demand. The runways would be funded by the 
Passenger Facility Charges that passengers are accustomed to paying. 
Chicago and Illinois taxpayers should not have to bear the cost.
    In conclusion, I urge you to support new runways at O'Hare to 
foster greater economic development and progress throughout our 
Midwestern region.
    Thank you.

    Senator McCain. Thank you very much, Mayor.
    Mr. Karaganis, you state that no one would use Peotone if 
O'Hare is expanded. Is that correct?
    Mr. Karaganis. Yes, I think that's a position taken by----
    Senator McCain. But you also claim that expansion of O'Hare 
won't accommodate the forecast of additional traffic. That 
seems to me a contradiction.
    Mr. Karaganis. It isn't, Senator, if I may explain.
    Senator McCain. Sure.
    Mr. Karaganis. The premise of my good friends over here at 
the Civic Committee is that----
    Senator McCain. I think we need the microphone again. I'm 
sorry.
    Mr. Karaganis. I'm sorry, let me----
    Senator McCain. Go ahead.
    Mr. Karaganis [continuing]. Is that really O'Hare ought to 
be the centerpiece of regional air transportation. And if you 
follow their logic, if you accept their logic, which was a 
study paid for by United Airlines, but if you accept it and I'm 
willing for the sake of discussion, then you must keep O'Hare 
as the centerpiece for all the connecting traffic into the 
region to keep the international base, et cetera.
    What that basically means is when that quad runway system 
is installed, which must have associated terminals and roadways 
in order to keep the traffic moving, you'll run out of capacity 
fairly shortly. And I think the statement was made in one of 
the earlier panels that basically what you'll have is the 
delays will be right back to where they are today, as these 
runways get filled up.
    The premise then is to add more runways. If you accept the 
logic of what is being proposed here, you would then say, all 
right. If we have four parallel runways, why don't we have at 
O'Hare what the state is proposing at Peotone, namely a fifth 
and sixth parallel runway.
    You can do that. And as Congressman Hyde said, you can do 
that but you've got to look at what the costs are of these 
various alternatives. So, yes, the quad runway system, based on 
Chicago's analysis and FAA using the synop capacity model is 
that the quad runways will fall short of the regional demand 
and fall short of being able to meet that capacity.
    Then you have to ask yourself, how much have we invested 
here, and we'll hear the same argument again, we have this huge 
sum cost in O'Hare. What are the incremental costs of putting a 
fifth and a sixth runway at O'Hare? And that is all legitimate 
questions. I'm not trying to deny them. But the fact is that's 
what the analysis will be.
    So, the question right now, and this is in a document and I 
must say there's some useful material in here. A City 
consultant, when faced with this said----
    Senator McCain. Please, summarize.
    Mr. Karaganis [continuing]. If our runways will not do the 
job, why are we adding runways? Why don't we just build a new 
airport?
    Senator McCain. I see. Just very briefly, you made some 
very strong statements regarding corruption involving the city 
of Chicago and O'Hare. Have you taken it to law enforcement 
authorities?
    Mr. Karaganis. Yes, we have, Senator. We have taken the 
anti-trust problems to the United states Department of Justice, 
to the state Attorney General to the U.S. Attorney and the----
    Senator McCain. I'm talking about charges of corruption.
    Mr. Karaganis [continuing]. And with respect to corruption, 
we've taken those charges to the U.S. Attorney as well.
    Senator McCain. Thank you. Mr. Crown, is there an airfare 
problem at O'Hare where United American charged Chicago area 
travelers, particularly business travelers, more than we would 
be charged if there was more competition at the airport or in 
the region?
    Mr. Crown. If you expanded the operational capacity at 
O'Hare and with that expanded the ground facilities, which 
means more gates, some of those gates obviously could go to 
competitive airlines. And the more competition you have 
obviously the lower the rates will go.
    Senator McCain. Mr. Paesel, do you oppose expansion of 
O'Hare?
    Mr. Paesel. We do oppose expansion of O'Hare at this point 
because we don't know what that entails. We don't know what 
that means and what's the impact on the environment. What's the 
cost? And until a full plan is on the table, it's impossible to 
support a plan that doesn't exist.
    Senator McCain. If you accept the premise that we need to 
expand capacity somewhere, what's your solution?
    Mr. Paesel. Our obvious preference for a number of reasons 
is to build the south suburban airport near University Park and 
Peotone for several reasons beyond what's been talked about 
here. Even if you were able to add ten runways at O'Hare, it 
doesn't mitigate the fact that our 2\1/2\ million residents 
who, larger than the metropolitan area of St. Louis and many 
other major metropolitan areas, it doesn't mitigate the time 
for us to reach and have the benefits of a major airport.
    The second thing is there hasn't been covered here is that 
the travel times to O'Hare have deteriorated so badly, the 
congestion is so bad that based on Chicago Area Transportation 
Study figures, the average travel time from the Loop to O'Hare 
is only 6 minutes less than the average travel time from 
downtown to the Peotone airport.
    So, we're not talking about a modern airport that is far 
outside the metropolitan area is not usable for others. It's 
very usable especially for underserved area in the southern 
suburbs.
    Senator McCain. Thank you. Mayor Schwiebert, are you 
opposed to building a new airport south of Chicago?
    Mr. Schwiebert. We're really not here to take a position on 
that subject. I think that's really more a regional issue that 
needs to be addressed giving consideration to a number of the 
factors that have been looked at today. I certainly think that 
any kind of regional planning approach ought to give 
consideration to that possibility as well as the other 
possibilities that have been talked about in terms of both 
Rockford's underutilized capacity and potentially Gary.
    Senator McCain. I think that we are in some agreement that 
there should be, or it would be very helpful if there were a 
regional authority. Does anyone disagree with that?
    Senator Rockefeller.
    Senator Rockefeller. I just have to second what the 
Chairman just said. Mr. Karaganis, I have to say to you, I've 
been in the Senate 17 years. I've never seen such a vitriolic 
presentation in my entire life. More charges of conspiracy and 
corruption and deceit and all kinds of things.
    And the reason, I don't say that because you have the right 
to write whatever you want. But it's sort of that approach, 
which is the opposite of getting to solve a problem, which is a 
national problem, which is in the interest of Illinois as a 
whole to solve. I just make that point.
    And second, I'm not asking you a question. I'm just making 
a point. And second, it strikes me, as Chairman McCain has 
indicated, that there is reason to think about a regional 
authority. It's absolutely incredible what happened in the 
bitterness, very similar bitterness with Baltimore-Washington 
International, National and Dulles.
    I mean, you would have thought that a world war had broken 
out. It had broken out. And we were consumed by it. People--
Senators wouldn't speak to each other if they took this 
position or that position or whatever.
    A regional authority was created, actually BWI is not a 
part of that, but they're booming nevertheless, within the 
Virginia situation. And all of a sudden people who had been 
competing like crazy were working together because they were on 
the same regional authority.
    And by the way, they were selling nothing but AAA rated 
bonds and making, and they can't stop building. And we have, 
you know, a better and better situation than ever before.
    So, I'm not sort of asking a question, Chairman McCain. I 
just sort of want to say that I think that what Lester Crown 
has said and what the Mayor has said sums up my reaction to 
what I've heard and what I spent a lot of time in preparing for 
this hearing. And that is that you have to start, I mean, it's 
just common sense. It's not a question of because it's in 
Chicago or because it's under the Mayor or whatever.
    Of course you have to start with doing O'Hare because it's 
there. Because you can build new runways and because you can do 
these things in intelligent ways which allow traffic and delays 
to be accommodated.
    And, oh, by the way, yes, that will be inconvenient. But 
with the shorter time line that the Chairman and I are working 
on to be able to do all kinds of things, not just environmental 
impact studies but building of runways, as both Mr. Crown and 
the Mayor have indicated, that doesn't preclude other options.
    And it seems to me that that's the sort of spirit that's 
needed. And that's what I'm so hoping that the Mayor and the 
Governor can come together and make an arrangement which serves 
not only the entire state of Illinois. I'm not in a position to 
say whether it should be Peotone or some other place. I mean, 
it's going to have to be another place, I think, but it's going 
to have to start with O'Hare and it doesn't mean that 
concurrently other things can't be done at the same time.
    But I just really beg you to keep us out of it because 
we're not going to stay out of it unless you solve it. We can't 
afford to. The nation can't afford to. The interstate highway 
system is a national system. It is a national system. The 
Governors, I was one for awhile, yes, they get to place where 
it goes, but, boy, it is a national system. The government pays 
all the money and there's a very strong parallel between that.
    So, I really advise cooperation based upon doing O'Hare and 
then looking for an additional alternative, which I think is 
going to be inevitable, which is going to be in the interest of 
the state of Illinois and the country. Thank you.
    Senator McCain. Thank you.
    Senator Fitzgerald.
    Senator Fitzgerald. Well, I wondered if Mr. Karaganis would 
want to address the cost issue that he was challenged earlier 
before on it. And I have a chart here. This is the reprint from 
the Daily Herald. It shows the seven existing runways at 
O'Hare. And this is a possible reconfiguration, which most 
people seem to be operating that they tear up several of the 
runways to get four parallel runways.
    Could you explain how you get to your cost estimates on 
that?
    Mr. Karaganis. Yes. I submitted a memorandum yesterday in 
response to a question from Mr. Chamberlain, which has in the 
memorandum an attachment entitled, the Analytical Frame Work 
that Governs Airport Decision Making. And that frame work 
contains a number of quotations from planning documents by the 
city of Chicago that basically says you must integrate the 
airfield terminal and ground access components.
    And if you don't have adequate ground access components to 
feed the airport and to take traffic off the airport, you can 
add all the runways in the world and they aren't going to work. 
The same thing is true with terminals. If you have all the 
runways and don't have adequate terminals.
    Now, there's a six billion dollar proposal out at O'Hare 
right now called World Gateway/CIP. If it's not to address the 
two new runways that are being proposed or the quad runway 
system, then what terminals and runways are being proposed that 
will have to address and to be integrated with the additional 
runways.
    If you look at what has been announced, and this is based 
on an inverted plan. You have the four runways, the demolition 
of four runways. You have construction of four new runways. You 
have a six billion dollar terminal plan. And what is not 
included in the cost estimates is the cost of a western 
terminal because of the loadings that we're talking about for 
the quad runways, you need to have western access. The 
documents show that.
    So, what is the cost of the western terminal? What is the 
cost of the western access? Runways will not be able to handle 
the additional capacity without the terminals and the roadways. 
And that's what integrated airport planning and master planning 
is all about. And it's done at airports around the country.
    And contrary to a suggestion that was made earlier, the 
state has done that at the south suburban airport. They have 
integrated the terminals, the roads and the runways. And that 
needs to be done. When you integrate everything out here, 
you're looking at 10 to 15 billion dollars plus. And if you 
don't do these key elements, you won't be able to carry the 
traffic that is projected to be carried by the runways. It's 
that simple.
    Senator Fitzgerald. Now, Mr. Crown, I totally agree with 
you that O'Hare is a great economic engine. I come from the 
northwest suburbs, the Village of Inverness, about, oh, maybe 
15 miles northwest of the airport. And my parents moved into 
that area in 1958. And in Palatine Township, there were only 
3,000 people there in 1958. I think there's about 130,000 
people in Palatine Township. And it was the Northwest Tollway 
being built and O'Hare Airport being built that brought all 
that economic development out there.
    But wouldn't you acknowledge that there are other parts of 
the state of Illinois that also want the economic engine? And 
don't some of the south suburban people have a valid point that 
they want an economic engine and jobs in their part of the 
state, too. What do you say about that?
    Mr. Crown. One does not preclude the other, Senator. The 
most important thing, because of the air capacity problem 
throughout the country, is to maximize the capability of the 
one hub and spoke airport, which we have at O'Hare. That in no 
way precludes putting an airport in another location, whether 
it be in Peotone or elsewhere.
    As the demand is growing, the chances are that a third 
airport is going to be needed. But they are not alternate 
solutions. That's all I am saying. One, is the most important, 
is increasing the capacity at O'Hare. If concurrently, it's a 
question of a third airport, too, fine. But an airport, sir, is 
not a jobs program. It solves an air capacity problem.
    Senator Fitzgerald. And you have a specific committee has 
been on record favoring at least a land banking for a third 
airport.
    Mr. Crown. We certainly have.
    Senator Fitzgerald. Yes. Mayor Schwiebert, thank you for 
being here and I love your facility at Moline. It's a great 
airport. I've been flown in there on several occasions myself. 
But I believe that while your overall traffic, your 
enplanements have gone up substantially and I congratulate you 
and your airport director on your leadership there.
    While your overall enplanements have been going up 
dramatically and you are a very fast growing airport, based on 
the figures that I've seen, your actual commuter seats and 
airfare and commuter seats from Moline to Chicago have been 
going steadily down since 1992. In fact, you've had 263,000 
seats to Chicago in 1992. It went down to 249,000 in 1996 and 
then down to 175,000 last year.
    And don't we need an awful lot of new capacity at a place 
like O'Hare or in Chicago in order to get you more 
enplanements? It's not just a matter of adding one runway at 
O'Hare or two runways. Clearly, the air carriers, when they 
have the opportunity to run a flight out of O'Hare, they like 
to run a big jet carrying 300 or more people to another big 
city as opposed to a smaller regional jet or commuter plane. 
Isn't that the case?
    Mr. Schwiebert. Well, in terms of the numbers that you're 
referring to, Senator, I would defer to our Director of 
Aviation, who's here and he would be certainly better to 
comment on the specific numbers. But certainly one of the 
reasons that you're seeing some decline in the number of 
commuter flights, in particular, to Chicago is a reason I 
mentioned earlier, that since 1999, we've had a sole provider.
    It's been essentially a monopoly. And United Express has 
done what monopolies frequently do when they're given the 
opportunity. They've charged what the market will bear. That 
has resulted in a lot of people who are coming to Chicago for 
Chicago business driving or finding other ways to get up there.
    I know there are some people who drive up to Princeton and 
catch the passenger train to Chicago. Anything to avoid having 
to pay those kinds of outrageous fares that we're seeing.
    I think that with the increase in the gates that would come 
with an addition of one or two runways, we would be able to 
make a very strong case to American Airlines to reinstate the 
service and the demand would be there.
    At the present time I think we may actually be seeing some 
loss of service to Chicago O'Hare as well because of the fact 
that we've gotten more hubs that we can service. And that's 
good because that reduces some of the congestion problem at 
O'Hare, as I said before.
    But I think one of the big things that's impacting on 
commuters is the fact that there is a monopoly right now. 
Increasing gates, increasing the capacity here would allow for 
more of that commuter connection to be reinstated and those 
commuter flights to be increased.
    I would like to add just one other thing on this concept of 
the regional initiative, which was asked about before. I think 
it's critically important in any kind of a regional scheme, 
from our perspective, to do two things. First of all, I think 
it's very important to continue to have strong local input. I 
recognize there may be a place where the Federal Government 
needs to get involved, particularly with national issues such 
as we're dealing with with the federal aviation issues, just as 
we were in the interstate highway system many years ago.
    But I think it's also critically important to continue to 
have the input of those who are in the field who are going to 
be most directly impacted by it in that process, and heavily 
involved in that process.
    Second, I think that any kind of regional scheme has to 
continue to recognize that the primary airport within the 
Chicago metro region has to be O'Hare for the reason that was 
referred to by one of the presenters previously.
    If you attempt to have two hubs, and we've seen this happen 
too often in the Quad Cities where we have four metropolitan 
centers that sometimes compete with each other. Instead of 
having one well-done project, you can wind up with a lot of 
half-baked projects.
    And what we don't need in the Chicago metro region, it 
would be my opinion as a downstate mayor, would be two major 
hubs in this area that would be competing with each other and 
creating overhead, environmental and other problems which would 
result in both airports being diminished in their ability to 
serve this region's needs.
    Senator McCain. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman. Mayor Schwiebert, 
thanks for being here and for speaking for a lot of downstate 
communities. I know that, I extended the invitation because I 
wanted this voice to be heard.
    Senator Fitzgerald, my colleague, raised a legitimate point 
to Mr. Crown about don't we need economic development in many 
parts of the state. I certainly believe we do and I think it 
includes downstate. And we shouldn't ignore the impact of an 
O'Hare decision on downstate communities like your own and 
others that you speak for a day, I thank you for joining us.
    Mr. Karaganis, you're a good lawyer. You're a good 
advocate. You work hard for your client. I think that the point 
that's been made is an important one. We need to have, tone 
down the rhetoric, in your own words you said keep the rhetoric 
down. I really think that's important now if we're ever going 
to reach a reasonable solution to what is a very important 
challenge.
    You just minutes ago identified the World Gateway Project 
at O'Hare as a six billion dollar project. It's 3.8 billion. 
You've given us estimates on the cost of runways, this chart 
here. If you could bring that over here. The estimates from 
your commission are so wildly far away from the cost of runways 
all across the United states.
    The average cost is about 530 million dollars for one 
runway. And you say when it comes to O'Hare it's going to be 7 
to 10 billion. Now, the way you reached that is explained. You 
add things in. Oh, you need a new terminal. Oh, you need a new 
access. You put in all the costs on top of it and say it isn't 
just a runway. It's all the things that have to be brought in.
    If we're going to use that standard, we need to use that as 
well at Peotone.
    Mr. Karaganis. Absolutely.
    Senator Durbin. Excuse me. If we use that standard, we need 
to use it at Peotone.
    Mr. Karaganis. Absolutely.
    Senator Durbin. The fact is, I can walk downstairs from the 
elevator here, use my CTA pass and be out at O'Hare in 45 
minutes and I've done it. I can't do the same thing at this 
moment to Peotone. We know that. This infrastructure doesn't 
exist at Peotone. The infrastructure of highways and mass 
transit, of truck loading facilities, of railyards, of hotels, 
of restaurants, of rental car facilities; that is a huge 
massive infrastructure which is not easily, if ever, replaced 
in a greenfield setting.
    I think that Peotone has a future. But let's be honest 
about it. Why would we walk away from this massive investment 
in infrastructure at O'Hare that has served us so well and not 
modernize it? Not capitalize on what we have?
    I think that we can do that and still have an opportunity 
to build the south suburban airport. There's no reason why we 
can't. Maybe this dates me. I can remember when you walked 
through Midway Airport and ducked the buckets for all the 
leaking roofs. There were no airlines there. Just a handful of 
people wandering in and out. Look at it today. Look what's 
going on here.
    A brand new terminal and all this expansion. As Senator 
Rockefeller said, we have this sensational appetite in America 
to get up and go. And we're using airlines more and more. And I 
say, Mr. Paesel, south suburbia, they deserve an airport and I 
think they should have one. And I think there's going to be an 
opportunity for them to use all of the potential passengers in 
developing it, but not at the expense of O'Hare.
    So, I hope that as we get into the rhetoric of what things 
cost that we use really realistic and honest figures here.
    Mr. Karaganis. Can I have----
    Senator Durbin. Excuse me. Excuse me, Mr. Karaganis, excuse 
me.
    I hope that we use the information that we can derive from 
the FAA and others. And if you're going to be honest in talking 
about the cost of things, talk about the cost of replacing the 
O'Hare infrastructure in south suburbia. It's massive. It goes 
way behind 600 million dollars to talk about something that's 
going to augment or supplement what is available at O'Hare.
    Please, sir, you may respond.
    Mr. Karaganis. Thank you, sir. We couldn't agree with you 
more that Peotone ought to be evaluated on the same grounds as 
O'Hare expansion. In other words, the same criteria of what 
goes into airport planning. And what we're talking about, sir, 
when we put the cost estimates down, are the elements that the 
FAA uses in airport master planning.
    So, all those elements are necessary in order to deliver 
the planes to the runways and the passengers in and out of the 
airport. Now, you're absolutely right. Those costs ought to 
be----
    Senator Durbin. Mr. Karaganis.
    Mr. Karaganis [continuing]. And those costs----
    Senator Durbin. Mr. Karaganis, how long would it take you 
on a CTA train to get down to Peotone now?
    Mr. Karaganis. On a CTA train?
    Senator Durbin. Or any train?
    Mr. Karaganis. Never.
    Senator Durbin. You can't. The point I'm making is this. If 
you're talking about serving, excuse me, sir. If you're talking 
about serving an airport, and the need to serve it, then we've 
got to talk about comparable requirements. I think the day may 
come and I hope it does come when such an airport is served. 
But if we're going to be comparing the cost of investment at 
O'Hare and the cost of building a new airport, then we have to 
put it at the same level.
    Mr. Karaganis. Senator, I think there's a commuter service 
on Metro to University Park right now.
    Mr. Paesel. Could I clarify that?
    Senator Durbin. I can tell you that if you're going to 
drive down the Dan Ryan, you talk about a 6-minute difference 
between getting to Peotone and getting out to O'Hare. The Dan 
Ryan, if I'm not mistaken, runs into a little traffic 
congestion from time to time.
    Mr. Paesel. It absolutely does. If I could just clarify two 
things very quickly. One, there is existing commuter rail 
service from downtown to University Park, which is on the north 
border of the airport that exists and you can do it in 50 
minutes.
    Senator Durbin. Can you say that it really--well, I don't 
want to get into details here, but you would have to concede 
that if you're talking about a runway with millions of 
passengers, you're talking about a more substantial investment, 
are you not, in infrastructure to serve it.
    Mr. Paesel. Obviously, there would have to be improvements 
to the rail system. This airport though has two existing 
expressways, a much better infrastructure than O'Hare ever had. 
When it opened up and for many years.
    Senator Durbin. Well, things were quite a bit different 
when it was an orchard.
    I would say that the--I'd just like to say this in closing, 
Mr. Chairman. Thank you for coming here and it was a good 
hearing. And I appreciate bringing people together on what you 
can tell is a very interesting and contentious topic.
    I think the suggestions here on regionalism on the 
September 1st deadline and this conversation is going to help 
us move along. Thank you very much.
    Senator McCain. Well, I want to thank my two colleagues 
from Illinois and their dedication and efforts on this issue. I 
don't believe this Committee would be here if it had not been 
for their urging and their involvement.
    I also want to thank Senator Rockefeller, who has played a 
vital role in this whole process because he's the chairmanship 
of the Aviation Subcommittee on the Commerce Committee. And we 
all look forward to working with him.
    I want to thank the witnesses. Mayor Schwiebert, you are 
very eloquent. Mr. Schwiebert, you were very eloquent and we 
thank you. We thank all the witnesses. We think this is a very 
important hearing.
    And I guess, if I could sum up, it's now up to Chicago and 
the people of Illinois, that they're going to come together and 
resolve this issue. As Senator Rockefeller stated so 
eloquently, if they do not, then I think you're going to see 
intervention from various areas. And I'm not sure that's good 
for the process because I think we all function on the 
fundamental principle that the people who live and work here 
and are involved with the community know best what the 
solutions for the community are.
    But our taxpayers and our citizens, West Virginia and 
Arizona, all over this country, do have a stake both financial 
and obviously because we are citizens that go through and use 
the facilities here in Chicago if they want to get just about 
anyplace in America or in some cases, the world.
    So, I thank you all for your involvement, your commitment. 
And we stand ready to help in any possible way that we can, 
which is our proper and correct role and we hope we never have 
to do anything more than that.
    I thank you. This hearing is adjourned.
    [Whereupon, at 12:15 p.m., the Committee adjourned.]

                            A P P E N D I X

           Prepared Statement of Ronald W. Wietecha, Mayor, 
                      City of Park Ridge, Illinois

    If I had been allowed to testify before this hearing I would have 
said that my name is Ron Wietecha. I'm the Mayor of the city of Park 
Ridge, Illinois. According to the latest census figures, 37,775 people 
live in my city. Park Ridge was incorporated as a city in 1910 long 
before airplanes were invented. Many of my residents have lived in the 
same homes for three and four generations, making Park Ridge a 
Homestead community. We have no industry in Park Ridge. City Hall is 
less than three miles from the center of O'Hare Airport. Because we are 
east of the airport, we are most affected by landings, but when the 
winds are right, we get our share of takeoffs as well.
    Park Ridge political leaders opposed the siting of a jet-based 
airport in Maine Township in the 1950's. They knew then that airports 
grow and this one is too close to residential neighborhoods like Park 
Ridge. They also knew that Chicago as the operator of an airport built 
outside of its own city limits and the middle of no-voters; it would 
not have to be responsive or accountable for growth and nuisance 
issues. In 1981, Park Ridge joined Des Plaines, Niles and Bensenville 
in creating the Suburban O'Hare Commission to oppose uncontrolled 
expansion of the Airport. My predecessor, Marty Butler liked to say 
that the airport is something to be feared because when Chicago wants 
something, you can't fight City Hall alone.
    O'Hare Airport has indeed become something to be feared. In spite 
of Suburban resistance, it has been allowed to grow into one of the 
world's busiest airports without so much as a ``by your leave'' or 
``what do you think as a neighbor.'' We are the ones who have had to 
compromise over the years and accept every additional flight and 
decibel. When we've complained, we've been criticized for being 
strident and politically motivated. The fact remains, that quality of 
life for Park Ridge residents is affected by over 930,000 flights 
annually. The fact also remains that O'Hare was never designed to be a 
megaport with four parallel runways. It was never designed to handle 
the 1.8 million flights a year that are conservatively projected for 
the year 2010. O'Hare will never be a Denver International, Atlanta 
Hartzfield or Dallas Fort Worth airport. There is not enough land or 
airspace to handle the traffic of the future. There are not enough 
roads and highways to allow passengers easy access to the terminals.
    O'Hare is a great economic engine but only for some. The direct 
benefits are shared by only a few including Chicago and the airlines, 
but the economic profits come at a high price. They come at a price 
that is being paid by the residents of my town. Some of the problems 
created by an overcrowded and overstuffed airport include increased air 
pollution, noise pollution, delays and the heightened potential for air 
and ground disasters. I appreciate the need to expand the region's 
airport capacity. I understand the need for more runways, but laying 
more concrete at O'Hare is not the answer. If we need more capacity and 
if we need more runways, then build them at a new airport.
    Building runways at O'Hare can only mean more negative impacts to 
the environment. At 930,000 flights a year we already have too much 
noise pollution, air pollution and too many threats to public safety. 
To add more runways, the city of Chicago has announced it must condemn 
and knock down at least 600 homes in surrounding communities. To build 
more runways, Chicago must make the airport footprint larger. To add 
more access to the airport, homes and businesses must be taken and 
destroyed. This cannot be called a balanced and fair approach to 
airport expansion when there are less radical, hysterical and more 
economically advantageous alternatives.
    Let me address the issues of noise pollution and air pollution. 
According to Chicago's own figures, each month, more than half of all 
flights currently arrive on runways 22 right and 27 right, over Park 
Ridge. These flights create individual incidents of noise that 
frequently are at 90-plus decibels. The Federal threshold for allowable 
noise is 65 decibels. Yet Park Ridge qualifies for no noise mitigation, 
none. Chicago manipulates noise monitor results by averaging noise over 
a 24-hour period through a computer model that is unfair and unreal. 
Park Ridge gets the noise and no relief or soundproofing. Chicago 
refuses to use the Federal noise guidelines because the costs of a real 
noise-soundproofing program would simply be too great. So we are asked 
to grin and bear it for the sake of someone else's economic windfall. 
Last April, over 80 percent of Park Ridge voters indicated that they 
want home soundproofing. Instead, we are told that the airport needs 
more runways and more flights.
    Last year, Park Ridge, Des Plaines, Itasca and Niles undertook our 
own air quality study. The study was done under the auspices of an 
Elmhurst firm, Mostardi and Platt. The study concluded that O'Hare 
Airport is the No. 1 polluter in the State of Illinois. We discovered 
that the toxic substances produced by jet engines are carried across 
our whole region covering more than 90 communities. We also learned 
that neither the Federal EPA nor the Illinois EPA measures the toxic 
emissions produced by jet fuel and jet engines when air quality tests 
are done. Their tests measure only the exhaust from stationary sources, 
such as onsite buildings, boilers, compressors, air conditioning 
equipment and gasoline powered ground vehicles that either work on the 
premises or bring passengers in and out of the airport. Although 
limited in nature, these EPA results indicate that the airport is one 
of the biggest polluters in the State and the largest health hazard. 
When you add the carcinogenic emissions from airplane engines, O'Hare 
becomes the biggest polluter in the state. However, no one is 
officially acknowledging this fact or doing anything to reduce the 
risks and dangers.
    Recently and without much fanfare or publicity, the American Cancer 
Society's Palatine Office released findings as to the number of cancer 
cases reported in our area. The highest incidents of cancers for both 
men and women have been reported in the O'Hare ring communities of 
Arlington Heights, Mount Prospect, Palatine, Des Plaines, Niles and 
Park Ridge. Instead of doing something to reduce the threat of cancer 
from air pollution, Chicago and the airlines want to add more runways, 
more flights and more toxic emissions to the air we breathe.
    New airports, like Denver International, must be sited with 
adequate open space around the facility to buffer people from the 
environmental and health hazards associated with airport operations. 
Park Ridge is a community of people who want to own a home and raise a 
family. The people of Park Ridge appreciate O'Hare for what it is, a 
convenience and an economic engine. But when it comes to airport 
expansion and more runways they say enough. You can build new runways 
and enhance capacity faster and cheaper in the South Suburbs where 
economic development is needed and wanted.
    Park Ridge residents will not stand for more noise pollution, more 
air pollution and more threats from jets being squeezed into a 1950's 
airport. I am here to remind you that Airport expansion is a people 
issue not just a profit issue. Over a million people live near O'Hare 
and they should not be dismissed or ignored. The people of Park Ridge 
do not want airport expansion, which would serve only airline 
monopolies, Chicago sweetheart deals and the convenience of strangers. 
There are more cost effective and beneficial alternatives to more 
runways at O'Hare. All plans for dealing with delays and regional 
airport development should be put on the table and evaluated fairly and 
objectively. To blindly push for expansion of O'Hare is not only 
unconscionable, it's selfish and ignores the welfare of people in the 
communities surrounding O'Hare.
    Some congressmen, the airlines and the city of Chicago want 
discussions about airport issues to take place behind closed doors 
because they want to control who is at the table and what is said. They 
seem to be afraid to look at all proposals for handling current and 
future aviation needs. They seem to be afraid of an objective cost/
benefit analysis. They seem to be afraid to confront the people who are 
legitimate stakeholders in this issue. They seem to be afraid of the 
facts.
    I'm here to call upon all government leaders to serve the public 
good rather than to protect corporate profits. While acknowledging the 
aviation needs of the region, you must also acknowledge the people 
living around O'Hare. To do anything less is to betray your public 
trust.
  

                                  <all>

</pre></body></html>
